<html>
<title> - WORLDWIDE THREATS AND HOMELAND SECURITY CHALLENGES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



 
           WORLDWIDE THREATS AND HOMELAND SECURITY CHALLENGES

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 21, 2015

                               __________

                           Serial No. 114-37

                               __________

       Printed for the use of the Committee on Homeland Security
                                     



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                  
 99-743 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                                
                               
                               
                               
                               
                               
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     6

                               Witnesses

Honorable Jeh C. Johnson, Secretary, Department of Homeland 
  Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Nicholas J. Rasmussen, Director, The National 
  Counterterrorism Center, Office of the Director of National 
  Intelligence:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. James B. Comey, Director, Federal Bureau of Investigation, 
  U.S. Department of Justice:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article........................................................    44
  Story..........................................................    45
  Letter.........................................................    46
  UNHCR Resettlement Handbook--Country Chapters, COUNTRY CHAPTER 
    USA: The UNITED STATES OF AMERICA............................    50

                                Appendix

Questions From Honorable Scott Perry for Honorable Jeh C. Johnson    77
Questions From Honorable Earl L. ``Buddy'' Carter for Honorable 
  Jeh C. Johnson.................................................    80
Questions From Honorable Barry Loudermilk for Honorable Jeh C. 
  Johnson........................................................    85
Questions From Honorable Norma J. Torres for Honorable Jeh C. 
  Johnson........................................................    85
Questions From Honorable Barry Loudermilk for Nicholas J. 
  Rasmussen......................................................    88
Questions From Honorable Norma J. Torres for Nicholas J. 
  Rasmussen......................................................    88
Questions From Honorable Scott Perry for James B. Comey..........    88
Questions From Honorable Earl L. ``Buddy'' Carter for James B. 
  Comey..........................................................    89
Questions From Honorable Barry Loudermilk for James B. Comey.....    89
Questions From Honorable Norma J. Torres for James B. Comey......    89



           WORLDWIDE THREATS AND HOMELAND SECURITY CHALLENGES

                              ----------                              


                      Wednesday, October 21, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                      New York, NY.
    The committee met, pursuant to call, at 10:12 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Rogers, 
Duncan, Barletta, Perry, Clawson, Katko, Hurd, Carter, Walker, 
Loudermilk, McSally, Ratcliffe, Donovan, Thompson, Jackson Lee, 
Langevin, Richmond, Keating, Vela, Watson Coleman, Rice, and 
Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today to examine 
current and evolving threats to the homeland. I now recognize 
myself for an opening statement.
    First, I would like to thank our witnesses for joining us 
here today and for offering their insights on the security 
challenges that we face at home and abroad.
    We will cover a lot of ground today from America's border 
security to our cyber defenses, but I want to focus, in 
particular, on the rising terror threat to the homeland.
    Last month, this committee held the first-ever 
Congressional hearing at the 9/11 Memorial Museum in New York. 
On hallowed ground, we were reminded of the solemn pledge our 
country made in the aftermath to never let such a day happen 
again.
    That resolve became the rallying cry of this Nation as we 
embarked on a generational war against Islamist terror. 
Fourteen years later, we are still engaged in that struggle. 
Today, I expect an unvarnished assessment from our witnesses 
about where we stand in the fight.
    We are at a turning point in the new age of terror. I 
predict this year could exceed the last to become the most 
violent year on record for global terrorism. Radical Islamists 
are recruiting on-line across borders and at broadband speed, 
and the impact is being felt world-wide. Here in the United 
States, there have been more terrorist cases this year 
involving home-grown Jihadists than any full year since 9/11. 
ISIS alone has inspired, or directed, 17 terror plots in 
America since early 2014, and overall, the group has been 
linked to more than 60 plots against Western targets from 
Canada to Australia. The pace of terror plotting is 
unprecedented, unrivaled, even by al-Qaeda at its peak. Yet, we 
are no closer to dismantling ISIS than we were a year ago. 
Despite 14 months of air strikes, the group has largely 
maintained its core safe haven while expanding its global 
footprint. The ISIS reign of terror is fueled by its 
recruitment of foreign fighters who hail from more than 100 
countries, including our own.
    This committee launched a bipartisan task force to examine 
the foreign fighter threat, and last month, the group released 
its final report with some very disturbing findings. Overall, 
they found that we are losing the struggle to stop Americans 
from traveling overseas to join jihadists. We have managed--
only managed to stop a small fraction of the hundreds of 
Americans who have attempted to fight in Syria and Iraq, and 
some have even managed to make it back into the United States 
after enlisting with terrorist groups.
    We are falling behind the threat for many reasons. 
Vulnerable young people are being recruited at record speeds, 
and terrorists are shifting their communications to Dark Space, 
which has made it far more difficult to monitor and intercept 
suspects. These secured communication tools are also being used 
to plot attacks in our own country.
    Moreover, gaping security weaknesses overseas, especially 
in Europe, are making it easier for extremists to travel to and 
from the conflict zone. But at the end of the day, we cannot 
keep individuals from being lured to terrorist hotspots unless 
we eliminate the problem at its source. Sadly, those prospects 
have grown darker.
    The President's failure to develop a coherent strategy in 
Syria and Iraq has emboldened our adversaries to fill the 
vacuum with disastrous consequences. Russia and Iran are now 
propping up Assad, and there are reports that even Cuban 
special forces have joined the fight. Those rogue regimes will 
fan the flames of sectarianism and make it harder for us to 
eliminate the terrorist sanctuary in the region. Their actions 
will also intensify refugee flows, which have become a serious 
security challenge in light of reports that terrorists are 
exploiting the crisis to sneak operatives into the West.
    Violent extremists are also expanding their foothold from 
Libya to Afghanistan. Yet, I am alarmed that we lack a clear 
vision for reversing their gains and winning the wider war 
against Islamist terror. If we fail to defeat our enemies 
overseas and combat them in their hateful ideology, we will be 
forced to fight more of them here at home. We have learned this 
the hard way. Today, I hope to hear from our witnesses about 
these challenges and how their agencies are working to 
strengthen our defenses on the home front.
    Again, I want to express my gratitude to each of you for 
your close and continued cooperation with this committee, your 
dedication to our country, and your success this year in 
disrupting so many terrorist plots.
    Let me just close by saying that the FBI and Homeland 
working together have arrested almost 70 ISIS-related 
individuals in this country. I am amazed at what we have been 
able to stop, and I just want to commend you for that.
    With that, the Chair recognizes the Ranking Member.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                            October 21, 2015
    Good morning. I'd like to thank our witnesses for joining us and 
for offering their insights on the security challenges we face at home 
and abroad. We will cover a lot of ground today--from America's border 
security to our cyber defenses--but I want to focus in particular on 
the rising terror threat to the homeland.
    Last month, this committee held the first-ever Congressional 
hearing at the 9/11 Memorial Museum in New York. And on hallowed 
ground, we were reminded of the solemn pledge our country made in the 
aftermath: To never let such a day happen again. That resolve became 
the rallying cry of this Nation as we embarked on a generational war 
against Islamist terror.
    Fourteen years later, we are still engaged in that struggle, and 
today I expect an unvarnished assessment from our witnesses about where 
we stand in the fight.
    We are at a turning point in a new age of terror. I predict this 
year could exceed the last to become the most violent year on record 
for global terrorism. Radical Islamists are recruiting on-line, across 
borders, and at broadband speed--and the impact is being felt world-
wide. Here in the United States, there have been more terrorist cases 
this year involving home-grown jihadists than any full year since 
9/11.
    ISIS alone has inspired or directed 17 terrorist plots in America 
since early 2014, and overall the group has been linked to more than 60 
plots against Western targets, from Canada to Australia. This pace of 
terror plotting is unprecedented--unrivaled even by al-Qaeda at its 
peak. Yet we are no closer to dismantling ISIS than we were a year ago.
    Despite 14 months of airstrikes, the group has largely maintained 
its core safe haven while expanding its global footprint. The ISIS 
reign of terror is fueled by its recruitment of foreign fighters, who 
hail from more than 100 countries, including our own.
    This committee launched a bipartisan task force to examine the 
foreign fighter threat, and last month the group released its final 
report with some very disturbing findings. Overall, they found that we 
are losing the struggle to stop Americans from traveling overseas to 
join jihadists.
    We have only managed to stop a small fraction of the hundreds of 
Americans who have attempted to fight in Syria and Iraq, and some have 
even managed to make it back into the United States after enlisting 
with terrorist groups. We are falling behind the threat for many 
reasons.
    Vulnerable young people are being recruited at record speeds, and 
terrorists are shifting their communications to ``dark space,'' which 
has made it far more difficult to monitor and intercept suspects. These 
secure communication tools are also being used to plot attacks in our 
country.
    Moreover, gaping security weaknesses overseas--especially in 
Europe--are making it easier for extremists to travel to and from the 
conflict zone. But at the end of the day, we cannot keep individuals 
from being lured to terrorist hotspots unless we eliminate the problem 
at the source.
    Sadly, those prospects have grown darker. The President's failure 
to develop a coherent strategy in Syria and Iraq has emboldened our 
adversaries to fill the vacuum, with disastrous consequences.
    Russia and Iran are now propping up Assad, and there are reports 
that even Cuban special forces have joined the fight. These rogue 
regimes will fan the flames of sectarianism and make it harder for us 
to eliminate the terrorist sanctuary in the region. Their actions will 
also intensify refugee flows, which have become a serious security 
challenge in light of reports that terrorists are exploiting the crisis 
to sneak operatives into the West.
    Violent extremists are also expanding their foothold from Libya to 
Afghanistan, yet I am alarmed that we lack a clear vision for reversing 
their gains and winning the wider war against Islamist terror. If we 
fail to defeat our enemies overseas and combat their hateful ideology, 
we will be forced to fight more of them here at home. We have learned 
this the hard way.
    Today I hope to hear from our witnesses about these challenges and 
how their agencies are working to strengthen our defenses on the home 
front.
    I want to express my gratitude to each of you for your close and 
continuing cooperation with this committee, your dedication to country, 
and your successes this year in disrupting terrorist threats against 
the American people.

    Mr. Thompson. I thank the Chairman for holding today's 
hearing.
    Mr. Secretary, welcome to what is your first appearance 
before this committee, this Congress. I look forward to hearing 
your informed perspective on today's topic.
    I would also like to thank Director Rasmussen and Director 
Comey for their testimonies.
    Mr. Chairman, while I agree that the threats to this Nation 
are concerning and worthy of examination, I also believe that 
as the authorizing committee of the Department of Homeland 
Security, it is our responsibility to hear from the Secretary 
about the overall management of DHS.
    This bipartisan committee, the Government Accountability 
Office and the inspector general, have all identified 
challenges within the Department. Additionally, there are 
components within the Department that have proposed 
restructuring. While the Secretary's Unity of Effort initiative 
has made strides since the beginning of the Congress, but the 
Federal employee viewpoint survey still indicates that DHS has 
a long way to go in improving workforce morale, also to DHS 
components with a zero-fail mission, the Transportation 
Security Administration and the Secret Service are on-going 
much-needed reform.
    Furthermore, the Department's cyber mission is critical as 
we look to prevent crippling attacks from cyber terrorists. 
While we have heard from several DHS officials, this Congress, 
we have yet to hear from the head of the agency on the record 
about how he is fulfilling his vision for the Department and 
what he needs from Congress.
    Today's hearing and the topic and testimony does not 
provide for a hearing from the Secretary on the topics I have 
mentioned. Therefore, I am asking you, Mr. Chairman, for a 
commitment at some point to hold a hearing on the oversight of 
the Department of Homeland Security and invite Secretary 
Johnson to testify before the end of the first session of 
Congress. I know the success of the Department is a shared 
concern. Each Member of this committee should have the 
opportunity to question the Secretary in an open setting and to 
continue to hold him accountable.
    Today's hearing on the world-wide threats gives the 
committee the opportunity to hear the perspective of top 
Government officials on the wide-ranging threat of terrorism 
from both international groups and domestic terrorists. Through 
its oversight, this committee has given attention to the threat 
from international terror organizations, including al-Qaeda and 
the Arabian Peninsula and the threat from Islamic State of Iraq 
and Levant.
    The committee's bipartisan task force looked at the threat 
from foreign fighters, and one of their glaring, yet 
unsurprising findings, is that there are still intelligence and 
information-sharing gaps that need to be addressed. These gaps 
also enter the conversation as we continue our efforts to 
address our humanitarian response to the refugee crisis in 
Syria. I want to hear from each witness about their agency's 
intelligence capability and how they are working together as we 
prepare to assist in this humanitarian crisis.
    As Members of Congress, we have the responsibility to 
convey accurate information to our constituents and to the 
media. As we rightfully continue to address the threats from 
international terrorist organizations, I want to reemphasize 
that we should not lose sight of the threats posed by 
terrorists that are right here in America, as they are those 
that have no plans on traveling overseas to receive training 
from any international group. Through social media networks, 
ISIL has encouraged lone offenders to perpetrate violence right 
here on our soil. This approach is not novel. Right-winged 
domestic terrorist groups also use social media to recruit and 
communicate.
    Again, Mr. Chairman, violent extremists view no single 
ideology or recruitment tactic, even though some Federal 
officials have been dismissive of domestic terrorism, and 
others generate false intelligence to the contrary. The facts 
are clear: Since September 11, more people in the United States 
have died in attacks by domestic extremists than in attacks by 
international terrorist groups.
    Mr. Chairman, we often discuss what the 9/11 Commissioners 
call a failure of imagination. As we use today to discuss the 
threats to our country, let us not fail to imagine the 
devastation that can be caused by the extremists, both abroad 
and in our backyards. With that, Mr. Chairman, I yield back my 
time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    While I agree that the threats to this Nation are of concern and 
should be examined, I also believe that as the authorizing Committee of 
the Department of Homeland Security, it is our responsibility to hear 
from the Secretary about the overall management of DHS. This committee, 
through its bipartisan work, the Government Accountability Office, and 
the Inspector General have all identified challenges within the 
Department.
    Additionally, there are components within the Department that have 
proposed restructuring, the Secretary's Unity of Effort initiative has 
made strides since the beginning of the Congress, and the Federal 
Employee Viewpoint Survey still indicates that DHS has a long way to go 
in improving the morale of its workforce.
    Furthermore, two DHS components with a zero-fail mission--the 
Transportation Security Administration and the Secret Service--are 
undergoing much-needed reform, and the Department's cyber mission is 
critical as we look to prevent crippling attacks from cyber terrorists 
abroad. While we have heard from several DHS officials this Congress, 
we have yet to hear from the head of the agency on the record about how 
he is fulfilling his vision for the Department and what he needs from 
Congress.
    Today's hearing topic and testimony does not provide for hearing 
from the Secretary on the topics I have mentioned. Therefore, I am 
asking you for a commitment to hold a hearing on the oversight of the 
Department of Homeland Security and invite Secretary Johnson to testify 
before the end of the first session of this Congress. I know the 
success of the Department of Homeland Security is a shared concern. 
Each Member of this committee should have the opportunity to question 
the Secretary in an open setting and to continue to hold him 
accountable.
    Today's hearing on world-wide threats gives the committee the 
opportunity to hear the perspective of top Government officials on the 
wide-ranging threat of terrorism from both international groups and 
domestic terrorists. Through its oversight, this committee has given 
much-needed attention to the threat international terror organizations 
including al-Qaeda in the Arabian Peninsula and the threat from the 
Islamic State of Iraq and the Levant.
    The committee's bipartisan task force looked at the threat from 
foreign fighters and one of their glaring, yet unsurprising findings is 
that there are still intelligence and information-sharing gaps that 
need to be addressed. Those gaps also enter the conversation as we 
continue our efforts to address our humanitarian response to the 
refugee crisis in Syria.
    I want to hear from each of the witnesses more about their 
agencies' intelligence capabilities and how the interagency is working 
together as we prepare to assist in this humanitarian crisis. As 
Members of Congress, we have a responsibility to have accurate 
information before we begin to spread our own propaganda to our 
constituents and to the media. As we rightfully continue to address the 
threats from international terrorist organizations, I want to 
reemphasize that we should not lose sight of the threats posed by 
terrorists that are right here in America. There are those that have no 
plans on traveling overseas to receive training from any international 
group.
    Through social media networks, ISIL has encouraged lone offenders 
to perpetrate violence right here on our soil. This approach is not 
novel. Not only does ISIL use social media to encourage lone offenders, 
but right-wing domestic terror groups also use social media to recruit 
and communicate. Once again illustrating that violent extremist views 
know no single ideology and recruitment tactics can mirror.
    Even though some Federal officials have been dismissive of domestic 
terrorism and others generate false intelligence to the contrary, the 
facts are clear--since September 11, more people in the United States 
have died in attacks by domestic extremists than attacks associated 
with international terrorist groups. According to a survey conducted by 
the Police Executive Research Forum and the Triangle Center on 
Terrorism and Homeland Security, law enforcement places threats from 
right-wing terrorists as one of the top three terror threats in their 
jurisdiction.
    We often discuss what the 9/11 Commissioners called failure of 
imagination. As we use today to discuss the threats to our country, let 
us not fail to imagine the devastation that can be caused by extremists 
both abroad and in our back yards.

    Chairman McCaul. I thank the Ranking Member. I appreciate 
your bipartisan cooperation on the task force report, which I 
think was valuable, and hopefully to Federal law enforcement in 
the intelligence community. I will honor your request to have 
another hearing on the oversight issue as well.
    We have a distinguished panel before us. First, the 
Honorable Jeh Johnson, who has served as the fourth Secretary 
of Homeland Security since his swearing in on December 23, 
2013. Previously, he served as the general counsel for the 
Department of Defense where he led over 10,000 civilian and 
military lawyers across the Department and worked on the raid 
operation on the compound in Abbottabad to take down Osama bin 
Laden.
    Next, the Honorable Nicholas Rasmussen has served as a 
director for the National Counterterrorism Center since 
December 2014, served as the deputy director, and is a member 
of the National Security Council staff where he was special 
assistant to the President, and senior director for 
counterterrorism.
    Finally, we have the Honorable James Comey, who has served 
as the Federal Bureau of Investigation's director since 
September 2013. Previously, he was general counsel for 
Bridgewater Associates, and deputy attorney general at the 
Department of Justice. He also worked on the Exile program, 
which I remember meeting with you, sir, a long time ago when I 
was deputy attorney general for the State of Texas trying to 
implement the same program in the State of Texas, and we thank 
you for being here as well.
    Witnesses' full written statements will appear in the 
record. I will remind Members that additional statements may be 
submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                            October 21, 2015
    Chairman McCaul and Ranking Member Thompson, thank you for this 
opportunity to hear testimony on ``World-wide Threats and Homeland 
Security Challenges.''
    I join my colleagues on the committee in welcoming the Secretary of 
Homeland Security Jeh Johnson, FBI director James Comey, and Nick 
Rasmussen, director of the National Counterterrorism Center to today's 
hearing.
    As a senior member of the House Committee on Homeland Security and 
Ranking Member of the Judiciary Subcommittee on Crime, Terrorism, and 
Homeland Security the topic of threats to homeland security is of has 
significance in light of the events over the last 12 months.
    My primary domestic security concerns are:
  <bullet> to preventing foreign fighters and foreign-trained fighters 
        from entering the United States undetected;
  <bullet> countering violent extremism in the United States that is 
        domestic and international in nature;
  <bullet> Protecting critical infrastructure from physical and cyber 
        attack; and
  <bullet> Strengthening the capacity of the Department of Homeland 
        Security and the Department of Justice to meet the challenges 
        posed by weapons of mass destruction.
Foreign Fighters and Foreign-Trained Fighters
    It is estimated that 250 U.S. citizens are among the number of 
foreign recruits who have traveled to Syria since the beginning of the 
conflict.
    In 2014 the total number of foreign fighters entering Syria was 
estimated to be 14,000.
    A September 26, 2015 article in the New York Times has the number 
of foreign fighters as 30,000, which is doubled the number of foreign 
recruits of a year ago.
    It is estimated that since 2011 foreign fighters have come from 
over 100 countries.
    This disturbing news coupled with the massive migration of people 
seeking to flee from war-torn Syria now entering Europe by the 
thousands raises important concerns regarding security.
    The Obama administration has announced that the United States would 
take in 10,000 refugees by working the High Commissioner on Refugees in 
a long and structured vetting process.
    The larger issue is not the process managed by the State Department 
and the Department of Health and Human Services that has long ago 
proven itself effective in identifying refugees who will be welcomed 
guests in the United States.
    Every year, the United States provides resettlement opportunities 
to thousands of the world's most vulnerable refugees, in a program 
endorsed by the President (and every President since 1980) through an 
annual determination.
    The U.S. Refugee Admissions Program (USRAP), which resettled over 
58,000 refugees in the United States in 2012, reflects our own 
tradition as a Nation of immigrants and refugees.
    I have long advocated for the plight of women and children in the 
Syrian war, who now make up a significant percentage of those escaping 
into Europe.
    To qualify for refugee resettlement to the United States, refugees 
must:
    1. Be among those refugees determined by the President to be of 
        special humanitarian concern to the United States;
    2. Meet the definition of a refugee pursuant to Section 101(a)(42) 
        of the INA (see below);
    3. Not be firmly resettled in any third country; and
    4. Be otherwise admissible under U.S. law.
    The application process for admittance into the United States as 
refugees is not easy nor is it quick.
    The unprecedented circumstances that Europe is facing does mean 
that the United States must exercise diligence in every step of the 
process that will be followed that will allow up to 10,000 refugees 
from the Syrian war into the United States.
Countering Violent Extremism
    One of the enduring challenges for Members of this committee is how 
we guide the work of the Department of Homeland Security.
    One challenge we have faced is finding definitions for terrorism 
that will address the reality of the acts that are intended to 
intimidate or terrorize the public.
    Understanding what terrorism is begins in law with its definition.
    Title 22 of the U.S. Code, Section 26S6f(d) defines terrorism as 
``premeditated, politically motivated violence perpetrated against 
noncombatant targets by subnational groups or clandestine agents, 
usually intended to influence an audience.''
    The FBI defines terrorism as ``the unlawful use of force or 
violence against persons or property to intimidate or coerce a 
government, the civilian population, or any segment thereof, in 
furtherance of political or social objectives.''
    Terrorism is a violation of the criminal laws of the United States 
or of any state or other subdivision of the United States and appears 
to be intended to intimidate or coerce a civilian population, to 
influence the policy of a government by intimidation or coercion, or to 
affect the conduct of a government by mass destruction, assassination, 
or kidnapping.
    A domestic terrorist differs from a home-grown violent extremist in 
that the former is not inspired by, and does not take direction from, a 
foreign terrorist group or other foreign power.
    DHS defines Domestic Terrorism as: ``Any act of violence that is 
dangerous to human life or potentially destructive of critical 
infrastructure or key resources committed by a group or individual 
based and operating entirely within the United States or its 
territories without direction or inspiration from a foreign terrorist 
group.''
    Groups and individuals inspired to commit terrorist acts are 
motivated by a range of personal, religious, political, or other 
ideological beliefs there is no magic formula.
    Further, the complexity of adding social media as a new source of 
recruitment for violent extremists is complicating the efforts of law 
enforcement, domestic security, and National defense.
    The line between lawfully protected speech and activity that may be 
to some radical--should be clearly defined.
    Taking care to protect--civil liberties and Constitutional rights 
means that our system of laws must acknowledge that reading, writing, 
or speaking one's views or beliefs event when they are unpopular is not 
a crime.
    Hate speech is not a crime--while an act of violence motivated by 
hate is.
    Violent Extremist threats within the United States can come from a 
range of violent extremist groups and individuals, including Domestic 
Terrorists and Homegrown Violent Extremists (HVEs).
    In the wake of the killings at Mother Emanuel in Charlotte South 
Carolina several African American Churches have fallen victim to fires.
    Historically, African American churches are the center of 
religious, social, cultural, and political life for the communities 
they serve.
    Because of their importance to the social movements of the 1960s in 
less than one month in 1962, 5 Black churches were burned in the State 
of Georgia.
Securing Critical Infrastructure
    Last week Assistant Secretary Caitlin Durkovich informed a 
gathering of energy firm executives at an energy conference that ISIS 
has been attempting to hack American electrical power companies.
    Critical infrastructure is dispersed throughout the United States 
and if primarily under the control of private owners or non-Government 
operators; and includes:
  <bullet> The Electronic Utility Grid;
  <bullet> Water Treatment facilities;
  <bullet> Ports, railways, and highways;
  <bullet> Telecommunication System;
  <bullet> Food production, processing, and distribution;
  <bullet> Health care delivery system; and
  <bullet> Financial System.
    Critical infrastructure relies upon distributed computer networks 
to support vital functions and delivery systems.
    The security of computing networks rely upon strong encryption and 
protocols to assure that the security of encryption passwords and 
network access is maintained.
    To support the work of the Department of Homeland Security in 
providing cyber protection to critical infrastructure, I introduced 
H.R. 85, the Terrorism Prevention and Critical Infrastructure 
Protection Act.
    The bill facilitates research and development activities to 
strengthen the security and resilience of the Nation's critical 
infrastructure against terrorist attacks and All Hazard events.
    The bill establishes research initiatives that would provide the 
Secretary of Homeland Security with a report on:
  <bullet> the degree that certain critical infrastructure is reliant 
        upon other types of critical infrastructure;
  <bullet> programs that would improve professional development for 
        security professionals;
  <bullet> assessment of vulnerabilities in software systems, 
        firewalls, applications, and methods of analyzing 
        cybersecurity; and
  <bullet> coordination of Federal agencies' response to cyber 
        terrorism incidents.
    The bill would take an in-depth approach to securing critical 
infrastructure.
    For example, the bill lays the foundation for the development of 
tools to create enhanced computer modeling capabilities to determine 
potential impacts on critical infrastructure under various incident and 
threat scenarios as well as the potential for cascading failures that 
impact other critical infrastructure should certain critical 
infrastructure(s) be impacted by a terrorists attack or an All Hazards 
event.
    H.R. 85 would provide oversight committees and Members of Congress 
with a better understanding of the terrorism preparedness of critical 
infrastructure owners and operators, contractors, or non-Government 
agency entities that provide computer-related support or services to 
critical infrastructure.
    The arrival of the Internet of Things, which will introduce 
ubiquitous wireless technology that will have significant implications 
for existing computing networks and their security.
    The cybersecurity challenges of tomorrow will look very different 
from the cybersecurity challenges of today.
    It is the work of the committee to ensure that the Department of 
Homeland Security has what it needs to meet the cybersecurity 
challenges that it faces.
Weapons of Mass Destruction
    In the not-too-distant future, the harnessing of nuclear energy 
will no longer be the privilege of only a few nations.
    Today, nuclear energy is under serious consideration in more than 
55 developed and developing countries and an additional 60 countries 
are expressing interest in, considering, or actively planning for 
nuclear power.
    These efforts, if successful, would represent a quadrupling of 
today's 30 nuclear-powered nations.
    These ambitious nations face immense security challenges and for 
these reasons the United States should be working to develop 
relationships with nations who are willing to accept our assistance in 
developing peaceful nuclear programs.
    However, I believe that we should take this effort one step further 
by developing the infrastructure to move excess nuclear material and 
waste from these nations so that it may be safely disposed of without 
concern that it could fall into unfriendly hands.
    I will soon introduce legislation to establish much-needed 
foresight in meeting the future challenges posed by the emergency of 
nuclear power in developing nations.
    In my statement I have outlined several areas of particular concern 
regarding World-wide Threats and Homeland Security Challenges.
    I thank today's witnesses for their testimony and look forward to 
the opportunity to ask questions.

    Chairman McCaul. The Chair now recognizes Secretary Johnson 
for an opening statement.

STATEMENT OF HONORABLE JEH C. JOHNSON, SECRETARY, DEPARTMENT OF 
                       HOMELAND SECURITY

    Secretary Johnson. Thank you, Chairman, Congressman 
Thompson, Members of the committee. It is a pleasure to appear 
before you again. You have my prepared statement. I will not 
read it in its entirety. Let me just give you a few thoughts.
    Last month, I attended, on 9/11, the ceremony that occurred 
in Shanksville, Pennsylvania. This was the 14th anniversary of 
9/11. That ceremony, in particular, was a sobering reminder of 
the acts of terrorism, but also the acts of heroism that day, 
particularly on Flight 93, the 40 passengers and crew that day. 
I met almost all of their families that day.
    The events on 9/11 were the most prominent and devastating 
example of terrorist attacks by those who are recruited, 
trained, and directed overseas and exported to our homeland. 
The 9/11 hijackers were acting on orders from al-Qaeda's 
external operations chief, Khalid Sheikh Mohammed, who was, in 
turn, carrying out the direction of Osama bin Laden. Likewise, 
the attempted Shoe Bomber in December 2001, the attempted 
Underwear Bomber in December 2009, the attempted Times Square 
car bombing in May 2010, and the attempted package bomb plot in 
October 2010 were all efforts to export terrorism to the United 
States, and they all appeared to have been directed by 
terrorist organizations overseas.
    The response to these types of attacks and attempted 
attacks on our homeland was and is to take the fight directly 
to the terrorist organizations at locations overseas. But 
today, the global terrorist threat is more decentralized, more 
complex, and, in many respects, harder to detect.
    The new reality involves the potential for smaller-scale 
attacks by those who are either home-grown or home-based, not 
exported, and who are inspired by, but not necessarily directed 
by, a terrorist organization.
    Today, it is no longer necessary for terrorist 
organizations to personally recruit, train, and direct 
operatives overseas and in secret and export them to the United 
States to commit a terrorist attack.
    Today, with new and skilled use of the internet, terrorist 
organizations may publicly recruit and inspire individuals to 
conduct attacks within their own homelands.
    Al-Qaeda in the Arabian Peninsula no longer hides the fact 
that it builds bombs. It publicizes its instruction manual and 
its magazine, and publicly urges people to use it.
    Today, we are also concerned about foreign terrorist 
fighters who are answering public calls to leave their home 
countries in Europe and elsewhere to travel to Iraq and Syria, 
and to take up the extremist fight there. Many of these 
individuals will return to their home countries with an 
extremist motive. In this regard, I compliment this committee 
for the report it issued on September 29 concerning foreign 
terrorist fighters. I have read it. I believe this committee's 
work is spot on, in many respects, in your assessments of the 
risk.
    As noted in the report, my Department has undertaken much 
of what is recommended. We have been, and are continuing to 
institute measures to detect and prevent travel by foreign 
terrorist fighters, along with the good work of the FBI.
    The recent wave of attacks and attempted attacks here and 
in Europe reflect the new reality of the global terrorist 
threat: The Boston Marathon Bombing in April 2013; the attack 
on the war memorial and the parliament building in Ottawa in 
October 2014; the attack on the Charlie Hebdo Headquarters in 
Paris, France in January 2015; the attempted attack in Garland 
City, Texas in May 2015; and the attack that killed five U.S. 
service members in Chattanooga, Tennessee, in July.
    What do these wave of attacks, recent attacks, and 
attempted attacks, all have in common? They were all conducted 
by home-grown or home-based actors, and they all appear to have 
been inspired but not directed by al-Qaeda or ISIL.
    Finally, we are concerned about domestic terrorism in the 
form of a lone wolf who can include various aspects--which can 
include various aspects of domestic terrorism, such as right-
wing extremism. We need to devote substantial efforts to the 
study and understanding of these threats and will continue to 
further our understanding of the underpinning of terrorist 
threats in all forms.
    In terms of what we are doing about it, I look forward to 
your questions.
    The last two thoughts I have: Members of Congress ask me, 
what can we do to help? How can we support the Department's 
homeland security missions? There are two things I would like 
to leave you with: First of all, through the work of this 
committee and the House, the House passed H.R. 1731, which, in 
my judgment, is a solid cybersecurity piece of legislation. I 
hope it or something closely resembling it becomes law. I note 
that the Senate, with some managers' amendments, offered on the 
Senate floor the other day, S. 754, which is the Cybersecurity 
Information Sharing Act. That bill, too, in its current form 
is, in my judgment, a good piece of legislation. I hope the 
Senate takes it up on the Senate floor, passes it, and it goes 
to conference with the House's bill. I want to thank the 
Members of this committee who were leaders in that effort. We 
need cybersecurity legislation.
    Last thing I will say, and this is probably the most 
important thing I can say by way of legislation, I cannot 
deliver for the American public the homeland security that the 
Congress expects of me and my Department as long as I have to 
live with the sequestered budget. Unless Congress repeals 
sequestration, that will have very significant negative effects 
to our ability to deliver cybersecurity, border security, 
aviation security, maritime security, work with the FBI and 
others on other counterterrorism efforts, provide protection 
for our National leaders, and so forth.
    So I urge Congress to repeal sequestration so that we can 
do what we need to do for the American people. Homeland 
security is the front line of National security. Thank you.
    [The prepared statement of Secretary Johnson follows:]
                  Prepared Statement of Jeh C. Johnson
                            October 21, 2015
    Chairman McCaul, Representative Thompson, and Members of the 
committee, thank you for the opportunity to be here. I welcome the 
opportunity to appear before you with Directors Comey and Rasmussen to 
discuss threats to the homeland and what we are doing to address them. 
Though I am prepared to discuss the full scope of DHS missions, in 
these prepared remarks I will focus on: (i) Counterterrorism, (ii) 
aviation security, and (iii) cybsersecurity.
                            counterterrorism
    Last month, I attended a sobering ceremony in Shanksville, 
Pennsylvania for the 14th anniversary of 9/11. Today, 14 years after 9/
11, it is still a dangerous world.
    The events on 9/11 were the most prominent and devastating example 
of terrorist attacks by those who are recruited, trained and directed 
overseas, and exported to our homeland. The 9/11 hijackers were acting 
on orders from al-Qaeda's external operations chief, Khalid Sheikh 
Mohammed, who was in turn carrying out the direction of Osama bin 
Laden.
    Likewise, the attempted ``Shoe Bomber'' in December 2001, the 
attempted ``Underwear Bomber'' in December 2009, the attempted Times 
Square car bombing in May 2010, and the attempted ``Package Bomb'' plot 
in October 2010, were all efforts to export terrorism to the United 
States, and they all appear to have been directed by a terrorist 
organization overseas.
    The response to these types of attacks and attempted attacks on our 
homeland was and is to take the fight directly to the terrorist 
organizations at locations overseas.
    But, today the global terrorist threat is more decentralized, more 
complex, and in many respects harder to detect. The new reality 
involves the potential for smaller-scale attacks by those who are 
either home-grown or home-based, not exported, and who are inspired by, 
not necessarily directed by, a terrorist organization.
    Today, it is no longer necessary for terrorist organizations to 
personally recruit, train, and direct operatives overseas and in 
secret, and export them to the United States to commit a terrorist 
attack. Today, with new and skilled use of the internet, terrorist 
organizations may publicly recruit and inspire individuals to conduct 
attacks within their own homelands. Al-Qaeda in the Arabian Peninsula 
no longer hides the fact that it builds bombs; it publicizes its 
instruction manual in its magazine, and publicly urges people to use 
it.
    Today, we are also concerned about foreign terrorist fighters who 
are answering public calls to leave their home countries in Europe and 
elsewhere to travel to Iraq and Syria and take up the extremists' fight 
there. Many of these individuals will seek to return to their home 
countries with that same extremist motive.
    On September 29, this committee's bipartisan task force published a 
report on foreign terrorist fighters. I would like to thank the 
committee, in particular Chairman McCaul and Ranking Member Thompson, 
for your work on this important assessment of how we in the U.S. 
Government can enhance our efforts to counter the threat of foreign 
terrorist fighters. As noted in the report, the Department of Homeland 
Security has undertaken much of what is recommended. We have been and 
are continuing to institute measures to detect and prevent travel by 
foreign terrorist fighters.
    The recent wave of terrorist attacks and attempted attacks here and 
in Europe reflect the new reality of the global terrorist threat. The 
Boston Marathon bombing in April 2013, the attack on the war memorial 
and the parliament building in Ottawa in October 2014, the attack on 
the Charlie Hebdo headquarters in Paris in January 2015, the attempted 
attack in Garland City, Texas in May 2015, and the attack that killed 
five U.S. service members in Chattanooga, Tennessee in July: What does 
this recent wave of attacks and attempted attacks have in common? They 
were all conducted by homegrown or home-based actors, and they all 
appear to have been inspired, but not directed by, al-Qaeda or ISIL.
    Finally, we are concerned about domestic terrorism in the form of a 
``lone wolf'' which can include various aspects of domestic terrorism 
such as right-wing extremism. We devote substantial efforts to study 
and understand these threats and will continue to further our 
understanding of the underpinnings of terrorist threats of all forms.
    So, what are we doing about it?
    The Department of Homeland Security, following the attacks in 
Ottawa, Canada last October, and in reaction to terrorist groups' 
public calls for attacks on government installations in the West, 
directed the Federal Protective Service to enhance its presence and 
security at various United States Government buildings in Washington, 
DC and other major cities and locations around the country. We continue 
this enhanced presence today.
    There are presently 38 countries from which we do not require a 
visa to travel here. This ``Visa Waiver Program'' is a valuable program 
to promote trade and travel with our most valued allies. Last November, 
I directed that, for security reasons, we add fields to the Electronic 
System for Travel Authorization, or ``ESTA'' system that travelers from 
these countries are required to use.
    In August 2015, we introduced further security enhancements to the 
Visa Waiver Program. From now on, countries in the Program will be 
required to, among other actions, implement arrangements to share 
information about known and suspected terrorists and serious criminals; 
collect and analyze travel data; and cooperate with INTERPOL--both for 
using INTERPOL's Lost and Stolen Passport Database to screen travelers 
crossing a VWP's country's borders, as well as reporting foreign 
fighters to multilateral organizations such as INTERPOL or EUROPOL. We 
also requested permission for the expanded use of U.S. Federal air 
marshals on international flights from VWP countries to the United 
States. These security enhancements will enable us to learn more about 
travelers from visa waiver countries and to more accurately and 
effectively identify those who pose a security risk before they board 
planes bound for the United States. These enhancements have already 
produced tangible security benefits.
    Next, given the new reality of the global terrorist threat--which 
involves the potential for small-scale home-grown attacks by those who 
could strike with little or no notice--we are enhancing our 
collaboration with State and local law enforcement. Almost every day, 
DHS and the FBI share intelligence and pertinent terrorist threat 
information with Joint Terrorism Task Forces, State fusion centers, 
local police chiefs and sheriffs. We have also enhanced our information 
sharing with businesses and critical infrastructure.
    With regard to the current refugee crisis, the United States is 
committed to providing refuge to some of the world's most vulnerable 
people, while carefully screening refugees for security concerns before 
admitting them to the United States. The reality is that, with 
improvements to the process we have made over time, refugees are 
subject to the highest level of security checks. DHS works in concert 
with the Department of State, the Department of Defense, the National 
Counterterrorism Center, and the FBI's Terrorist Screening Center for 
the screening and vetting of refugees. The U.S. Government conducts 
both biographic and biometric checks on refugee applications, including 
security vetting that takes place at multiple junctures in the 
application process, and even just before arrival to account for 
changes in intelligence. All refugees admitted to the United States, 
including those from Syria, will be subject to this stringent security 
screening. Acting on my direction, USCIS has developed additional 
protocols to aid in the identification of security concerns with regard 
to the Syrian population, and the entire Department, along with the 
interagency, is committed to continual improvement of overall security 
vetting, as new techniques or sources of information are identified.
    Next, given the nature of the evolving terrorist threat, countering 
violent extremism in this country is as important as any of our other 
key missions. Building trusted partnerships with diverse communities is 
essential to successfully countering violent extremism and curbing 
threats to the safety of our country. These communities must be 
empowered to reach those individuals most susceptible to the slick 
internet appeal of ISIL before they turn to violence. In the last 
fiscal year, DHS held close to 200 meetings, roundtables, and other 
events in 14 cities in which I participated. Since becoming Secretary, 
I have personally met with community leaders in Chicago, Columbus, 
Minneapolis, Los Angeles, Boston, New York City, Houston, suburban 
Maryland, and northern Virginia.
    We are now taking our CVE efforts to the next level. On September 
28, I announced a new DHS Office for Community Partnerships which 
builds upon the ongoing CVE work across the Department, consolidates 
our efforts, and takes them to the next level. This office will be the 
central hub for the Department's efforts to counter the evolving global 
terrorist threat to our country. I named Mr. George Selim as the 
director of this Office. George brings significant experience to his 
new role, having served as the director for community partnerships for 
the National Security Council since 2012 and previously worked at the 
DHS Office of Civil Rights and Civil Liberties.
    My objectives for this Office are to build upon our partnerships 
with State and local communities and governments, coordinate and 
promote relationship-building efforts inside and outside of Government, 
identify resources to support countering violent extremism through 
Government-funded grants, public-private partnerships, technology, and 
philanthropy. Meanwhile, the DHS Office for Civil Rights and Civil 
Liberties will partner with the Office of Community Partnerships and 
lead, improve, and expand its important community engagement work, 
including Community Engagement Roundtables, Town Hall Meetings, and 
Youth Forums, in cities all across the country.
    Finally, our homeland security efforts must also involve public 
vigilance and action. At the Super Bowl earlier this year, I re-
launched the ``If You See Something, Say Something''<SUP>TM</SUP> 
public awareness campaign with the National Football League to help 
ensure the safety and security of employees, players, and fans during 
Super Bowl XLIX. The newly revamped materials highlight the individual 
role of everyday citizens to protect their neighbors and the 
communities they call home by recognizing and reporting suspicious 
activity. ``If You See Something, Say Something''<SUP>TM</SUP> is more 
than a slogan. The public must play an important role in keeping our 
neighborhoods and communities safe.
                           aviation security
    Since last summer, I have required enhanced screening at select 
overseas airports with direct flights to the United States. The United 
Kingdom and other countries have followed suit with similar 
enhancements, and the European Union passed legislation for both near- 
and long-term enhancements to cabin baggage screening requirements.
    Earlier this year in response to a December incident at the 
Hartfield-Jackson-Atlanta airport, I asked the Aviation Security 
Advisory Committee (ASAC) to review and make recommendations to address 
concerns about whether aviation workers with airport identification 
badges could bypass security and smuggle weapons or explosives into an 
operations area or even onto an aircraft. In April, in response to the 
ASAC's recommendations, I directed the Transportation Security 
Administration (TSA) to take several immediate actions, including 
``real-time recurrent'' criminal history background checks coordinated 
with the FBI, reducing the number of access points to secured areas, 
and encouraging airport workers to report suspicious activity.
    I have also prioritized the expansion of preclearance operations at 
foreign airports with flights to the United States. Preclearance allows 
U.S. Customs and Border Protection officers overseas to screen 
passengers bound for the United States at the front end of the flight, 
protecting the plane, its passengers, and our country, before they even 
enter the United States. We now have 15 preclearance sites overseas, in 
6 different countries, operated by more than 600 CBP Officers and 
agriculture specialists. The most recent preclearance operation was set 
up early last year in Abu Dhabi. Since that time, in Abu Dhabi alone, 
we have already inspected more than 580,000 passengers and crew bound 
for the United States, and have determined 1,002 individuals to be 
inadmissible, including a number of them based on National security-
related grounds. We are in active negotiations with several countries 
to expand preclearance operations to ten new foreign airports. I view 
preclearance as an important piece of our aviation security and our 
counterterrorism mission.
    In May, the Classified, preliminary results of the DHS Inspector 
General's tests of TSA's screening at airports were leaked to the 
press. The OIG completed its Classified report last month, and has 
provided it to the Department and to Congress. The final report 
recommends corrective measures that TSA is already undertaking. In May 
and June, I directed a series of actions constituting a 10-point plan 
to address the concerns raised by the OIG's testing. This plan included 
a number of immediate and longer-term measures. Under the new 
leadership of Admiral Peter Neffenger, TSA has promptly begun 
increasing manual screening and random explosive trace detectors, re-
testing and re-evaluating the type of screening equipment tested by the 
OIG, revising standard operating procedures, and conducting ``back to 
basics'' training for every TSA Officer in the country. Many of these 
measures have either been completed, or soon will be.
                             cybersecurity
    Cybersecurity is critical to homeland security. Cybersecurity is a 
top priority for me, the President, and this administration.
    To be frank, our Federal .gov cybersecurity, in particular, is not 
where it needs to be. In the case of the breach of the Office of 
Personnel Management, a large amount of highly personal and sensitive 
information was taken by a very sophisticated actor. There is a great 
deal that has been done and is being done now to secure our networks. 
We do, in fact, block a large number of intrusions and exfiltrations, 
including those by state actors. But much more must be done.
    By law, each head of a Federal department or agency is primarily 
responsible for his or her agency's own cybersecurity. DHS has overall 
responsibility for protecting Federal civilian systems from cyber 
threats, helping agencies better defend themselves, and providing 
response teams to assist agencies during significant incidents. We have 
also been able to use the unique authorities given to us by Congress to 
engage with the critical infrastructure community to reduce the risk 
that our essential services and functions could be disrupted by a cyber 
attack.
    DHS's National Cybersecurity and Communications Integration Center, 
or ``NCCIC,'' is the U.S. Government's 24/7 hub for cybersecurity 
information sharing, incident response, and coordination. Thirteen 
Federal departments and agencies and 16 private-sector entities have 
regular, dedicated liaisons at the NCCIC, while over 100 private-sector 
entities collaborate and share information with the NCCIC on a routine 
basis.
    The NCCIC shares information on cyber threats and incidents, and 
provides on-site assistance to victims of cyber attacks. In this fiscal 
year alone, the NCCIC has shared over 15,000 bulletins, alerts, and 
warnings, responded on-site to 21 incidents and conducted nearly 130 
technical security assessments.
    It is my personal mission to significantly enhance the Department's 
role in the cybersecurity of our Government and the Nation. To achieve 
this, I have directed the accelerated and aggressive deployment of 
important technologies, guidance, and partnerships that my Department 
is uniquely situated to provide.
    First, we have prioritized full deployment of our EINSTEIN system: 
An intrusion detection and prevention system that uses Classified 
information to protect Unclassified networks. I have directed the 
National Protection and Programs Directorate to make at least some 
EINSTEIN 3A countermeasures available to all Federal civilian 
departments and agencies no later than December 31, 2015. We are 
currently on schedule to achieve this goal. We have also successfully 
expanded our private-sector version of this program--Enhanced 
Cybersecurity Services--to all critical infrastructure sectors.
    EINSTEIN has demonstrated its value. Since its introduction, E3A 
has blocked over 650,000 requests to access potentially malicious 
websites. These attempts are often associated with adversaries who are 
already on Federal networks attempting to communicate with their ``home 
base'' and steal data from agency networks. Importantly, EINSTEIN 3A is 
also a platform for future technologies and capabilities to do more. 
This includes technology that will automatically identify suspicious 
internet traffic for further inspection, even if we did not already 
know about the particular cybersecurity threat.
    Second, DHS helps Federal agencies identify and fix problems in 
near-real-time using Continuous Diagnostics and Mitigation programs--or 
``CDM.'' Once fully deployed, CDM will monitor agency networks 
internally for vulnerabilities that could be exploited by bad actors 
that have breached the perimeter. CDM will allow agencies to identify, 
prioritize, and fix the most significant problems first. It will also 
provide DHS with situational awareness about Government-wide risk for 
the broader cybersecurity mission.
    Earlier this year, I directed that NPPD make the first phase of CDM 
available to 97% of Federal civilian departments and agencies by 
September 30, 2015. We achieved this goal ahead of schedule and are on 
track to make the second phase available by the end of fiscal year 
2016.
    Third, information sharing is fundamental to achieving our mission. 
We must be able to share information in as close to real time as 
possible while ensuring appropriate privacy protections. We have made 
excellent progress by leading the development of a system that makes 
automated information sharing possible. By November, we will have the 
capability to automate the distribution and receipt of cyber threat 
indicators. Our partners in the intelligence community and law 
enforcement have participated in the development of this capability and 
support the policies that we have put in place to ensure that we have 
both appropriate privacy protections and the quick dissemination of 
relevant information to other agencies.
    We are working closely with other agencies of our Government to 
support the stand-up of the ODNI-led Cyber Threat Intelligence 
Integration Center, or ``CTIIC.'' This is vital because the foreign 
cyber threats we face as a Nation are too many, too sophisticated, and 
increasingly too severe to wait any longer to ensure we integrate the 
intelligence about cyber threats to better inform our defenses and our 
actions--just as we do with regard to terrorist threats. DHS looks 
forward to full implementation of this intelligence community 
initiative, which will help all of the operational cyber centers better 
understand various strategic cyber threats and provide improved 
intelligence community support to the NCCIC, which will, in turn, 
enable us to share more information with our private-sector partners.
    Last month, we participated in frank discussions with officials of 
the People's Republic of China on cyber issues of concern to both our 
nations. This culminated in our President's announcing several key 
cybersecurity commitments. As part of these commitments, we agreed to 
investigate cyber crimes, collect electronic evidence, and mitigate 
malicious cyber activity emanating from its territory, and to provide 
timely responses to requests for information and assistance concerning 
those activities. Both sides also agreed to provide updates on the 
status and results of those investigations and to take appropriate 
action. As part of this commitment, we agreed to establish a high-level 
joint dialogue mechanism on fighting cyber crime and related issues. 
Perhaps most importantly, the United States and China committed that 
neither country's government will conduct or knowingly support cyber-
enabled theft of intellectual property, including trade secrets or 
other confidential business information, with the intent of providing 
competitive advantages to companies or commercial sectors. The United 
States and China also committed to create a senior experts group on 
international security issues in cyber space.
    Time will tell whether the Chinese will live up to these 
commitments. I intend to remain personally engaged on these issues, to 
ensure that China takes concrete steps to advance progress made thus 
far. To be sure, these commitments do not resolve all our challenges 
with China on cyber issues. But, they do represent a step forward in 
our efforts to address one of the sharpest areas of disagreement in the 
U.S.-China bilateral relationship. On the U.S. side, we are prepared to 
fulfill our commitments. Words must be matched by actions.
    We cannot detect and stop every cyber single intrusion. So often, 
the most sophisticated actors penetrate the gate through a simple act 
of spearphishing, because they know they can count on a single user 
letting his guard down. But, we have made considerable progress and 
continue to take aggressive action.
    I urge Congress to act by passing cyber legislation. I applaud the 
bipartisan work that has been done so far in this Congress. We need 
legislation to accomplish at least two things:
    First, we need explicit Congressional authorization of the EINSTEIN 
program. This would eliminate any remaining legal obstacles to its 
deployment across the Federal Government. The House has passed H.R. 
1731, which accomplishes this and ensures agencies understand they are 
legally permitted to disclose network traffic to DHS for narrowly-
tailored purposes.
    Second, we need the Senate to finish its work on the Cybersecurity 
Information Sharing Act as soon as possible. This committee's 
engagement with the bill's sponsors has strengthened the legislation 
and incorporated important modifications to better protect privacy. I 
understand that work continues to make necessary changes, and we 
greatly appreciate those efforts. But cyber criminals are not waiting 
to steal intellectual property or financial data, so neither can 
Congress wait to pass information-sharing legislation. I urge you to 
call upon Senate leadership to bring this bill up as soon as possible 
so that the Senate can finish its work and pass it.
                               conclusion
    I am pleased to provide the committee with this overview of the 
progress we are making at DHS on countering threats. You have my 
commitment to work with each Member of this committee to build on our 
efforts to protect the American people.
    Thank you, and I look forward to your questions.

    Chairman McCaul. Thank you, Secretary. I certainly agree, 
and we need to reprioritize our budget towards National 
security and National defense. On the cybersecurity bill, I am 
glad we are able to enhance, I think, the Senate version more 
towards the House effort, and I think we will have a successful 
conference committee. That is why I have great hope and deliver 
for you, so you can do a better job at that important effort. 
Finally, thank you for your recognition of the report itself in 
the task force.
    With that, the Chair now recognizes Mr. Rasmussen.

STATEMENT OF HON. NICHOLAS J. RASMUSSEN, DIRECTOR, THE NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Rasmussen. Good morning, Chairman McCaul, Ranking 
Member Thompson, and the committee Members. Like Secretary 
Johnson and Director Comey, I welcome today's opportunity to 
discuss a range of threats to the homeland that concerns us the 
most. But before getting into that threat picture in some 
detail, I want to stress that we at NCTC are very closely 
aligned with DHS, with FBI, and our other counterterrorism 
community and intelligence community partners in terms of how 
we view that threat environment.
    From an analytic perspective, I would start by saying, that 
the chances of a spectacular, large-scale attack in the 
homeland by an overseas terrorist group have been substantially 
reduced over the last several years. We have collectively 
achieved that outcome through aggressive CT action against al-
Qaeda overseas and through the robust homeland security 
infrastructure that we have developed as a country in the last 
14 years.
    But while we can look with some degree of satisfaction that 
the work done to reduce that threat of a large-scale mass 
casualty attack, there is still quite a bit to be concerned 
about on the current terrorism landscape. That landscape, as 
you yourself said, Mr. Chairman, is, in some ways, more 
challenging than ever. It is also clear that the terrorist-
operating paradigm has shifted, and it has shifted in ways that 
are proving particularly challenging as we try to identify and 
disrupt potential threats to the homeland.
    Today, there are more threats originating in more places 
and involving a more diffuse and disparate set of individuals 
than at any time previously.
    Now, first, as you would expect, we are intensively focused 
on the threat of ISIL, which you highlighted in your opening 
statement, Mr. Chairman. In our judgment, ISIL has overtaken 
al-Qaeda as the leader of the global violent extremist 
movement, and the group views itself as being in direct 
conflict with the West. That conflict is increasingly being 
played out not just in Iraq and Syria, but also in other places 
around the world where ISIL has declared itself to have a 
province. These places include Algeria, Libya, Egypt, Yemen, 
Saudi Arabia, Afghanistan and Pakistan, Nigeria, the Caucasus 
region, potentially in Southeast Asia as well. ISIL's 
aggressive growth and expansionist agenda has implications for 
us here at home, in our homeland threat picture, and there are 
three especially concerning features of ISIL as a terrorist 
group, in my judgment. The first is their access to resources, 
extensive resources, in terms of manpower, military materiel, 
and funds.
    The second concerning feature of ISIL is the territorial 
control the group exercises in Iraq and Syria as well as in 
some of the provinces I mentioned a minute ago. The third, 
again, is something that you highlighted in your remarks, Mr. 
Chairman, their access to a large pool of individuals from 
Western countries, both those who have traveled to Iraq and 
Syria, and those who have remained in their home countries.
    When we look for indicators of potential external 
operations capability that could threaten the homeland from 
ISIL, these are the key features we generally expect to see, 
and they are present with ISIL. Secretary Johnson also alluded 
to how we are coming to view the threat from ISIL, especially 
the homeland piece of that threat. We started to view ISIL's 
involvement in homeland attack activity as falling along a 
spectrum. At one end of that spectrum, we see isolated 
individuals who draw inspiration from ISIL's highly 
sophisticated media content, even if ISIL leadership is not 
directly guiding their actions.
    At the other end of the spectrum, something more 
traditional, we assess that there are individuals who may, in 
fact, receive direct guidance and specific direction from ISIL 
members. More often than not, individuals we see here in the 
homeland tend to operate somewhere between those two ends of 
the spectrum, creating a fluid picture that is difficult to 
assess.
    Second, if you look beyond our intensive focus on ISIL and 
the threat it poses to the homeland, we continue to devote 
substantial attention to al-Qaeda and its affiliates and nodes 
around the world. Despite the unrelenting media attention 
focused in ISIL, in no respect would I or our intelligence 
community downgrade our intention on al-Qaeda-related threat 
activity in favor of greater focus on ISIL. In fact, when I am 
often asked in public settings to identify what my No. 1 
terrorism concern is, I decline to answer, because I would not 
want our focus on one terrorist threat to suggest that we are 
not focused on other significant threats that we are 
confronting.
    Specifically, right now we are closely watching for signs 
that core al-Qaeda's attack capability is potentially being 
restored ahead of the U.S. military's drawdown in Afghanistan. 
While the ability of al-Qaeda to train, recruit, and deploy 
operatives from their safe haven in South Asia has been 
degraded, we continue to watch for and track indications that 
core al-Qaeda is, in fact, engaged in plotting activity aimed 
at the homeland.
    In the statements for the record, both Director Comey and 
Secretary Johnson singled out al-Qaeda in the Arabian Peninsula 
for particular attention, and that is for good reason. The 
threat from AQAP remains at the top of our list of analytic 
priorities, given the group's unrelenting focus on targeting 
U.S. interests, including potentially the aviation sector.
    Beyond Yemen, we have also been watching al-Qaeda's 
affiliated networks of individuals in Syria who may be looking 
to carry out external operations against the West, or 
potentially the homeland. While we have had some very public 
successes in terms of disrupting some of the individuals 
involved in that plotting from Syria, there is clearly more to 
be done in this regard, and the work continues.
    Our third area of priority, my last area that I will 
mention in my remarks, is the growing use of simple 
opportunity-driven attacks by home-grown violent extremists, 
what we call HVEs. That style of attack has clearly 
proliferated within the last several years. When you look back 
to 2009, we were seeing, on average, less than 2 or 3 of those 
incidents per year. By last year, 2014, that number was a 
dozen, and to date, this year, that number of incidents, or 
disruptive plots, have already doubled for this year, 
suggesting that there are, in fact, a greater number of HVEs 
inside the United States pursuing potential attack plans.
    While it is very difficult to put precise numbers on that 
population of home-grown violent extremists here in the United 
States, there is no question in my mind and in the mind of our 
analysts that this population has increased in size over the 
last 18 months.
    In my judgment, ISIL has injected new energy and life into 
that population of home-grown violent extremists. ISIL, for its 
part, knows that it can have a real impact by motivating 
individuals to act in their own locations by carrying out 
individual attacks, even on a relatively modest scale. That is 
particularly true of several such attacks when strung together 
in a compressed time frame. That is a significant innovation in 
the terrorist playbook, something that al-Qaeda never quite 
managed to deploy against us, and it requires that we in the 
counterterrorism community innovate and adapt as well.
    To conclude, Chairman and Congressman Thompson, I want to 
assure you and the rest of the committee that we continue to 
work every day to detect, defeat, and disrupt all manner of 
threats from across this full spectrum of terrorist concerns 
that we have. I look forward to discussing these issues with 
you and the committee in greater depth.
    [The prepared statement of Mr. Rasmussen follows:]
              Prepared Statement of Nicholas J. Rasmussen
                            October 21, 2015
    Thank you Chairman McCaul, Ranking Member Thompson, and Members of 
the committee. I appreciate this opportunity to discuss the threats 
that concern us most. I'm pleased to join my colleagues and close 
partners from the Department of Homeland Security and Federal Bureau of 
Investigation.
                            threat overview
    With the fourteenth anniversary of the 9/11 attacks several weeks 
behind us, it's clear that we've had great success at substantially 
reducing the chances of that kind of attack recurring. We've done that 
not only with aggressive CT action against core al-Qaeda in South Asia 
and around the world but also through the array of defenses we've 
erected as a country. The counterterrorism and homeland security 
infrastructure that exists gives us much greater defense, disruption, 
and mitigation capabilities that we did not have at the time of those 
attacks.
    That said, the array of extremist terrorist actors around the globe 
is broader, wider, and deeper than it has been at any time since 9/11, 
and the threat landscape is less predictable. While the scale of the 
capabilities of these violent extremist actors does not rise to the 
level that core al-Qaeda had at its disposal at the time of 9/11 it is 
fair to say that we face more threats originating in more places and 
involving more individuals than we have at any time in the last 14 
years.
    We remain intensely focused on the threat from ISIL. There is no 
doubt that the group views itself as being in direct connect with the 
West. ISIL's access to resources--in terms of both manpower and funds--
and territorial control in areas of Syria and Iraq are the ingredients 
that we traditionally look at as being critical to the development of 
an external operations capability. We are very concerned and focused on 
ISIL's trajectory in this regard. ISIL must also win the war on the 
ground in Syria and Iraq, which remains, we believe, a top priority for 
the group's leadership. This is in addition to advancing their effort 
to establish and administer branches in areas further afield, branches 
that are demonstrating increased operational capabilities in their 
respective regions.
    We are coming to view the threat from ISIL as a spectrum, where on 
one end, individuals draw inspiration from ISIL's media content and 
perceive successes. At the other end, individuals may receive direct 
guidance from ISIL members. These ends of the spectrum are not polar 
opposites, however. Rather, they are the clearest illustrations of what 
is more often than not a very fluid picture where individuals operate 
between the two extremes.
    The tremendous efforts being made to counter the ISIL threat are 
absolutely warranted, but I want to stress that we still view al-Qaeda 
and the various al-Qaeda affiliates and nodes as being a principal 
counterterrorism priority. We would not tier our priorities in such a 
way that downgrades al-Qaeda in favor of greater focus on ISIL. When we 
are looking at the set of threats that we face as a Nation, al-Qaeda 
threats still figure prominently in that analysis.
    The steady attrition of al-Qaeda senior leaders has put more and 
more pressure on the few that remain. We believe we have constrained 
both their effectiveness and their ability to recruit, train, and 
deploy operatives from their safe haven in South Asia; however, this 
does not mean that the threat from core al-Qaeda resident in the tribal 
areas of Pakistan or in eastern Afghanistan has been eliminated 
entirely.
    Ahead of the U.S. military's draw-down in Afghanistan, we in the 
intelligence realm are trying to understand the level of risk the 
United States may face over time if al-Qaeda regenerates, finds renewed 
safe haven, or restores lost capability. I am confident that we will 
retain sufficient capability to continue to put pressure on that core 
al-Qaeda network so that that situation will not arise.
    We as an intelligence community will be very much on alert for 
signs that that capability is being restored, and we would warn 
immediately should we find ourselves trending in that direction. All 
that said, I'm still not ready to declare core al-Qaeda as having been 
defeated in the classical sense of the word where the capability has 
been removed. So long as the group can regenerate capability, al-Qaeda 
will remain a threat.
    We also see increasing competition between extremist actors within 
South Asia itself, between and among the Taliban, ISIL's branch in 
South Asia, and al-Qaeda. This is an additional dynamic that we are 
working to understand. While conflict among terrorist groups may well 
distract them from their core mission of plotting attacks against 
Western targets, conflict also serves to introduce a degree of 
uncertainty into the terrorism landscape that raises questions that I 
don't think we have answers to yet. This is something that we will 
watch very closely.
    Stepping back, there are two trends in the contemporary threat 
environment that concern us most. First is the increasing ability of 
terrorist actors to communicate with each other outside our reach. The 
difficulty in collecting precise intelligence on terrorist intentions 
and the status of particular terrorist plots is increasing over time.
    There are several reasons for this: Exposure of intelligence 
collection techniques; disclosures of Classified information that have 
given terrorist groups a better understanding of how we collect 
intelligence; and terrorist group's innovative and agile use of new 
means of communicating, including ways in which they understand are 
beyond our ability to collect. I know that FBI Director Carney has 
spoken about these challenges on a number of occasions.
    Second, while we've seen a decrease in the frequency of large-
scale, complex plotting efforts that sometimes span several years, 
we've seen a proliferation of more rapidly-evolving threat or plot 
vectors that emerge simply by an individual encouraged to take action, 
then quickly gathering the few resources needed and moving into an 
operational phase. This is something I would tie very much to the modus 
operandi of ISIL-inspired terrorists. The so-called ``flash-to-bang'' 
ratio in plotting of this sort is extremely compressed, and allows 
little time for traditional law enforcement and intelligence tools to 
disrupt or mitigate potential plots.
    ISIL is aware of this, and those connected to the group have 
understood that by motivating actors in their own locations to take 
action against Western countries and targets, they can be effective. In 
terms of propaganda and recruitment, they can generate further support 
for their movement, without carrying out catastrophic, mass-casualty 
attacks. And that's an innovation in the terrorist playbook that poses 
a great challenge.
                   countering violent extremism (cve)
    The growing number of individuals going abroad as foreign terrorist 
fighters to Iraq and Syria only emphasizes the importance of 
prevention. Any hope of enduring security against terrorism or 
defeating organizations like ISIL rests in our ability to diminish the 
appeal of terrorism and dissuade individuals from joining them in the 
first place.
    To this end, we continue to refine and expand the preventive side 
of counterterrorism. We have seen a steady proliferation of more 
proactive and engaged community awareness efforts across the United 
States, with the goal of giving communities the information and the 
tools they need to see extremism in their midst and do something about 
it before it manifests itself in violence. NCTC, in direct 
collaboration with DHS, has led the creation of CVE tools to build 
community resilience across the country.
    Working and closely coordinating with the Department of Justice 
(DOJ), the Department of Homeland Security (DHS), and the Federal 
Bureau of Investigation (FBI), NCTC is engaged in this work all across 
the country.
    We, in concert with DOJ, DHS, and FBI, sent our officers on 
multiple occasions to meet with the communities in places such as 
Denver, Sacramento, Buffalo, and Minneapolis to raise awareness among 
community and law enforcement audiences about the terrorist recruitment 
threat. Our briefing, developed in partnership with DHS, is now 
tailored to address the specific issue of foreign fighter recruitment 
in Syria and Iraq; and we have received a strong demand signal for more 
such outreach.
    This is not a law enforcement-oriented effort designed to collect 
information. Rather, it is an effort to share information about how 
members of our communities are being targeted and recruited to join 
terrorists overseas. Seen in that light, we have had a remarkably 
positive reaction from the communities with whom we have engaged.
    We continue to expand our CVE tools. With our DHS colleagues, we 
have created and regularly deliver the Community Resilience Exercise, a 
table-top exercise that brings together local law enforcement with 
community leadership to run through a hypothetical case study-based 
scenario featuring a possible violent extremist or foreign fighter.
    We also aim to encourage the creation of intervention models at the 
local level. In the same way that local partners, including law 
enforcement, schools, social service providers, and communities, have 
come together to provide alternative pathways and off-ramps for people 
who might be vulnerable to joining a gang, we are encouraging our local 
partners to implement similar models for violent extremism. The more 
resilient the community, the less likely its members are to join a 
violent extremist group.
                               conclusion
    In summary, confronting these threats and working with resolve to 
prevent another terrorist attack remains the counterterrorism 
community's overriding mission. I can assure you that we at NCTC are 
focused on positioning ourselves to be better prepared to address the 
terrorist threat in the coming years. We expect this threat will 
increasingly involve terrorists' use of the on-line platforms that I 
mentioned earlier in my remarks.
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to testify before you this 
morning. I want to assure you that our attention is concentrated on the 
security crises in Iraq and Syria--and rightly so--but we continue to 
detect, disrupt, and defeat threats from across the threat spectrum in 
concert with our partners.
    Thank you all very much, and I look forward to answering your 
questions.

    Chairman McCaul. Thank you, sir. We appreciate the work 
that you do.
    The Chair now recognizes Mr. Comey.

 STATEMENT OF HON. JAMES B. COMEY, DIRECTOR, FEDERAL BUREAU OF 
           INVESTIGATION, U.S. DEPARTMENT OF JUSTICE

    Mr. Comey. Thank you, Mr. Chairman, Mr. Thompson, Members 
of the committee. Thank you for inviting me here today. My 
colleagues have made clear in their opening statements 
something that I won't repeat, that ISIL has broken the model.
    I want to explain why that change in model leads us to talk 
so much about the challenges we face with encryption very 
briefly. Social media has transformed human experience in 
wonderful ways. I have no idea where anybody from my fifth 
grade class at P.S. 16 in Yonkers, New York is today. My kids 
will know everything about everybody from their fifth grade 
class for the rest of their life. There is good and bad to 
that. I think, on balance, it is wonderful. But ISIL has used 
that ubiquitous social media to break the model and push into 
the United States, into the pocket, onto the mobile devices of 
troubled souls throughout our country in all 50 States a twin 
message, come or kill, come or kill. Come to the so-called 
caliphate, live a life of glory, participate in the final 
battle between good and evil on God's side. Come to the 
caliphate, and if you can't come, kill where you are.
    Social media works to connect us. It works as a way to sell 
cars or shoes or a movie. It works to crowdsource terrorism. So 
starting in the summer of 2014, they really invested in this, 
and it works. It led to troubled souls convincing themselves 
that there was meaning for them in Syria and Iraq, or that they 
should engage in acts of violence in the United States, and 
that investment started to pay dividends, and taxed all of our 
resources in the spring of this year, when suddenly we had 
dozens and dozens of cases in the United States of people who 
were progressing along the spectrum from consuming to acting to 
killing where they are. Thank goodness, thanks to tremendous 
work by the men and women who work for us, that was disrupted. 
We arrested dozens of people during this year to disrupt those 
plots.
    The challenge we face is enormous, because this broken 
model, this crowdsourcing of terrorism means there are hundreds 
of people across our great country who are troubled, who are 
consuming this poison. We have investigations in all 50 States 
trying to understand. So where are they from consuming to 
acting? Very hard to find them and to evaluate them. It gets 
harder still. It is not just a Nation-wide haystack where we 
are looking for needles, ISIL makes those needles disappear on 
us. Because if they find a live one through Twitter, they will 
move them through all these investigations to an end-to-end 
mobile messaging app that is encrypted, and then the needle 
disappears. So we know if somebody is really dangerous to us, 
the needle goes invisible to us. That is very, very concerning.
    The reason we are talking so much about encryption is we 
see in ISIL, and more broadly, a conflict between two values 
everybody in America cares about. We all care about safety and 
security on the internet. I and Nick and Jeh are huge fans of 
encryption, right? We want our key data encrypted. It helps the 
FBI fight cyber intrusions. That value, safety and security, is 
colliding with public safety, which we all care deeply about. 
We don't have an easy answer, but a great democracy should see 
when its values are in collision and talk about how we might 
resolve those two things.
    There is no easy answer. The good news is we are having 
productive conversations with local law enforcement, which 
cares deeply about this, with our allies, and with the 
companies who make these devices and offer these services, 
because they are good folks who care about both values. This is 
a really hard problem for our country. We are not here to tell 
what the answer is. We are here just to tell folks. The example 
I use is, the FBI is not an alien force imposed on America from 
Mars, right? We belong to the American people. We have the 
tools the American people gave us through you; and our job, 
when one of those tools isn't working so much anymore, is to 
tell the American people. That is why we are talking so much 
about encryption. You see it in the ISIL cases, you see it in 
kidnapping cases, drug cases, child abuse cases. There is a 
conflict in our values that we simply must figure out how to 
resolve. It is obvious in the case of ISIL. We will continue 
doing the work.
    I am very grateful, as my colleagues are, for the high-
quality product that this committee did on travelers, those 
responding to the first part of that siren song, that ``come.'' 
There is something interesting happening that I want to tell 
the committee about. Just in the last few months, we are seeing 
fewer people attempt to travel to join ISIL in Syria. We have 
seen 6 in the last 3\1/2\ months. We were seeing 9 a month in 
all the months before that.
    I don't know what to make of that. One possibility is we 
are not seeing it the way we were before; they are still going. 
Another possibility is all of our efforts to lock people up and 
punish them for going is making a difference, another 
difference is help from our colleagues around the world, 
especially the Turks, or something else. But we are starting to 
notice that curve, which was going up like a hockey stick, 
flatten a little bit. We will keep you posted on whether that 
continues, but this committee has done such great work on that 
topic, I wanted you to know that fact. We are very grateful for 
the opportunity for this conversation.
    [The prepared statement of Mr. Comey follows:]
                  Prepared Statement of James B. Comey
                            October 21, 2015
    Good afternoon Chairman McCaul, Ranking Member Thompson, and 
Members of the committee. Thank you for the opportunity to appear 
before you today to discuss the current threats to the homeland and our 
efforts to address new challenges including terrorists' use of 
technology to communicate--both to inspire and recruit. The wide-spread 
use of technology propagates the persistent terrorist message to attack 
U.S. interests whether in the homeland or abroad. As the threat to harm 
Western interests evolves, we must adapt and confront the challenges, 
relying heavily on the strength of our Federal, State, local, and 
international partnerships. Our successes depend on interagency 
cooperation. We work closely with our partners within the Department of 
Homeland Security and the National Counterterrorism Center to address 
current and emerging threats.
                            counterterrorism
    Counterterrorism remains the FBI's top priority, however, the 
threat has changed in two significant ways. First, the core al-Qaeda 
tumor has been reduced, but the cancer has metastasized. The progeny of 
al-Qaeda--including AQAP, al-Qaeda in the Islamic Maghreb, and the 
Islamic State of Iraq and the Levant (ISIL) have become our focus.
    Secondly, we are confronting the explosion of terrorist propaganda 
and training on the internet. It is no longer necessary to get a 
terrorist operative into the United States to recruit. Terrorists, in 
ungoverned spaces, disseminate poisonous propaganda and training 
materials to attract troubled souls around the world to their cause. 
They encourage these individuals to travel, but if they can't travel, 
they motivate them to act at home. This is a significant change from a 
decade ago.
    We continue to identify individuals who seek to join the ranks of 
foreign fighters traveling in support of ISIL, and also home-grown 
violent extremists who may aspire to attack the United States from 
within. These threats remain among the highest priorities for the FBI 
and the intelligence community as a whole.
    Conflicts in Syria and Iraq continue to serve as the most 
attractive overseas theaters for Western-based extremists who want to 
engage in violence. We estimate approximately 250 Americans have 
traveled or attempted to travel to Syria to participate in the 
conflict. While this number is lower in comparison to many of our 
international partners, we closely analyze and assess the influence 
groups like ISIL have on individuals located in the United States who 
are inspired to commit acts of violence. Whether or not the individuals 
are affiliated with a foreign terrorist organization and are willing to 
travel abroad to fight or are inspired by the call to arms to act in 
their communities, they potentially pose a significant threat to the 
safety of the United States and U.S. persons.
    ISIL has proven relentless in its violent campaign to rule and has 
aggressively promoted its hateful message, attracting like-minded 
extremists to include Westerners. To an even greater degree than al-
Qaeda or other foreign terrorist organizations, ISIL has persistently 
used the internet to communicate. From a homeland perspective, it is 
ISIL's wide-spread reach through the internet and social media which is 
most concerning as ISIL has aggressively employed this technology for 
its nefarious strategy. ISIL blends traditional media platforms, glossy 
photos, in-depth articles, and social media campaigns that can go viral 
in a matter of seconds. No matter the format, the message of 
radicalization spreads faster than we imagined just a few years ago.
    Unlike other groups, ISIL has constructed a narrative that touches 
on all facets of life--from career opportunities to family life to a 
sense of community. The message isn't tailored solely to those who are 
overtly expressing symptoms of radicalization. It is seen by many who 
click through the internet every day, receive social media push 
notifications, and participate in social networks. Ultimately, many of 
these individuals are seeking a sense of belonging.
    As a communication medium, social media is a critical tool for 
terror groups to exploit. One recent example occurred when an 
individual was arrested for providing material support to ISIL by 
facilitating an associate's travel to Syria to join ISIL. The arrested 
individual had multiple connections, via a social media networking 
site, with other like-minded individuals.
    There is no set profile for the susceptible consumer of this 
propaganda. However, one trend continues to rise--the inspired youth. 
We've seen certain children and young adults drawing deeper into the 
ISIL narrative. These individuals are often comfortable with virtual 
communication platforms, specifically social media networks.
    ISIL continues to disseminate their terrorist message to all social 
media users--regardless of age. Following other groups, ISIL has 
advocated for lone-offender attacks. In recent months ISIL released a 
video, via social media, reiterating the group's encouragement of lone-
offender attacks in Western countries, specifically advocating for 
attacks against soldiers and law enforcement, intelligence community 
members, and Government personnel. Several incidents have occurred in 
the United States and Europe over the last few months that indicate 
this ``call to arms'' has resonated among ISIL supporters and 
sympathizers.
    In one case, a New York-based male was arrested in September after 
he systematically attempted to travel to the Middle East to join ISIL. 
The individual, who was inspired by ISIL propaganda, expressed his 
support for ISIL on-line and took steps to carry out acts encouraged in 
the ISIL call to arms.
    The targeting of U.S. military personnel is also evident with the 
release of names of individuals serving in the U.S. military by ISIL 
supporters. The names continue to be posted to the internet and quickly 
spread through social media, depicting ISIL's capability to produce 
viral messaging. Threats to U.S. military and coalition forces continue 
today.
    Social media has allowed groups, such as ISIL, to use the internet 
to spot and assess potential recruits. With the wide-spread horizontal 
distribution of social media, terrorists can identify vulnerable 
individuals of all ages in the United States--spot, assess, recruit, 
and radicalize--either to travel or to conduct a homeland attack. The 
foreign terrorist now has direct access into the United States like 
never before.
    In other examples of arrests, a group of individuals was contacted 
by a known ISIL supporter who had already successfully traveled to 
Syria and encouraged them to do the same. Some of these conversations 
occur in publicly-accessed social networking sites, but others take 
place via private messaging platforms. As a result, it is imperative 
the FBI and all law enforcement organizations understand the latest 
communication tools and are positioned to identify and prevent terror 
attacks in the homeland.
    We live in a technologically-driven society and just as private 
industry has adapted to modern forms of communication so too have 
terrorists. Unfortunately, changing forms of internet communication and 
the use of encryption are posing real challenges to the FBI's ability 
to fulfill its public safety and National security missions. This real 
and growing gap, to which the FBI refers as ``Going Dark,'' is an area 
of continuing focus for the FBI; we believe it must be addressed given 
the resulting risks are grave in both traditional criminal matters as 
well as in National security matters. The United States Government is 
actively engaged with private companies to ensure they understand the 
public safety and National security risks that result from malicious 
actors' use of their encrypted products and services. However, the 
administration is not seeking legislation at this time.
    The FBI is utilizing all lawful investigative techniques and 
methods to combat the threat these individuals may pose to the United 
States. In conjunction with our domestic and foreign partners, we are 
rigorously collecting and analyzing intelligence information as it 
pertains to the on-going threat posed by foreign terrorist 
organizations and home-grown violent extremists. We continue to 
encourage robust information sharing; in partnership with our many 
Federal, State, and local agencies assigned to Joint Terrorism Task 
Forces around the country, we remain vigilant to ensure the safety of 
the American public. Be assured, the FBI continues to pursue increased 
efficiencies and information-sharing processes as well as pursue 
technological and other methods to help stay ahead of threats to the 
homeland.
                              intelligence
    Integrating intelligence and operations is part of the broader 
intelligence transformation the FBI has undertaken in the last decade. 
We are making progress, but have more work to do. We have taken two 
steps to improve this integration. First, we have established an 
intelligence branch within the FBI headed by an Executive Assistant 
Director (``EAD''). The EAD looks across the entire enterprise and 
drives integration. Second, we now have Special Agents and new 
Intelligence Analysts at the FBI Academy engaged in practical training 
exercises and taking core courses together. As a result, they are 
better-prepared to work well together in the field. Our goal every day 
is to get better at using, collecting, and sharing intelligence to 
better understand and defeat our adversaries.
    The FBI cannot be content to just work what is directly in front of 
us. We must also be able to understand the threats we face at home and 
abroad and how those threats may be connected. Towards that end, 
intelligence is gathered, consistent with our authorities, to help us 
understand and prioritize identified threats and to determine where 
there are gaps in what we know about these threats. We then seek to 
fill those gaps and learn as much as we can about the threats we are 
addressing and others on the threat landscape. We do this for National 
security and criminal threats, on both a National and local field 
office level. We then compare the National and local perspectives to 
organize threats into priority for each of the FBI's 56 field offices. 
By categorizing threats in this way, we strive to place the greatest 
focus on the gravest threats we face. This gives us a better assessment 
of what the dangers are, what's being done about them, and where we 
should prioritize our resources.
                                 cyber
    An element of virtually every National security threat and crime 
problem the FBI faces is cyber-based or facilitated. We face 
sophisticated cyber threats from state-sponsored hackers, hackers for 
hire, organized cyber syndicates, and terrorists. On a daily basis, 
cyber-based actors seek our state secrets, our trade secrets, our 
technology, and our ideas--things of incredible value to all of us and 
of great importance to the conduct of our Government business and our 
National security. They seek to strike our critical infrastructure and 
to harm our economy.
    We continue to see an increase in the scale and scope of reporting 
on malicious cyber activity that can be measured by the amount of 
corporate data stolen or deleted, personally identifiable information 
compromised, or remediation costs incurred by U.S. victims. For 
example, as the committee is aware, the Office of Personnel Management 
(``OPM'') discovered earlier this year that a number of its systems 
were compromised. These systems included those that contain information 
related to the background investigations of current, former, and 
prospective Federal Government employees, as well as other individuals 
for whom a Federal background investigation was conducted. The FBI is 
working with our interagency partners to investigate this matter.
    FBI agents, analysts, and computer scientists are using technical 
capabilities and traditional investigative techniques--such as sources, 
court-authorized electronic surveillance, physical surveillance, and 
forensics--to fight cyber threats. We are working side-by-side with our 
Federal, State, and local partners on Cyber Task Forces in each of our 
56 field offices and through the National Cyber Investigative Joint 
Task Force (NCIJTF), which serves as a coordination, integration, and 
information-sharing center for 19 U.S. agencies and several key 
international allies for cyber threat investigations. Through CyWatch, 
our 24-hour cyber command center, we combine the resources of the FBI 
and NCIJTF, allowing us to provide connectivity to Federal cyber 
centers, Government agencies, FBI field offices and legal attaches, and 
the private sector in the event of a cyber intrusion.
    We take all potential threats to public and private-sector systems 
seriously and will continue to investigate and hold accountable those 
who pose a threat in cyber space.
    Finally, the strength of any organization is its people. The 
threats we face as a Nation have never been greater or more diverse and 
the expectations placed on the Bureau have never been higher. Our 
fellow citizens look to us to protect the United States from all of 
those threats and the men and women of the Bureau continue to meet--and 
exceed--those expectations, every day. I want to thank them for their 
dedication and their service.
    Chairman McCaul, Ranking Member Thompson, and committee Members, I 
thank you for the opportunity to testify concerning the threats to the 
homeland and terrorists' use of the internet and social media as a 
platform for spreading ISIL propaganda and inspiring individuals to 
target the homeland, and the impact of the Going Dark problem on 
mitigating their efforts. I am happy to answer any questions you might 
have.

    Chairman McCaul. I thank you, Director.
    The Chair now recognizes himself for questioning.
    Let me say, on the encryption issue, Dark Space platform, 
this committee is--we are meeting with technology companies 
trying to find a solution to that. You have the foreign fighter 
threat, but the threat over the internet is real; it has gone 
viral. I think the good news is Junaid Hussain was taken out by 
an air strike. That is publicly reported, and had some impact, 
I think, but it is going to continue until we find a solution, 
a technology solution.
    I also want to commend you for the success both you and the 
Secretary have had in stopping so many plots. We put out a 
monthly terrorist snapshot, and the fact is, every month these 
numbers go up in terms of terror plots. We had 17 terror plots 
here in the United States, ISIS-directed or inspired, and 
overall, almost 70 ISIS-related individuals arrested. You don't 
know what you don't know. The Chattanooga case is a good 
example. You can't stop all this. The chatter is so high, it is 
hard to stop all of it.
    My first question, just very simply, is--and I will direct 
it to the Secretary--is: Do you consider the threat environment 
to the homeland to be one of the greatest since 9/11?
    Secretary Johnson. Chairman, like Nick, I tend not to rank 
threats or rank periods----
    Chairman McCaul. Use your mike.
    Secretary Johnson. I tend not to rank threats or try to 
make an assessment that a current period is more or less 
dangerous than before, because we have to focus on a number of 
things. The point that I want to stress is that it is 
different. It is different than what it was in the 9/11 period 
in that it is more decentralized and more diffused; it is more 
complicated because of the going--Going Dark phenomenon because 
of the very effective use of social media, and because of the 
potential for the lone actor, who isn't necessarily exported 
from overseas, but who could strike here at any moment, which 
requires a more complex response, a more whole-of-Government 
response.
    We are very concerned. I am encouraged by the numbers Jim 
cited of those we know about who have attempted to leave, but 
we also know that ISIL is still out there every day making an 
appeal. So we have got to stay busy.
    Chairman McCaul. Director Comey.
    Mr. Comey. I think about it the way Jeh does. In some ways, 
we are demonstrably safer, thanks to the work of this committee 
and the whole of Government. This--our country is better 
organized, better deployed, smarter, tougher than we were 
before 9/11. So as Director Rasmussen said, I agree that the 
threat of the big thing is not gone, but it is diminished 
significantly. At the same time, there has been a metastasis of 
the threat in all of the likely governed or ungoverned spaces 
throughout the world.
    We are obviously all looking at Libya closely now, and the 
Sinai, and lots of other parts of the world. So it has been 
more diffuse. It moves at us faster through social media, and 
there is a whole lot more people in the United States--
energized, troubled souls--than there were by core al-Qaeda at 
or after 9/11. So it is just very different today.
    Chairman McCaul. Mr. Rasmussen.
    Mr. Rasmussen. The only thing I would add to that is that 
the diffusion and the dispersal of the threat that all three of 
us have talked about creates a particular problem in that it 
stretches our resources that much more widely. The blanket has 
to cover more of the bed. When you look around the world, all 
of the locations, all of the safe haven locations, all of the 
regions of instability around the world where a potential 
terrorist threat might emanate from are areas where we have to 
look to enhance our collection of intelligence, enhance our 
ability to partner with governments in those regions, and that 
is just a resource challenge.
    If you think about the period dealing with core al-Qaeda, 
we were focused pretty extensively on Pakistan and Afghanistan, 
now you could rattle off 12 or 15 countries where we are very, 
very active.
    Chairman McCaul. That is more of a global limit.
    Let me move quickly to the latest edition of Dabiq, which 
is ISIS's basically Inspire magazine. They discuss the idea of 
moving a weapon of mass destruction through transnational 
criminal organizations into the Western Hemisphere and across 
the Southwest Border from Mexico into the United States. Being 
from Texas, this certainly concerns me, and, of course, not 
getting into specifics, but a plot was disrupted out of 
Moldova, trying to smuggle to Islamist terror organizations, 
nuclear materials that could have reached our shores. Director 
Comey, how serious do you take this threat?
    Mr. Comey. Deadly seriously. This is something that we have 
worried about for a long time. We have a division of the FBI, 
the Weapons of Mass Destruction Directorate, where people wake 
up every single day worrying about this. It is one of the 
reasons that we have tried to build such good relationships 
with our law enforcement colleagues in so many of the places 
where there might be materials available, including the former 
Soviet States. So it is the classic, extremely low-probability, 
extraordinarily high-impact event, so it has our constant 
focus.
    Chairman McCaul. My final question is on the Syrian 
refugees. We have had testimony before this committee that we 
don't have intelligence on the ground in Syria. We can't 
properly vet these individuals through databases. We don't know 
who they are. I visited a camp in Jordan with some Members on 
the committee, and we were told the same thing. I know the 
administration is planning on moving as high as 10,000 refugees 
into the country. Just very quickly, as my time is running out, 
how concerned are you from a security perspective on this? Do 
you think this will increase your counterterrorism caseload if 
we bring in 10,000 Syrians into the United States? Secretary 
Johnson.
    Secretary Johnson. Chairman, we--I am concerned that we do 
the proper security vetting for refugees we bring into this 
country. We committed to 10,000, and I have committed that each 
one will receive a careful security vetting. It is true that we 
are not going to know a whole lot about a lot of the Syrians 
that come forth in this process, just given the nature of the 
situation. So we are doing better at checking all the right 
databases and the law enforcement and intelligence communities 
than we used to, and so it is a good process, and it is a 
thorough process, but that definitely is a challenge.
    Chairman McCaul. Director Comey.
    Mr. Comey. I don't think I have anything to add to Jeh. I 
think he describes it well. We see a risk there. We work hard 
to mitigate it. Our challenge will be, as good as we have 
gotten ourselves at querying our holdings to understand 
somebody, if the person has never crossed our radar screen, 
there won't be anything to query against, and so we do see a 
risk there.
    Chairman McCaul. Well, for the record, we are a 
humanitarian Nation. It is a humanitarian crisis, but we also 
have a responsibility to protect the American people, and to 
me, that is paramount as well.
    The Chair now recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman. Taking off from your 
question relative to the Syrian refugees, can each of you 
explain your agency's position on the vetting process for these 
refugees? A lot of us are concerned about whether or not you 
have enough information available to you to do an accurate 
vetting. So, Mr. Rasmussen, can you----
    Mr. Rasmussen. Sure. I am happy to start.
    As Director Comey suggested, we have a lot of lessons 
learned in this area from when we went through similar 
processes over the last several years dealing with other large 
refugee populations. So, I think we have now worked 
successfully to make sure that every bit of available 
intelligence information that the United States Government 
holds will be looked at with respect to a potential nexus to 
someone being screened as a potential refugee.
    I certainly feel good about that process and the degree to 
which we have tightened that up over time. You can't account 
for what you don't know, and that goes to the intelligence 
deficit that I think is embedded in your question. What we can 
do, though, is understand where the potential vulnerabilities 
are so that we are asking in the screening and vetting process 
the right kinds of questions to give our screeners and vetters 
the best possible opportunity to make an informed judgment. It 
is not a perfect process; there is a degree of risk attached to 
any screening and vetting process. We look to manage that risk 
as best we can.
    Mr. Thompson. Mr. Secretary.
    Secretary Johnson. Each of us at the table here is acutely 
aware that in our world, one failure is the equivalent of 
10,000 successes. There are, in fact, lessons we learned from 
the vetting process with regard to the Iraqi refugees that we 
took in. The process has improved. We are better at connecting 
dots, checking the databases with information we have.
    My people in USCIS, to do this, will be on the ground in 
places to vet refugees along with the State Department, but 
they will do so in consultation with our law enforcement and 
our intelligence agency partners. We will do it carefully. We 
have made this commitment, but we will commit the resources to 
do it, and we will do it carefully.
    Mr. Thompson. Mr. Director.
    Mr. Comey. I don't think I have anything useful to add. I 
think my view was captured by what both the Secretary and the 
Director said.
    Mr. Thompson. So I--capsuling what has been said, it is 
your feeling that our existing systems are robust enough to 
assure this committee that, to the extent practical, no 
terrorist can get through that process?
    Secretary Johnson. Well, the issue we face, obviously, is 
what Jim mentioned. We may have somebody who comes to us and is 
simply not on our radar for any discernable reason. It may also 
be the possibility that somebody decides to do something bad 
after they have been admitted through the process. But we do 
have a good system in place for the undertaking that we have 
made.
    Mr. Thompson. Mr. Director, before this committee, 
Assistant Director Steinbach said that the concerns in Syria is 
that we don't have the systems in place on the ground to 
collect the information to vet. That would be the concern: 
Databases don't hold the information on these individuals. Is 
that still the position of the Department?
    Mr. Comey. Yes. I think that is the challenge we are all 
talking about, is that we can only query against that which we 
have collected. So, if someone has never made a ripple in the 
pond in Syria in a way that would get their identity or their 
interests reflected in our database, we can query our database 
until the cows come home, but we are not going to--there will 
be nothing to show up, because we have no record on that 
person.
    That is what Assistant Director Steinbach was talking 
about. You can only query what you have collected. With respect 
to Iraqi refugees, we had far more on our databases because of 
our country's work there for a decade. This is a different 
situation.
    Chairman McCaul. The Chair recognizes Mr. Smith from Texas.
    Mr. Smith. Thank you, Mr. Chairman. I just want to get some 
figures on the table. I understand the administration wants to 
admit about 15,000 Syrian refugees this year and as many as 25- 
to 30,000 next year. Is that generally correct?
    Secretary Johnson. The number this year is 10,000.
    Mr. Smith. Ten thousand. Then next year would be how many?
    Secretary Johnson. I don't believe that a firm decision has 
been made with respect to fiscal year 2017, but this year, we 
said we want to take in 10,000.
    Mr. Smith. It has been reported that there would be 2 to 3 
times that many next year, much more of a significant increase.
    You have all used the word ``risk'' to describe admitting 
these refugees, and I assume that what we have heard and read 
is accurate, and that is that terrorist organizations are going 
to be tempted to try to infiltrate these refugees and try to 
sneak individuals into this country who might commit terrorist 
acts. I guess the question I have for you is, how likely is it 
that terrorist organizations are going to try to take advantage 
of the admission of these refugees to get people in this 
country who might commit terrorist acts? Is it likely? Not 
likely?
    Secretary Johnson. That is an intelligence question.
    Mr. Rasmussen. We have certainly seen terrorist groups talk 
about, think about exactly what you are describing, Mr. Smith, 
trying to use available programs to get people not only in the 
United States, but into Western European countries as well. So 
we know that they aspire to do that. I don't know that I would 
go so far as to say they are likely to succeed, because, again, 
we----
    Mr. Smith. Is it possible to conduct background checks on 
these individuals, or is it only if they are already in the 
database that they would be flagged? In other words, the 
terrorist organization isn't going to try to get someone in as 
a refugee if they already have a public background that you 
would be able to uncover. They are going to get people into the 
country who have not yet committed a terrorist act. Don't you 
think it is likely that they are going to try to do that?
    Secretary Johnson. There is a pretty thorough vetting 
process of each individual, which encompasses a personal 
assessment of each individual, which includes an interview. It 
is not just simply what is in a public record, does the person 
have a rap sheet of any kind. So there is that personal 
assessment.
    Mr. Smith. That is a little bit of my concern. You are 
relying upon them and what they say or what they write out in 
an application, and you can't go beyond that. So you are sort 
of having to take their word for it.
    Another red flag to me is that I--in past years, 
historically, traditionally, refugees have been members of 
families, and yet, the typical profile of a Syrian refugee, I 
am told, is that most are young, single males as opposed to 
family members. So to me, that would raise a red flag as well. 
Do you have any information, any comments, about that?
    Secretary Johnson. Coming from me, sir, the one observation 
I have of resettled Syrian refugees in this country so far is 
that they tend to settle into communities that are very--that 
embrace them, that are very supportive in Syrian American 
communities around the country. I have seen that personally 
myself. It tends to be a pretty tight-knit and supportive 
community.
    Mr. Smith. Okay. Well, as I say, both the profile and the 
motives of terrorist organizations and your admission that 
there is some risk involved, to me, would persuade the 
administration to go slow rather than fast when it comes to 
admitting individuals who might not--who might do us harm.
    Secretary Johnson, let me move to another subject. The 
administration--this is more of a domestic concern. The 
administration has announced that next month, it is going to 
release a number of thousands of individuals from Federal 
prison. How many individuals is the projection that will be 
released next month? These are criminal aliens.
    Secretary Johnson. Well, the total number that the 
Department of Justice plans to release pursuant to their 
guidelines adjustment next month, I am told, is about 2,000.
    Mr. Smith. Two thousand.
    Secretary Johnson. Yes.
    Mr. Smith. Then how many of those individuals will be put 
into the process to be removed?
    Secretary Johnson. A fair number. This is something--let 
me--let me stress, this is something that we have been working 
on now for about a year, and the thing that I am focused on, 
that I have been focused on, those who are released who are 
undocumented, that they come directly into our custody, that 
they are not released into the streets.
    Mr. Smith. Good. Good.
    Secretary Johnson. So I believe that process, because I 
have checked numerous times, is in place, and that is exactly 
what is going to occur.
    Mr. Smith. Good. Last time you appeared before this 
committee, I brought up the figure that the administration is 
releasing close to 30,000 people every year who have been in 
prison, been arrested, mostly convicted, and released them back 
out into our communities and neighborhoods. You said that 
figure was going to go down dramatically; it needed to stop. I 
have heard that for a couple of years now. Is the 
administration still releasing individuals back into our 
communities who are in the country illegally, who have been 
convicted of crimes, or are those individuals being put into 
removal procedures now?
    Secretary Johnson. Well, Mr. Smith, as I am sure you are 
aware, if someone is in immigration detention with a final 
order of removal, the law says that we have to do a 6-month 
assessment.
    Mr. Smith. Right.
    Secretary Johnson. If repatriation is not imminent, there 
are only limited circumstances under which we can hold them. I 
have changed the process for deciding the circumstances under 
which that happens. We don't have the final numbers yet for 
fiscal year 2015, but I believe that the number of those who 
have been released who have been convicted of crimes has gone 
down from 30,000.
    Mr. Smith. To what number?
    Secretary Johnson. I don't have the number yet. But I am 
told it has gone down from 30,000. Fiscal year 2013 was about 
34, as I am sure you will recall; 2014 was about 30; and I 
believe the number is south of 30 for fiscal year 2015.
    Mr. Smith. I hope it is very far south of 30 for the sake 
of innocent American citizens. Thank you.
    Chairman McCaul. Thank you.
    I just want to state for the record that ISIS has been on 
record through a smuggler stating that they want to exploit the 
refugee process to infiltrate the West. I take them at their 
word. So I would caution the administration to proceed very 
carefully in this program.
    The Chair recognizes Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you, 
and I want to thank our witnesses for being here today, and 
your testimony.
    I am going to turn to another trifecta, and that is going 
back to the issue of cybersecurity, which we have referenced a 
couple of times here today. I thank the Chairman for his 
leadership on this issue and the Ranking Member.
    Mr. Secretary, you reference, and you have spoken about 
this before, the recent breach of OPM's networks and the role 
DHS has in protecting agency networks, and I understand that 
the leadership at OPM at the time was asleep at the switch and 
that they certainly ignored warnings from their own inspector 
general. I know that DHS to provide tools, EINSTEIN CDM, to 
assist agencies. So I have to ask you at this point for an 
update. You know, I--can you tell me with confidence that other 
agencies under your care will not suffer breaches like OPM's?
    Secretary Johnson. I can tell you that we are making rapid 
and significant progress to ensure that does not happen. The 
EINSTEIN 3A system right now, which has the ability to block 
intrusions, is available and deployed to about half the Federal 
civilian government.
    I have directed my folks at DHS to make it available to 100 
percent by the end of this year, and I believe we are on track 
to do that.
    We have gotten agency heads who, by law, are responsible 
for their own cybersecurity to focus on this issue. I issued a 
binding operational directive in May pursuant to authority 
given to me by the Congress to do that, which is, in effect, a 
scorecard to get agency heads to focus on this issue, and we 
have a very aggressive plan for enhancing our diagnostics 
ability.
    So I believe that awareness in these agencies has been 
enhanced significantly, including because of the OPM breach, 
and that we are on an aggressive time table to cross the 
Federal Government to ensure that this kind of thing can't 
happen, or that the risk of it happening is significantly 
reduced.
    Mr. Langevin. So on the issue of binding operational 
directives, I want to know, and this is basically authority 
pursuant to what Congress says, has authorized, but how does it 
work and what are the consequences if a binding operational 
directive is ignored by the agency?
    Secretary Johnson. Well, basically, the way the authority 
works that Congress has given me, I have the ability to go to 
each agency and say, here is--here are your vulnerabilities; 
you need to clean them up by a certain date. If you don't, they 
will be highlighted, and we will have to follow up with you on 
this.
    Mr. Langevin. They will be highlighted, but what does that 
mean? What is the consequence if they ignore your binding 
operation----
    Secretary Johnson. My recollection--my recollection--now I 
am working on recollection--is that it means a report to 
Congress and a report to OMB. But I don't have the authority to 
simply do that job for an agency head myself, or in any way 
fine them or sanction them.
    Mr. Langevin. That is a frustration which, you know, I have 
been talking about for a long time. I think you or somebody 
needs that authority.
    Mr. Secretary, before my time runs out, do you still 
believe that agencies should have primary responsibility for 
their network defense?
    Secretary Johnson. I believe that agency directors, 
administrators themselves should be principally responsible for 
their own networks. I also believe that DHS should have the 
overall responsibility for the security of the Federal 
Civilian.Gov system, but it should be on each agency head to 
take responsibility for his or her own networks.
    Mr. Langevin. Right. I would tend to agree with you that 
you should have more responsibility than that in authority.
    Mr. Secretary, as you know, one of my chief concerns is 
protection of critical infrastructure from cyber attack. I 
think all of us on this committee are aware of the threat that 
we face them in cyber space, and I am curious about your take 
on the response of critical infrastructure owners and 
operators. In my experience, there has been a tendency to meet 
the minimum requirements put on them, but to ask the Government 
to incentivize any measure taken beyond that. Do you believe 
owners and operators are innovating in their defensive efforts, 
or are they generally just getting by?
    Secretary Johnson. I think it depends on the size of the 
business and the segment they are in, but I believe that owners 
and operators of critical infrastructure are taking the threat 
more and more significantly because of the information we are 
sharing with them about what we are seeing, about some of the 
threats that have been directed to them. So I believe there is 
an increasing awareness out there, and it is not just a 
minimalist approach.
    Mr. Langevin. Thank you.
    Director Comey, in your testimony, you referenced the steps 
the FBI has taken to continue to gather intelligence to stop 
terrorism despite the challenge of Going Dark. I share your 
concern. Can you expand on this beyond working with tech 
companies to address the problem directly and acknowledging 
that you are not asking for a legislative solution. What are 
the other methods the FBI does employ?
    Mr. Comey. Thank you, Congressman.
    We--when we face a needle that has gone invisible on us, we 
have to lean more heavily on traditionally law enforcement 
techniques, see if we can get a source close to the person, see 
if we can get an undercover close to the person, see if 
physical surveillance tells us something about the person, and 
those obviously--there is obvious shortcomings in those 
techniques, but we are not going to stop trying to get the job 
done. So we will just lean on other things we have done for 
years. It will be inadequate, frankly, but we will keep working 
at it.
    Mr. Langevin. I thank the Chair. This is an issue that I 
have increasing concern about, this going dark, and our intel 
and law enforcement's ability to really adequately see into the 
threats that are facing us. It is a challenge that we are going 
to have to continue to confront.
    Chairman McCaul. Yeah. I share that concern, as well.
    The Chair recognizes Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Secretary, I share the concerns outlined by Mr. Smith 
about ISIL using the Syrian refugees that the President has 
decided to allowed into this country as a vehicle to sneak bad 
actors in.
    You described a, ``pretty thorough vetting process'' as a 
part of your response to his answer. Can you tell me more about 
that process?
    Secretary Johnson. Well, first of all, we are happy to 
brief you on the more sensitive aspects of it in a nonpublic 
setting. But it involves consulting a number of different 
agencies, law enforcement and intelligence, and the information 
that they have regarding each individual applicant.
    It is a more robust process than it used to be. To some, it 
is time-consuming, but it is something that I think we need to 
do. It involves any information you may have. It may take some 
time to resolve any uncertainties about the information. 
Sometimes there may be a variance in a name or a date of birth 
or something of that nature. But it involves consulting a 
number of different agencies as well as a personal interview 
and gathering simply as much information as we possibly have 
about the person.
    Mr. Rogers. I would appreciate it if you would have your 
appropriate staff member schedule that brief for me in a SCIF 
and any other Members of the committee that would like to 
participate.
    Director Comey, from personal experience, I have seen your 
agency do some phenomenal things with virtually no evidence, 
other than a bad act, to locate bad people.
    Having said that, I am curious to know, is there any other 
tool that we can provide you, that the Congress could provide 
you, that would help you locate these individuals that you all 
referred to on social media that are recruiting and organizing 
in this country that you don't have at present?
    Mr. Comey. I don't think so, Congressman. To me, this 
conversation about going dark is not about new authorities for 
the FBI. You have given us the authority to go to Federal 
judges and make a showing of probable cause and get a search 
warrant or get an order to intercept communications. We think 
that is appropriate. We are big fans of the rule of law and the 
Bill of Rights, and so I think that is a good set of 
authorities.
    The challenge we face is solving the problems where those 
tools under the Fourth Amendment are no longer as effective as 
they were before. That is this huge, knotty problem I am 
talking about.
    So I don't see it as more authorities for the FBI. I see it 
as all of us together trying to figure out how the authorities 
we already have, the American people have given us, can be used 
to good effect.
    Mr. Rogers. You also made reference earlier, you and 
Secretary Johnson, about the surge of activity that you are 
having to manage now. Do you have the adequate resources to 
deal with that surge? I know Secretary Johnson has talked about 
sequestration and its burdens on his agency. What do you think 
about that? Do you have what you need?
    Mr. Comey. The honest answer is I don't know. For this 
reason, I say that: If what we experienced in May, June, and 
into the early part of July were to become the new normal, it 
would really stretch the FBI. Because, to meet that surge, we 
had to move a lot of folks from criminal work, because 
surveillance is only easy on TV. Following somebody 24/7 
without them knowing you are there is really hard. So we had to 
surge hundreds of people from criminal cases, which are 
important, move them over to the National security side.
    That bump in cases has dropped off a little bit, and so we 
are watching it very closely. We have moved people back to be 
able to do the criminal work. But if that surge becomes our new 
normal, then I will have a different view of it. I will 
obviously make sure Congress knows the minute I have reached 
that conclusion.
    Mr. Rogers. Well, I hope you will. We want to be helpful. 
We want to give you the tools that you need. But, frankly, we 
have to hear from you what you need. We can't help you unless 
you tell us what you need.
    Mr. Comey. Yes, sir.
    Mr. Rogers. Thank you. I yield back.
    Chairman McCaul. Thank you.
    The Chair recognizes Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    In light of the challenges that you described in terms of 
encryption and expanding social networking, I think one 
strategy is to maximize our other abilities to try and thwart 
terrorist acts. Along those lines, it has been a priority of 
mine, a priority of the committee's to look at enhancing 
information sharing among Federal agencies and local law 
enforcement, as well, particularly in the wake of the Boston 
Marathon bombing.
    I know that the FBI has moved forward in this, and I know 
that DHS has offered recommendations in this regard that we are 
reviewing here.
    If I could, you know, Director Comey, if you could just 
give us an update on what you have done already in the wake of 
the Boston Marathon bombing--use that as a time frame--and what 
you see going forward and any time lines in pursuing that.
    Mr. Comey. Yeah. Thank you, Congressman Keating.
    I think we learned some good things for us to get better, 
coming out of the Boston Marathon bombing. I appreciate your 
focus on it and the committee's. I believe we are in a much 
better place today. We can always be better, but here is how I 
think about our improvement.
    We now make sure that everybody on the Joint Terrorism Task 
Force knows that our default is sharing information. In 
particular, we want the leaders of the agencies represented in 
our Joint Terrorism Task Forces to understand that and actually 
participate in it.
    So we do an inventory review in each single JTTF on a 
regular basis. Sometimes it is once a week; sometimes it is 
once a month. We want everybody to come in and sit down and 
say, ``This is the stuff we opened in the last month, this is 
the stuff we closed; questions, concerns, anybody want to 
follow up on it?'' so they are engaged at the JTTF, but also, 
if there is something else they want to do in response to the 
inventory, they are able to do that.
    So I think we have pushed that both in letter, which is 
important, but in spirit, which, frankly, is more important, to 
understand, everybody, we are in this together. Especially this 
threat that is so spread out, we need State and local partners 
to spot this and stop it.
    So I think we are in a much better place than we were 2\1/
2\ years ago. As I said, I don't want to be overconfident, 
though. There are always ways to find ways to improve, but that 
is my sense of where we are.
    Mr. Keating. I think all of your agencies have done an 
extraordinary job in thwarting so many potential terrorist 
threats. You have done a great job, if you use the analogy, of 
swatting mosquitoes, but the other thing we have to do, 
particularly in light of some of our challenges, is to dry up 
the swamp as much as we can.
    Along those lines, I think it is very important work that 
DHS has done, the Office of Community Partnerships, and making 
that the hub, the central point of trying to thwart some of 
these attacks.
    I would like to ask the Secretary--Secretary Johnson, what 
is your progress in that? How do you value that? How is your 
funding for that? Because I am concerned about some of that. If 
you could, I think it is promising that peer-to-peer--if you 
could explain to the committee your progress with the peer-to-
peer program, how that might be working, because it is 
important.
    We are a great country. No one, I don't think, has the 
resources to out-message us. But what we are not doing is we 
are not maximizing on that, and that is important.
    So if you could comment on that, sir.
    Secretary Johnson. Thank you for that question.
    I have taken a great personal interest in countering 
violent extremism. I believe it is fundamental and 
indispensable to our overall efforts. So I have done a number 
of community engagements myself.
    The reason I created the Office for Community Partnerships 
is because I think we need to take our efforts to the next 
level. So what this office does is consolidate in one place all 
the people across my Department that are devoted to our CVE 
efforts. I want to build on that so that we have a field 
capability. I want an office that will, in addition to engaging 
the community, also engage the tech sector, engage 
philanthropies, develop our own grant-making capabilities here.
    In terms of adequate funding, the single biggest thing that 
I am going to keep coming back to in terms of adequacy of 
funding is: Please repeal sequestration. If I have to deal with 
sequestration, then I come up short on CVE and a lot of other 
things.
    Mr. Keating. How about peer-to-peer, the peer-to-peer 
program? Are we engaging young people in terms of this 
messaging process? Could you comment on that briefly?
    Secretary Johnson. I think that among bright, college-age 
people in particular lie the best ideas on CVE for the way 
forward. So I have engaged several college organizations on 
helping us in our efforts. That is a work in progress.
    In my experience, young people, college-age people tend to 
approach CVE a little differently than older, more experienced 
people of their parents' age, which I can talk with you at 
greater detail off-line about.
    Mr. Keating. Yeah.
    Lastly, just a comment that the perimeters that your 
agencies have are important. That is why you are here. But if 
we are going to be successful, we are going to have to expand 
out beyond that, in the non-profit side, the public side, the 
private side, and obtain more engagement. So I think that we 
shouldn't shortchange resources that all your agencies have to 
try and do that, as well, because I think it is an important 
aspect, and it is one that we still haven't maximized.
    Thank you, and I yield back.
    Chairman McCaul. Thank you.
    I want to commend the Secretary for adopting a lot of the 
provisions in the combating violent extremism bill we marked up 
out of committee. We appreciate that.
    The Chair recognizes Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Secretary Johnson, the term ``OTM,'' ``Other than 
Mexicans,'' is a DHS term, correct?
    Secretary Johnson. It is certainly a term we use around 
DHS.
    Mr. Duncan. Used by your field officers of people 
apprehended crossing the Southern Border that are not of 
Mexican descent.
    Secretary Johnson. Yes.
    Mr. Duncan. Okay.
    I am going to take all Latinos out--Guatemalans, Hondurans, 
El Salvadorans, all those out. There are other people that 
cross the border that are of African, Asian, and Middle Eastern 
descent. Am I not correct?
    Secretary Johnson. You are correct.
    Mr. Duncan. That are apprehended crossing the Southern 
Border.
    Secretary Johnson. Yes.
    Mr. Duncan. Okay. Thank you.
    Secretary Johnson. You are absolutely correct.
    Mr. Duncan. Well, our Southern Border is not secure. We 
have no idea who is coming into this country. I could go on to 
Iran and Hezbollah and the tri-border region and the ties 
between Lebanon and Paraguay, the tri-border region there that 
the Chairman and I investigated a number of years ago. But let 
me shift.
    We have no idea who is in this country. We have no idea who 
can come into this country through our Southern Border, because 
it is not secure.
    Are you familiar with the Jewish museum that was shot up in 
Brussels in, I think, May or June 2014?
    Secretary Johnson. Yes.
    Mr. Duncan. Okay. That is for Director Comey, too.
    Several people died. The perpetrator was a foreign fighter 
who had been trained in Libya or Syria or Iraq; we are not 
sure. But he made his way back into Europe. And because of 
Schengen and open borders, he made his way to Brussels and 
killed several people and then fled. Made it all the way to 
Marseilles, France; was just about to jump out of Europe into 
Africa before he was apprehended.
    These are the facts. Foreign-fighter flow is something we 
have to be very, very serious about, especially because of open 
borders, especially because of the millions of middle-age and 
young Middle Eastern men that have migrated to Europe who could 
possibly have the ability to enter in this country because of 
open borders, visa waiver programs. It may not be this year, it 
may be 5 years after they get citizenship, whatever it takes.
    I will say this. I think the Chairman misspoke a while ago 
when he used the number of 10,000 immigrants coming into this 
country, refugees in the resettlement program. I have heard the 
number is 100,000 next year. Regardless, it is too many if we 
do not have the ability to properly vet those individuals.
    Some of those will come to South Carolina. I will tell you 
that the folks in South Carolina are very, very concerned about 
our inability to vet properly the refugees that are coming.
    I have been to the refugee camp in Jordan. I understand the 
immense challenge that we face from a humanitarian standpoint. 
I understand the need or desire for folks to leave the Middle 
East and travel to Europe or try to come to this country to try 
to create a better life for their family. I think the Chairman 
spoke appropriately when he said we are a very humanitarian 
Nation. History proves that.
    But we have a different situation on our hands. We have a 
group known as ISIS--and al-Qaeda is still relevant in this 
world as a threat to the United States--who want to come to 
this country, who have said they will exploit this refugee 
program to come to this country. If they are able to make it to 
Europe and they are able to jump to Africa and make it to South 
America or Latin America, because of our open borders issues, 
they could come across our border the way the OTMs are coming 
today.
    So, Mr. Comey, what can I tell folks in South Carolina 
about our vetting of these refugees that will put their minds 
to rest that we are properly vetting everyone that may come 
into my State that may wish to harm the United States? What can 
I tell them? Please share with me some bit of good news about 
this Refugee Resettlement Program, because I am not hearing it.
    Mr. Comey. The good news is we are much better at doing it 
than we were 8 years ago. The bad news is there is no risk-free 
process.
    Mr. Duncan. So I hear interviews in the camps, in the 
refugee camps, but I also hear that the records aren't there. 
So I just want to encourage you all, the three of you that are 
charged with the National security of this country, to rethink 
the resettlement of refugees in this country, especially in the 
numbers that I am hearing.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. And----
    Secretary Johnson. Mr. Chairman, can I----
    Chairman McCaul. Yeah, a point of clarification. I think it 
is important, and I think that is where you are going, because 
the public have thrown out the 100,000 number as Syrian 
refugees. My understanding is that there are 100,000 refugees 
total world-wide and 10,000 potentially from Syria, and maybe 
you want to clarify that.
    Secretary Johnson. What we have said is that, for fiscal 
year 2016, we will commit to resettling 10,000 Syrian refugees 
and a total world-wide of 85,000.
    Chairman McCaul. Okay. I just wanted to get that on the 
record while we----
    Mr. Duncan. Well, Mr. Chairman, if I may, where do we 
anticipate those 85,000 coming from? Syria? Iraq? Afghanistan? 
Libya? Do we have any idea? Can we identify the countries that 
are being targeted for refugee resettlement?
    Secretary Johnson. Well, it is done by regions of the 
world, sir. That is a publicly-available fact, which we can get 
you. But refugees tend to come from every part of the world, 
obviously, some more troubled places than others.
    Mr. Duncan. Okay.
    Thank you, Mr. Chairman.
    Chairman McCaul. Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman, and thank you 
for holding this hearing.
    Thank you, gentlemen.
    I tell you, it is actually comforting to hear you refer to 
each other by first name. It means you are collaborating and 
cooperating. It is good that there is a relationship there. It 
makes me feel a little bit better, although this is a very 
scary time.
    I have a few questions. I want to start with a question 
with you, Mr. Johnson. The United States Secret Service is 
leading an investigation of an on-line hacker that recently 
told The Washington Post he gained access to not only the CIA 
director's personal email account but also to your own email 
account.
    Would you please describe what current plan is in place for 
the Secret Service to prevent this intrusion, given the 
external infiltrations the Department has experienced recently, 
including the OPM data breach?
    Secretary Johnson. Ma'am, I don't think that I can comment 
about an on-going investigation. The one thing I will say is 
don't believe everything you read in the newspaper because a 
lot of it is inaccurate. But there is a pending investigation 
by the FBI and the Secret Service, and so I don't think I can 
comment right now.
    Mrs. Watson Coleman. Okay. Thank you.
    I am very interested in how we are approaching and looking 
at the security and safety threats to us, obviously, by those 
who are influenced or directed by foreign countries and 
jihadists but also those who are our own home-grown, right-wing 
extremists who wreak dangerous conditions upon unsuspecting, 
innocent people.
    So I would like to know from the three of you whether or 
not there is an assessment of a greater risk or equal risk or 
lower risk from one type of violent experience as opposed to 
the other and what kind of resource application we have across 
the various entities that deal with both types, both the, sort-
of, right-wing extremists----
    Mr. Comey. All right.
    Mrs. Watson Coleman. Thank you, Mr. Comey.
    Mr. Comey. There are two parts to the FBI's 
Counterterrorism Division: International terrorism, domestic 
terrorism.
    We have hundreds and hundreds of people wake up every day 
worrying about domestic extremists. By that, I mean people who 
are not inspired or motivated by international terrorism 
organizations but are people who see themselves as part of some 
political resistance movement or some racially motivated 
movement in the United States. So we do a lot of work on that 
front.
    Our assessment of the threat is it is about the same as it 
was over the last couple of years, hasn't dropped. It is about 
the same.
    The international terrorism threat, with respect to both 
that coming from the outside in and those motivated internally, 
as we have discussed here today, has changed and gone up, 
especially with those who are responding to ISIL's twin-pronged 
message.
    Mrs. Watson Coleman. So, for clarification purposes, 
though, is there any sort of ranking between the two types of 
violence?
    Mr. Comey. There is not.
    Mrs. Watson Coleman. Is there a greater threat from the 
domestic right-wing extremist who is racist and anti-Semitic 
and all those things as opposed to the jihadist-inspired or -
directed?
    Mr. Comey. We do not compare them in that way. That is sort 
of like, which do you dislike more, heart attacks or cancer? 
They are both----
    Mrs. Watson Coleman. Do you have to consider----
    Mr. Comey [continuing]. Very dangerous things----
    Mrs. Watson Coleman. But do you----
    Mr. Comey [continuing]. We focus----
    Mrs. Watson Coleman. I am sorry.
    Mr. Comey. Sorry.
    Mrs. Watson Coleman. I am just trying to get at, is there a 
difference in the application of resources for one type versus 
the other? Are there different offices in charge of one type or 
the other, or is there sort of a cross-pollination?
    Mr. Comey. Well, there are, as I said, two divisions in the 
FBI's Counterterrorism Division. One focuses on the domestic 
terrorist threat, and the other focuses on the international, 
including its manifestations inside the country.
    Then they talk to each other a lot. I have gotten briefings 
from them jointly, because they worry about whether there is 
any kind of crossover.
    But we think about them using the same kind of intelligence 
resources. We apply the same tools to understand presence on 
social media. So we are addressing both as the serious threats 
that they are.
    Mrs. Watson Coleman. Are we collecting information on the 
type of violence that occurs, like that occurred at Mother 
Bethel Church and around the country? Are we collecting that 
data and putting that into a database and sharing that so we 
have an understanding of those types of violent extremists?
    Mr. Comey. Yes.
    Mrs. Watson Coleman. Thank you.
    Mr. Johnson and Mr. Rasmussen, do you care to comment on 
that at all?
    Secretary Johnson. I don't think there is anything I can 
add to what Jim said.
    Mrs. Watson Coleman. Okay.
    Mr. Rasmussen. I agree. Actually, my mission area actually 
leaves me outside of the domestic terrorism, except for 
analytical purpose.
    Mrs. Watson Coleman. Uh-huh.
    My last question is a really, really quick one. I wasn't 
here--and I don't think you either were here--but do we have 
knowledge on whether or not we have had the same kind of angst 
and anxiety when there was resettlement from the Iraqi 
refugees? Do we find that that angst has been addressed? Have 
we found learned lessons and done things differently? Thank 
you.
    Thank you, Mr. Chair.
    Secretary Johnson. The short answer is, yes, we have. There 
have been lessons learned from the Iraqi refugee experience 
which I believe have, and I think with the FBI, improved the 
process.
    Mrs. Watson Coleman. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Mr. Clawson.
    Mr. Clawson. Thank you, Chairman, for your leadership here 
today, as always.
    Appreciate all three of you all coming today and what you 
do for our country and the sacrifice you make, because it is 
not small. So I appreciate that.
    On a personal level, I get tired of the bad trade deals 
that our country makes. I get tired of our trading partners 
taking us to the cleaners. I get tired of good-paying American 
manufacturing jobs going overseas. Like this morning, if I am 
the UAW, I am not happy with the Chinese currency and their 
export subsidies. If I am Harley-Davidson, I am probably not 
happy with where the yen is today, as we see our American 
manufacturing infrastructure get decimated. Pretty soon, we are 
just not going to make anything anymore. What is wrong--why not 
protect the American worker a little bit?
    On top of that, the Chinese hack us. Wait a minute. 
Billions of dollars every month go to the Chinese in a trade 
deficit. They hack our companies, and they hack our Government. 
We just keep on trading.
    Now, as I understand it, Secretary Johnson, you said time 
will tell whether what we have done will keep them from hacking 
in the future. I say, why don't we protect the American worker, 
the American company, American unions, the UAW, and our 
infrastructure at the same time? Because if we put our markets 
on the table and said, ``Any more hacking, you lose access to 
our retail markets,'' that would go away immediately, because 
they depend on us to live.
    So, while I watch our manufacturing sector get decimated 
and these folks hacking us, you are there with the 
administration. I just wonder why we don't use the obvious 
leverage that we have. It is obvious. It makes me upset because 
I see so many of my friends and people I grew up with lose 
good-paying American jobs.
    You say only time will tell whether the Chinese are going 
to obey us or not or cooperate or not, while we open up our 
markets. Am I missing something on my analysis of this 
situation, Secretary?
    Secretary Johnson. In response to the cyber attacks on our 
Government and on the private sector, there are a number of 
things, seen and unseen, that we have done and that we are 
considering.
    What I was referring to--what I am referring to when I said 
time will tell, when the president of China was here and in the 
run-up to his visit, the Chinese Government agreed that 
economic espionage and theft of commercial information for 
commercial purposes was wrong and was a crime. They agreed to 
that in writing. Time will tell whether they will live up to 
that agreement. But it was significant, in the sense that they 
publicly, out of the mouth of their President, committed to 
that. But time will tell whether----
    Mr. Clawson. Have we ever talked, has the leadership of our 
country, of using the obvious market leverage that we have--as 
almost a third of the global GDP and the source of economic 
growth for the whole world, do we ever talk about using that 
leverage to get not only fair trade deals but keep them from 
robbing our IP and keep them from hacking?
    I mean, we could stop it next month. Just shut down the 
retail markets to cheaters, and let the American worker catch a 
break for once, all at the same time.
    Secretary Johnson. I would have to refer you to other 
agencies of our Government about that.
    Mr. Clawson. But, look, you are part of the leadership 
structure. Excuse me, but you are on the board of directors, 
you are in the staff meetings, you know, and part of this 
touches you. I think if you were back in the private sector at 
a board of directors meeting, that answer might not be 
acceptable.
    I am asking, does the senior leadership of our country, as 
we get taken to the cleaners on trade and on hacking and on IP, 
has anybody thought about using our markets as leverage? Do you 
all talk about that?
    Secretary Johnson. I suspect the answer is yes----
    Mr. Clawson. Well, then I would like to see a little bit.
    Secretary Johnson [continuing]. But I, again, refer you to 
other agencies of our Government----
    Mr. Clawson. Come on now.
    Secretary Johnson [continuing]. That can give you an answer 
to that question.
    Mr. Clawson. You know, the American worker doesn't want 
referring to other agencies. Our folks that get their 
technology stolen don't want to get referred to other agencies. 
They want leadership. We are getting taken to the cleaners on 
four different fronts, and we don't want to get referred to an 
outside study. We want leadership for American jobs and 
American technology. I don't think that is too much to ask.
    You are part of the team. Help our companies and help our 
unions and our workers get a fair shake.
    I yield back.
    Chairman McCaul. The Chair recognizes Ms. Jackson Lee.
    Ms. Jackson Lee. Good morning. I thank the Chairman very 
much and the Ranking Member for these important hearings on 
protecting the American people.
    I want to pursue a line of questioning that sort-of follows 
the opening statements that you gentlemen have made.
    I take from the director of the National Counterterrorism 
Center his sentence that said, ``The array of extremist 
terrorist actors around the globe is broader, wider, and deeper 
than it has been at any time since 9/11, and the threat 
landscape is less predictable.'' I think that is an important 
sentence that has been really crafted and reinforced by the 
testimony and the leadership of all three of you. I appreciate 
your service very much.
    I have introduced the No Fly for Foreign Terrorists. I 
would like to pursue, and starting with Director Comey, to 
reinforce the seriousness with which we should take, even 
though there is a lot of work, of individuals leaving the 
United States and potentially coming back to the United States, 
having gone to be part of the caliphate or ISIL, and to come 
back to the United States.
    Can you frame again how extensive that threat is?
    Mr. Comey. Well, the returning terrorist fighter threat is 
what I understand you to be asking about--is one that we are 
watching very closely today. We see the logic of it telling us 
that is going to be a problem for the next 5-years-plus. 
Because not every terrorist is going to get killed on the 
battlefield in Syria or Iraq, so, inevitably, there will be a 
terrorist diaspora out of the so-called caliphate to Western 
Europe or to the United States.
    So it is a threat that all three of us and the people we 
represent think about every day and also think about how it is 
going to manifest down the road.
    Ms. Jackson Lee. Do you maintain a statement that you made 
a couple of weeks ago, that there is a terrorist cell in 
almost--I think you said almost 50 or all 50 States that the 
FBI is aware of?
    Mr. Comey. In all 50 States, we have open terrorism 
investigations related to a number of dimensions of the threat. 
But in all 50 States, we have ISIL radicalization cases under 
investigation.
    Ms. Jackson Lee. I understood you also to be a supporter of 
the concept of collecting data. I serve on another committee 
dealing with crime and terrorism and investigations. My 
understanding is that you believe that we should be in the 
business of ensuring the data is collected sufficient for 
information on how to act on some of these issues of terrorism 
in particular.
    Mr. Comey. I do. I am a big supporter of the rule of law 
and using it to collect the information that will help us keep 
people safe.
    Ms. Jackson Lee. I am very glad that you said that. I would 
like to add into the--when I say that, the rule of law. Thank 
you. Because I think that is an important point that people are 
concerned about.
    But I would like to put into the record the No Fly for 
Foreign Fighters. I ask unanimous consent, Mr. Chairman.
    Chairman McCaul. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information has been retained in committee files. H.R. 48, 
114th Congress, the ``No Fly for Foreign Fighters Act'' is available at 
http://www.congress.gov/bill/114th-Congress/house-bill/48.
---------------------------------------------------------------------------
    Ms. Jackson Lee. Thank you very much.
    To the Secretary, let me first of all indicate that we are 
certainly concerned about the hacking incident. I realize that 
it is under investigation. I would ask this committee that we 
would have an opportunity for a Classified briefing. I, 
frankly, apologize for you, a public servant, to have had that 
issue occur.
    But let me move forward to this issue of the power grid and 
cybersecurity, which I believe you have indicated that we need 
more legislation. You also indicated that we should get rid of 
sequester. Let me say that I support you, and many of us do. It 
is very hard to function.
    But I also would like to hear your comment about the power 
grid of the United States and the work that the Homeland 
Security Department is doing, the framework it is doing. I 
would like to commend you to some legislation that I am going 
to offer into the record regarding focusing specifically on the 
power grids of the United States.
    Would you just respond to that?
    I would also like the director of counterterrorism to, as 
well, answer that and follow up by answering a question 
regarding the handle that we have on Syrian refugees that may 
be coming into the United States.
    I want to thank the Secretary for coming to my district and 
having a very productive meeting with Syrian Americans, Syrians 
in Houston who are open and welcoming those who may have to 
come out of persecution.
    Secretary.
    Secretary Johnson. With regard to cybersecurity, the two 
most significant things that we are hoping and need from 
Congress are provisions in law to encourage the private sector 
to share information with my department, cyber threat indicator 
information with my department. Sharing information is vital to 
our homeland security efforts for the private sector and for 
the Government sector.
    The other thing that is in pending legislation in now the 
House and Senate is something that explicitly authorizes the 
system we have for detecting, monitoring, and blocking unwanted 
intrusions, what is currently our EINSTEIN system.
    So those are two things in pending legislation that I think 
would be extremely helpful to our overall cybersecurity 
efforts.
    Ms. Jackson Lee. Do you believe that--first of all, the 
idea of the cybersecurity issue is that a lot of the 
infrastructure is in the private sector. Is there enough 
collaboration with the private sector? When we think of power, 
we also think of water and other elements that serve the 
public. Is there enough of an element of collaboration to be 
able to put up that firewall protecting a potential cyber 
threat or cyberterrorism?
    Secretary Johnson. There is not enough, and so we need to 
encourage more.
    Ms. Jackson Lee. Thank you.
    Mr. Rasmussen, would you answer the question?
    Mr. Rasmussen. To your question, ma'am, on the degree to 
which terrorist organizations are interested in developing a 
cyber capability, they absolutely are. It is clearly a growth 
industry as far as terrorist organizations are concerned, and 
particularly ISIL.
    Thus far, the capability seems to be more evident at, I 
would say, the low end of the spectrum. I don't mean ``low'' in 
terms of minimizing, but, thus far, the kind of capability we 
have seen largely shows up in terms of pushing out people's 
personal information in a public way, which is potentially very 
destructive.
    Their interest in attacking in a cyber way our electrical 
power grid or other forms of critical infrastructure we have, 
thus far we see that as more aspirational, not something where 
we see capability actually existing. But believe me, it is 
something we are very, very carefully watching, because it is a 
way for a terrorist group to try to achieve wide-spread impact.
    Ms. Jackson Lee. Well, as I ask the Chairman if I could put 
these items into the record, let me just say that we know that 
a number of terrorist incidents were aspirational 1, 2 years 
ago. I can't emphasize enough my concern on the cyber attack of 
the Nation's power grid. I don't think we are putting any extra 
information out. I hope that all of you will focus very 
pointedly on that as a major concern.
    Mr. Chairman, I would like to--and thank you very much for 
your testimony--yield back, but I would like to ask the 
Chairman to allow me to put into the record an article from The 
Hill regarding ``Pushing to Boost Power Grid Defenses Against 
ISIS'' and also a CNN statement regarding ``ISIL Is Beginning 
To Perpetrate Cyber Attacks.'' I ask unanimous consent for the 
record.
    Chairman McCaul. Without objection.
    [The information follows:]
      Article Submitted For the Record by Hon. Sheila Jackson Lee
                       October 19, 2015, The Hill
      jackson lee pushes to boost power-grid defenses against isis
By Katie Bo Williams--10/19/15 09:38 AM EDT
    Rep. Sheila Jackson Lee (D-Texas) on Friday called for action on a 
bill bolstering power-grid cybersecurity after a Department of Homeland 
Security (DHS) official said the Islamic State in Iraq and Syria (ISIS) 
is trying to hack American electrical power companies.
    ``No solace should be taken in the fact that ISIS has been 
unsuccessful,'' Jackson Lee said. ``ISIS need only be successful once 
to have catastrophic impact on regional electricity supply.''
    Caitlin Durkovich, assistant secretary for infrastructure 
protection at DHS, told energy firm executives at an industry 
conference in Philadelphia last week that ISIS ``is beginning to 
perpetrate cyberattacks.''
    Law enforcement officials speaking at the same event indicated that 
the group's efforts have so far been unsuccessful, thanks in part to a 
Balkanized power grid and an unsophisticated approach.
    ``Strong intent. Thankfully, low capability,'' said John Riggi, a 
section chief at the FBI's cyber division. ``But the concern is that 
they'll buy that capability.''
    Jackson Lee, a senior member of the House Homeland Security 
Committee and ranking member on the Judiciary Committee's Subcommittee 
on Crime, Terrorism, Homeland Security, and Investigations, in January 
introduced the Terrorism Prevention and Critical Infrastructure 
Protection Act.
    The bill directs DHS to work with critical infrastructure companies 
to boost their cyber defenses against terrorist attacks, part of a 
swath of legislation that has attempted to codify the agency's 
responsibilities in that area.
    Late last year, the Senate passed its version of the House-passed 
National Cybersecurity and Critical Infrastructure Protection Act.
    The bill officially authorized an already-existing cybersecurity 
information-sharing hub at DHS.
    Although a deadly attack on power plants or the electric grid--a 
``cyber Pearl Harbor''--is still only a hypothetical, experts warn 
critical infrastructure sites are increasingly at risk, as electric 
grids get smarter.
    National Security Agency Director Michael Rogers told lawmakers 
last fall that China and ``one or two'' other countries would be able 
to shut down portions of critical U.S. infrastructure with a cyber 
attack. Researchers suspect Iran to be on that list.
    In August, DHS announced the creation of a new subcommittee 
dedicated to preventing attacks on the power grid.
    The new panel is tasked with identifying how well the department's 
lifeline sectors are prepared to meet threats and recover from a 
significant cyber event.
    The committee will also provide recommendations for a more unified 
approach to state and local cybersecurity.
    ``There is a great deal that has been done and is being done now to 
secure our networks,'' Homeland Security Secretary Jeh Johnson told the 
House Judiciary Committee in July. ``There is more to do.''
                                 ______
                                 
       Story Submitted For the Record by Hon. Sheila Jackson Lee
              CNN: ISIS is attacking the U.S. energy grid
October 15, 2015
    The Islamic State is trying to hack American electrical power 
companies--but they are terrible at it.
    U.S. law enforcement officials revealed the hack attempts on 
Wednesday at a conference of American energy firms who were meeting 
about national security concerns.
    ``ISIL is beginning to perpetrate cyber attacks,'' Caitlin 
Durkovich, assistant secretary for infrastructure protection at the 
Department of Homeland Security, told company executives.
    Investigators would not reveal any details to CNNMoney--or cite 
evidence of specific incidents.
    But they did say the attacks by the Islamic State have been 
unsuccessful. Terrorists are not currently using the most sophisticated 
hacking tools to break into computer systems and turn off or blow up 
machines.
    ``Strong intent. Thankfully, low capability,'' said John Riggi, a 
section chief at the FBI's cyber division. ``But the concern is that 
they'll buy that capability.''
    Indeed, hacking software is up for sale in black markets on-line. 
That's often how mafias acquire the cyber weapons they use to break 
into companies and steal giant databases of information they later sell 
to fraudsters.
    The FBI now worries that the Islamic State or its supporters will 
buy malicious software that can sneak into computers and destroy 
electronics. An attack on power companies could disrupt the flow of 
energy to U.S. homes and businesses.
    And it's not just Islamic extremists. There's an equal threat from 
domestic terrorists and hate groups, according to Mark Lemery. He's the 
``critical infrastructure protection coordinator'' who helps coordinate 
defenses against attacks in Utah. But again, the worries are tempered.
    ``They'd love to do damage, but they just don't have the 
capability,'' Lemery said. ``Terrorists have not gotten to the point 
where they're causing physical damage.''
    Officials made clear that the greater concern is attacks from other 
countries. Riggi said malware found last year on industrial control 
systems at energy companies--including pumps and engines--were traced 
to the Russian government.
    Besides, the likelihood of a hack taking out the entire U.S. energy 
grid--or even a section of it--is extremely low. The grid isn't as 
uniform and connected as people might believe. Currently, it's a 
chaotic patchwork of ``grids,'' each with different types of machines 
and software that don't smoothly coordinate or communicate.
    That jumble actually works to the nation's advantage, energy 
company executives said. It would take a large, expensive team of 
highly technical spies to understand the layout of computers and 
machines at an energy company. Then it takes stellar hackers to sneak 
in. And even if they do manage to flip a switch--which companies 
maintain has never happened here in the United States--the attack might 
only take out electricity fed to a tiny portion of land, maybe a 
section of a city. An entirely different type of attack would be needed 
to carry that over to the next power plant.
    Experts attending GridSecCon, held by the North American Electric 
Reliability Corporation, seemed cautious but hopeful.
    When energy industry representatives asked Riggi how the FBI knows 
who's hacking--whether it's a government or independent hacking group--
he said American spies that are monitoring computer networks are quick 
to share information with law enforcement.
    ``We've had pretty good success actually,'' Riggi said. ``Since the 
FBI is an intelligence agency, we rely on the help of CIA and NSA. We 
compare information with the NSA.''

    Ms. Jackson Lee. And to put into the record H.R. 85, I ask 
unanimous consent.
    Chairman McCaul. Without objection.**
---------------------------------------------------------------------------
    ** The information has been retained in committee files. H.R. 85, 
114th Congress, the ``Terrorism Prevention and Critical Infrastructure 
Protection Act of 2015'' is available at http://www.congress.gov/bill/
114th-Congress/house-bill/85.
---------------------------------------------------------------------------
    Ms. Jackson Lee. And ask to put into the record a letter to 
the President on encryption signed by over 100 individuals who 
are very concerned about any proposals that we don't oversee--
even though I want to give tools appropriately--oversee in the 
right way to protect both the American people and follow the 
rule of law. I ask unanimous consent.
    Chairman McCaul. Without objection.
    [The information follows:]
       Letter Submitted For the Record by Hon. Sheila Jackson Lee
                                      May 19, 2015.
President Barack Obama,
The White House, 1600 Pennsylvania Avenue NW, Washington, DC 20500.

    Dear President Obama: We the undersigned represent a wide variety 
of civil society organizations dedicated to protecting civil liberties, 
human rights, and innovation on-line, as well as technology companies, 
trade associations, and security and policy experts. We are writing 
today to respond to recent statements by some Administration officials 
regarding the deployment of strong encryption technology in the devices 
and services offered by the U.S. technology industry. Those officials 
have suggested that American companies should refrain from providing 
any products that are secured by encryption, unless those companies 
also weaken their security in order to maintain the capability to 
decrypt their customers' data at the government's request. Some 
officials have gone so far as to suggest that Congress should act to 
ban such products or mandate such capabilities.
    We urge you to reject any proposal that U.S. companies deliberately 
weaken the security of their products. We request that the White House 
instead focus on developing policies that will promote rather than 
undermine the wide adoption of strong encryption technology. Such 
policies will in turn help to promote and protect cybersecurity, 
economic growth, and human rights, both here and abroad.
    Strong encryption is the cornerstone of the modern information 
economy's security. Encryption protects billions of people every day 
against countless threats--be they street criminals trying to steal our 
phones and laptops, computer criminals trying to defraud us, corporate 
spies trying to obtain our companies' most valuable trade secrets, 
repressive governments trying to stifle dissent, or foreign 
intelligence agencies trying to compromise our and our allies' most 
sensitive national security secrets.
    Encryption thereby protects us from innumerable criminal and 
national security threats. This protection would be undermined by the 
mandatory insertion of any new vulnerabilities into encrypted devices 
and services. Whether you call them ``front doors'' or ``back doors'', 
introducing intentional vulnerabilities into secure products for the 
government's use will make those products less secure against other 
attackers. Every computer security expert that has spoken publicly on 
this issue agrees on this point, including the government's own 
experts.
    In addition to undermining cybersecurity, any kind of vulnerability 
mandate would also seriously undermine our economic security. U.S. 
companies are already struggling to maintain international trust in the 
wake of revelations about the National Security Agency's surveillance 
programs. Introducing mandatory vulnerabilities into American products 
would further push many customers--be they domestic or international, 
individual or institutional--to turn away from those compromised 
products and services. Instead, they--and many of the bad actors whose 
behavior the government is hoping to impact--will simply rely on 
encrypted offerings from foreign providers, or avail themselves of the 
wide range of free and open source encryption products that are easily 
available on-line.
    More than undermining every American's cybersecurity and the 
nation's economic security, introducing new vulnerabilities to weaken 
encrypted products in the U.S. would also undermine human rights and 
information security around the globe. If American companies maintain 
the ability to unlock their customers' data and devices on request, 
governments other than the United States will demand the same access, 
and will also be emboldened to demand the same capability from their 
native companies. The U.S. government, having made the same demands, 
will have little room to object. The result will be an information 
environment riddled with vulnerabilities that could be exploited by 
even the most repressive or dangerous regimes. That's not a future that 
the American people or the people of the world deserve.
    The Administration faces a critical choice: will it adopt policies 
that foster a global digital ecosystem that is more secure, or less? 
That choice may well define the future of the Internet in the 21st 
century. When faced with a similar choice at the end of the last 
century, during the so-called ``Crypto Wars'', U.S. policymakers 
weighed many of the same concerns and arguments that have been raised 
in the current debate, and correctly concluded that the serious costs 
of undermining encryption technology outweighed the purported benefits. 
So too did the President's Review Group on Intelligence and 
Communications Technologies, who unanimously recommended in their 
December 2013 report that the U.S. Government should ``(1) fully 
support and not undermine efforts to create encryption standards; (2) 
not in any way subvert, undermine, weaken, or make vulnerable generally 
available commercial software; and (3) increase the use of encryption 
and urge U.S. companies to do so, in order to better protect data in 
transit, at rest, in the cloud, and in other storage.''
    We urge the Administration to follow the Review Group's 
recommendation and adopt policies that promote rather than undermine 
the widespread adoption of strong encryption technologies, and by doing 
so help lead the way to a more secure, prosperous, and rights-
respecting future for America and for the world.
            Thank you,
Civil Society Organizations
Access
Advocacy for Principled Action in Government
American-Arab Anti-Discrimination Committee (ADC)
American Civil Liberties Union
American Library Association
Benetech
Bill of Rights Defense Committee
Center for Democracy & Technology Committee to Protect Journalists
The Constitution Project
Constitutional Alliance
Council on American-Islamic Relations
Demand Progress
Defending Dissent Foundation
DownsizeDC.org, Inc.
Electronic Frontier Foundation
Electronic Privacy Information Center (EPIC)
Engine
Fight for the Future
Free Press
Free Software Foundation
Freedom of the Press Foundation
GNOME Foundation
Human Rights Watch
The Media Consortium
New America's Open Technology Institute
Niskanen Center
Open Source Initiative
PEN American Center
Project Censored/Media Freedom Foundation
R Street
Reporters Committee for Freedom of the Press
TechFreedom
The Tor Project
U.S. Public Policy Council of Association for Computing Machinery
World Privacy Forum
X-Lab
Companies & Trade Associations
ACT/The App Association
Adobe
Apple Inc.
The Application Developers Alliance
Automattic
Blockstream
Cisco Systems
Coinbase
Cloud Linux Inc.
CloudFlare
Computer & Communications Industry Association
Consumer Electronics Association (CEA)
Context Relevant
The Copia Institute
CREDO Mobile
Data Foundry
Dropbox
Evernote
Facebook
Gandi.net
Golden Frog
Google
HackerOne
Hackers/Founders
Hewlett-Packard Company
Internet Archive
The Internet Association
Internet Infrastructure Coalition (i2Coalition)
Level 3 Communications
LinkedIn
Microsoft
Misk.com
Mozilla
Open Spectrum Inc.
Rackspace
Rapid7
Reform Government Surveillance
Sonic
ServInt
Silent Circle
Slack Technologies, Inc.
Symantec
Tech Assets Inc.
TechNet
Tumblr
Twitter
Wikimedia Foundation
Yahoo
Security and Policy Experts*
---------------------------------------------------------------------------
    * Affiliations provided only for identification purposes.
---------------------------------------------------------------------------
Hal Abelson, Professor of Computer Science and Engineering, 
Massachusetts Institute of Technology
Ben Adida, VP Engineering, Clever Inc.
Jacob Appelbaum, The Tor Project
Adam Back, PhD, Inventor, HashCash, Co-Founder & President, Blockstream
Alvaro Bedoya, Executive Director, Center on Privacy & Technology at 
Georgetown Law
Brian Behlendorf, Open Source software pioneer
Steven M. Bellovin, Percy K. and Vida L.W. Hudson Professor of Computer 
Science, Columbia University
Matt Bishop, Professor of Computer Science, University of California at 
Davis
Matthew Blaze, Director, Distributed Systems Laboratory, University of 
Pennsylvania
Dan Boneh, Professor of Computer Science and Electrical Engineering at 
Stanford University
Eric Burger, Research Professor of Computer Science and Director, 
Security and Software Engineering Research Center (Georgetown), 
Georgetown University
Jon Callas, CTO, Silent Circle
L. Jean Camp, Professor of Informatics, Indiana University
Richard A. Clarke, Chairman, Good Harbor Security Risk Management
Gabriella Coleman, Wolfe Chair in Scientific and Technological 
Literacy, McGill University
Whitfield Diffie, Dr. Sc. Techn., Center for International Security and 
Cooperation, Stanford University
David Evans, Professor of Computer Science, University of Virginia
David J. Farber, Alfred Filter Moore Professor Emeritus of 
Telecommunications, University of Pennsylvania
Dan Farmer, Security Consultant and Researcher, Vicious Fishes 
Consulting
Rik Farrow, Internet Security
Joan Feigenbaum, Department Chair and Grace Murray Hopper Professor of 
Computer Science Yale University
Richard Forno, Jr. Affiliate Scholar, Stanford Law School Center for 
Internet and Society
Alex Fowler, Co-Founder & SVP, Blockstream
Jim Fruchterman, Founder and CEO, Benetech
Daniel Kahn Gillmor, ACLU Staff Technologist
Robert Graham, creator of BlackICE, sidejacking, and masscan
Jennifer Stisa Granick, Director of Civil Liberties, Stanford Center 
for Internet and Society
Matthew D. Green, Assistant Research Professor, Johns Hopkins 
University Information Security Institute
Robert Hansen, Vice President of Labs at WhiteHat Security
Lance Hoffman, Director, George Washington University, Cyber Security 
Policy and Research Institute
Marcia Hofmann, Law Office of Marcia Hofmann
Nadim Kobeissi, PhD Researcher, INRIA
Joseph Lorenzo Hall, Chief Technologist, Center for Democracy & 
Technology
Nadia Heninger, Assistant Professor, Department of Computer and 
Information Science, University of Pennsylvania
David S. Isenberg, Producer, Freedom 2 Connect
Douglas W. Jones, Department of Computer Science, University of Iowa
Susan Landau, Worcester Polytechnic Institute
Gordon Fyodor Lyon, Founder, Nmap Security Scanner Project
Aaron Massey, Postdoctoral Fellow, School of Interactive Computing, 
Georgia Institute of Technology
Jonathan Mayer, Graduate Fellow, Stanford University
Jeff Moss, Founder, DEF CON and Black Hat security conferences
Peter G. Neumann, Senior Principal Scientist, SRI International 
Computer Science Lab, Moderator of the ACM Risks Forum
Ken Pfeil, former CISO at Pioneer Investments
Ronald L. Rivest, Vannevar Bush Professor, Massachusetts Institute of 
Technology
Paul Rosenzweig, Professorial Lecturer in Law, George Washington 
University School of Law
Jeffrey I. Schiller, Area Director for Security, Internet Engineering 
Task Force (1994-2003), Massachusetts Institute of Technology
Bruce Schneier, Fellow, Berkman Center for Internet and Society, 
Harvard Law School
Micah Sherr, Assistant Professor of Computer Science, Georgetown 
University
Adam Shostack, author, ``Threat Modeling: Designing for Security''
Eugene H. Spafford, CERIAS Executive Director, Purdue University
Alex Stamos, CISO, Yahoo
Geoffrey R. Stone, Edward H. Levi Distinguished Service Professor of 
Law, The University of Chicago
Peter Swire, Huang Professor of Law and Ethics, Scheller College of 
Business, Georgia Institute of Technology
C. Thomas (Space Rogue), Security Strategist, Tenable Network Security
Dan S. Wallach, Professor, Department of Computer Science and Rice 
Scholar, Baker Institute of Public Policy
Nicholas Weaver, Researcher, International Computer Science Institute
Chris Wysopal, Co-Founder and CTO, Veracode, Inc.
Philip Zimmermann, Chief Scientist and Co-Founder, Silent Circle

    Ms. Jackson Lee. I have two----
    Chairman McCaul. How many more do you have?
    Ms. Jackson Lee. Just two more.
    Chairman McCaul. Okay.
    Ms. Jackson Lee. A United States of America report on 
refugee resettlement and also ``Analysis by Top Computer 
Experts on Encryption.''*** I ask unanimous consent.
---------------------------------------------------------------------------
    *** The information has been retained in committee files, entitled 
``Computer Science and Artificial Intelligence Laboratory Technical 
Report'', and is available at http://hdl.handle.net/1721.1/97690.
---------------------------------------------------------------------------
    Chairman McCaul. Without objection.
    [The information follows:]
        Submitted For the Record by Honorable Sheila Jackson Lee
             UNHCR Resettlement Handbook--Country Chapters
           COUNTRY CHAPTER USA: THE UNITED STATES OF AMERICA
By The Government of the United States of America, July 2011, revised 
        October 2014

------------------------------------------------------------------------
    UNITED STATES OVERVIEW
------------------------------------------------------------------------
Resettlement programme since:   Selection Missions:  Dossier
 1975.                           Yes.                 Submissions: No
Resettlement Admission          2013-2014..........  2014-2015
 Targets:                       1 Oct 2013-30 Sept   1 Oct 2014-30 Sept
                                 2014.                2015
Admission targets for UNHCR     52,300.............  56,000
 submissions:
Target for non-UNHCR            17,700.............  14,000
 submissions:
                               -----------------------------------------
      Total Resettlement        70,000.............  70,000
       Admission Target:
------------------------------------------------------------------------


              REGIONAL ALLOCATIONS (1 OCTOBER-30 SEPTEMBER)
------------------------------------------------------------------------
                                    2013-2014             2014-2015
           Region            -------------------------------------------
                                UNHCR    Non-UNHCR    UNHCR    Non-UNHCR
------------------------------------------------------------------------
Africa......................     15,000          0     16,500        500
East Asia...................     14,000          0     12,800        200
Europe/Central Asia.........          0      1,000          0      1,000
Americas....................        300      4,700        700      3,300
Near East/South Asia........     21,000     12,000     24,000      9,000
Allocated from Reserve......      2,000          0      2,000          0
                             -------------------------------------------
      Total.................     52,300     17,700     56,000     14,000
------------------------------------------------------------------------


                           SUB-QUOTA FEATURES
------------------------------------------------------------------------
                                             Description, Additional
  Designated Sub-Quota/Acceptance For                Comments
------------------------------------------------------------------------
Emergency resettlement procedures......  No specific quota. Very limited
                                          capacity to process applicants
                                          from referral to arrival in
                                          approx. 16 weeks.
Medical cases..........................  No limits on submissions.
Women-at-risk cases....................  No specific quota.
Unaccompanied children.................  Accepted with Best Interests
                                          Determination.
Family Reunion (within programme)......  P-3 family reunification
                                          program re-launched Oct 2012,
                                          DNA evidence of parent-child
                                          relationships required, costs
                                          reimbursed if relationship
                                          proven. Following to join
                                          (visa 93) beneficiaries are
                                          also counted against the
                                          refugee ceilings.
------------------------------------------------------------------------

                         1. resettlement policy
    The United States has a long tradition of granting refuge to those 
fleeing persecution. Since the Second World War, more refugees have 
found permanent homes in the United States than in any other country. 
Admissions of refugees of special humanitarian concern to the United 
States, as well as admission of those for the purpose of family 
reunification are important tenets of the U.S. refugee resettlement 
programme.
    At the Federal level, the Bureau of Population, Refugees, and 
Migration (PRM) of the Department of State administers the U.S. Refugee 
Admissions Programme in conjunction with U.S. Citizenship and 
Immigration Services (USCIS) of the Department of Homeland Security and 
the Office of Refugee Resettlement (ORR) of the Department of Health 
and Human Services (HHS). Non-governmental organizations play a major 
role in domestic resettlement activities and, along with the 
International Organization for Migration (IOM), in overseas processing.
  2. criteria for recognition of refugee status eligibility and asylum
    A person must meet the U.S. definition of a refugee found in 
Section 101(a)(42) of the Immigration and Nationality Act (INA), which 
closely follows the definition in the 1951 UN Convention. The INA also 
defines as refugees, under certain circumstances specified by the 
President, certain persons who are within their country of nationality, 
or if they do not have a nationality, the country in which they are 
habitually residing (See Annex B).
                      3. criteria for resettlement
    To qualify for refugee resettlement to the United States, refugees 
must:
    (1) Be among those refugees determined by the President to be of 
        special humanitarian concern to the United States;
    (2) Meet the definition of a refugee pursuant to Section 101(a)(42) 
        of the INA (see below);
    (3) Not be firmly resettled in any third country; and
    (4) Be otherwise admissible under U.S. law.
Section 101(a)(42) of the Immigration and Nationality Act (INA)
    The term ``refugee'' means:
    (A) Any person who is outside any country of such person's 
        nationality or, in the case of a person having no nationality, 
        is outside any country in which such person last habitually 
        resided, and who is unable or unwilling to return to, and is 
        unable or unwilling to avail himself or herself of the 
        protection of, that country because of persecution or a well-
        founded fear of persecution on account of race, religion, 
        nationality, membership in a particular social group, or 
        political opinion, or
    (B) in such circumstances as the President after appropriate 
        consultation (as defined in Section 207(e) of this Act) may 
        specify, any person who is within the country of such person's 
        nationality or, in the case of a person having no nationality, 
        within the country in which such person is habitually residing, 
        and who is persecuted or who has a well-founded fear of 
        persecution on account of race, religion, nationality, 
        membership in a particular social group, or political opinion.
    The term ``refugee'' does not include any person who ordered, 
incited, assisted, or otherwise participated in the persecution of any 
person on account of race, religion, nationality, membership in a 
particular social group, or political opinion.
    For purposes of determinations under this Act, a person who has 
been forced to abort a pregnancy or to undergo involuntary 
sterilization, or who has been persecuted for failure or refusal to 
undergo such a procedure or for other resistance to a coercive 
population control programme, shall be deemed to have been persecuted 
on account of political opinion, and a person who has a well-founded 
fear that he or she will be forced to undergo such a procedure or 
subject to persecution for such failure, refusal, or resistance shall 
be deemed to have a well-founded fear of persecution on account of 
political opinion.
           4. resettlement allocations/processing priorities
    The administration annually consults with the Congress on the U.S. 
refugee admissions programme. These consultations provide an 
opportunity for Congress and Administration representatives: the 
Department of State, the Department of Homeland Security, and the 
Department of Health and Human Services; to discuss the international 
and domestic implications of U.S. refugee policy. These consultations 
are the culmination of a many-faceted, consultative process that 
includes discussions with Congressional staff, representatives of State 
and local governments, public interest groups, international and non-
governmental organizations such as the Refugee Council USA (RCUSA) and 
others concerned with refugees. During the Congressional consultations, 
the President's proposed refugee admissions programme for the coming 
fiscal year is presented. This proposal includes information on refugee 
admissions levels, groups of refugees of special humanitarian interest 
to the United States, and processing priorities.
    The processing priorities serve as guidelines to determine 
eligibility for access to the U.S. Government (USG) resettlement 
programme and as a tool to manage the refugee admissions process within 
the established annual regional ceiling.
    The following priorities are in effect for Fiscal Year 2015 (1 
October 2014-30 September 2015):
Priority One
    UNHCR, U.S. Embassy, or specially-trained non-governmental 
organization identified cases: persons facing compelling security 
concerns in countries of first asylum; persons in need of legal 
protection because of the danger of refoulement; those in danger due to 
threats of armed attack in an area where they are located; or persons 
who have experienced recent persecution because of their political, 
religious, or human rights activities (prisoners of conscience); women-
at-risk; victims of torture or violence, physically or mentally 
disabled persons; persons in urgent need of medical treatment not 
available in the first asylum country; and persons for whom other 
durable solutions are not feasible and whose status in the place of 
asylum does not present a satisfactory long-term solution. As with all 
other priorities, Priority One referrals must still establish past 
persecution or a credible fear of future persecution from the country 
from which they fled. All nationalities are eligible for processing 
under Priority One.
Priority Two (P-2)
    Specific groups of special concern (within certain nationalities) 
as identified by the Department of State in consultation with NGOs, 
UNHCR, DHS, and other area experts as well as some in-country programs. 
Only those members of the specifically identified groups are eligible 
for Priority Two processing. Each group will be selected based on its 
individual circumstances.
    In-country Priority Two programs include:
            Former Soviet Union
    This Priority Two designation applies to Jews, Evangelical 
        Christians, and Ukrainian Catholic and Orthodox religious 
        activists identified in the Lautenberg Amendment, Public Law 
        No. 101-167,  599D, 103 Stat. 1261 (1989), as amended 
        (``Lautenberg Amendment''), with close family in the United 
        States.
            Cuba
    Included in this Priority 2 program are human rights activists, 
        members of persecuted religious minorities, former political 
        prisoners, forced-labor conscripts (1965-68), persons deprived 
        of their professional credentials or subjected to other 
        disproportionately harsh or discriminatory treatment resulting 
        from their perceived or actual political or religious beliefs 
        or activities, and persons who have experienced or fear harm 
        because of their relationship--family or social--to someone who 
        falls under one of the preceding categories.
            Iraqis Associated With the United States
    Under various Priority 2 designations, including those set forth in 
        the Refugee Crisis in Iraq Act, employees of the U.S. 
        Government, a U.S. Government-funded contractor or grantee, and 
        U.S. media and NGOs working in Iraq, and certain family members 
        of such employees, as well as beneficiaries of approved I-130 
        (immigrant visa) petitions, are eligible for refugee processing 
        in Iraq.
            Minors in Honduras, El Salvador, and Guatemala
    Under this new P-2 program, certain lawfully present qualifying 
        relatives in the United States can request access to a refugee 
        interview for an unmarried child under 21 in his/her country of 
        origin.

    Priority Two groups outside the country of origin include:
            Ethnic Minorities and Others From Burma in Camps in 
                    Thailand
    Individuals who have fled Burma and who are registered in nine 
        refugee camps along the Thai/Burma border and who are 
        identified by UNHCR as in need of resettlement are eligible for 
        processing.
            Ethnic Minorities From Burma in Malaysia
    Ethnic minorities from Burma who are recognized by UNHCR as 
        refugees in Malaysia and identified as being in need of 
        resettlement are eligible for processing.
            Bhutanese in Nepal
    Bhutanese refugees registered by UNHCR in camps in Nepal and 
        identified as in need of resettlement are eligible for 
        processing.
            Iranian Religious Minorities
    Iranian members of certain religious minorities are eligible for 
        processing and benefit from a reduced evidentiary standard for 
        establishing a well-founded fear of persecution, pursuant to 
        the 2004 enactment of Pub. L. 108-199.
            Iraqis Associated with the United States
    Under various Priority 2 designations, including those set forth in 
        the Refugee Crisis in Iraq Act, employees of the U.S. 
        Government, a U.S. Government-funded contractor or grantee, and 
        U.S. media and NGOs working in Iraq, and certain family members 
        of such employees, as well as beneficiaries of approved I-130 
        (immigrant visa) petitions, are eligible for refugee 
        processing.
            Congolese in Rwanda
    Certain Congolese who verifiably resided in Mudende Camp, Rwanda 
        during one or both of the massacres that took place in August 
        and December of 1997 are eligible for processing.
Priority Three
    Nationals of the following countries who are spouses, unmarried 
sons and daughters under 21 years of age, and parents of persons 
admitted to the United States as refugees or granted asylum, or persons 
who are lawful permanent residents or U.S. citizens and were initially 
admitted to the United States as refugees or granted asylum:
  <bullet> Afghanistan
  <bullet> Bhutan
  <bullet> Burma
  <bullet> Burundi
  <bullet> Central African Republic
  <bullet> Chad
  <bullet> Colombia
  <bullet> Cuba
  <bullet> Democratic People's Republic of Korea (DPRK)
  <bullet> Democratic Republic of Congo (DRC)
  <bullet> El Salvador
  <bullet> Eritrea
  <bullet> Ethiopia
  <bullet> Guatemala
  <bullet> Haiti
  <bullet> Honduras
  <bullet> Iran
  <bullet> Iraq
  <bullet> Mali
  <bullet> Somalia
  <bullet> South Sudan
  <bullet> Sri Lanka
  <bullet> Sudan
  <bullet> Syria
  <bullet> Uzbekistan
Admissibility for Resettlement
    Section 212(a) of the INA lists grounds under which aliens may be 
excluded from the United States.
    Refugees may be excluded for the following reasons:
    (1) Health-related.--Some communicable diseases, physical or mental 
        disorders, and current drug abuse or addiction (Health-related 
        denials may be overcome when the problem has been successfully 
        treated, or upon waiver at the discretion of the Secretary of 
        Homeland Security).
    (2) Criminal activity.--Individuals, who have committed crimes of 
        moral turpitude, drug trafficking, multiple criminal 
        convictions, prostitution, aggravated felonies or acts 
        involving persecution or torture.
    (3) Security grounds.--Espionage, terrorist activity, membership in 
        Communist or other totalitarian parties, Nazi persecution or 
        genocide, or individuals who would present a serious security 
        threat. Refugee applicants must clear a series of biographic 
        and biometric checks prior to final approval.
    Waivers of certain grounds of inadmissibility may be available in 
some cases for humanitarian purposes, to assure family unity, or when 
it is otherwise in the public interest. Requests for waivers for 
refugees (Form I-602) should be sent to the Field Office Director of 
the overseas DHS Office with jurisdiction over the case. DHS has sole 
authority to determine whether or not to waive these ineligibilities 
for refugees.
           5. submission and processing via dossier selection
    The U.S. refugee resettlement programme does not admit refugees by 
dossier selection. All refugee applicants must be interviewed by a DHS 
officer.
         6. submissions and processing via in-country selection
    With respect to a person applying in a third country for admission 
to the United States as a refugee, an initial review is undertaken to 
evaluate cases based on the applicants' situation in temporary asylum, 
the conditions from which they have fled, U.S. National interest, and 
other humanitarian considerations. Applicants who claim persecution or 
a well-founded fear of persecution and who fall within the priorities 
established for the relevant nationality or region are presented to DHS 
for determination of eligibility for admission as a refugee under 
Section 101(a)(42) of the INA.
6.1 Case Documentation
    Applicants may submit a variety of documentation to corroborate 
their claims, such as country conditions reports; death certificates; 
baptismal certificates; prison records; arrest warrants; affidavits of 
or letters from government officials, friends or family members, and 
union, political party, or organization membership cards. Refugees are 
often unable to provide documentary evidence, however, due to the 
circumstances that give rise to flight. In such cases, testimony, if 
credible, may be enough to establish eligibility for refugee status 
without corroborating evidence. If documents are presented, they are 
reviewed by the interviewing officer for content and authenticity.
6.2 Routing of Submissions
    All refugee applicants must ultimately be interviewed by a DHS 
Officer. USG-funded Resettlement Support Centers (RSCs), previously 
known as Overseas Processing Entities (OPEs), usually managed by 
resettlement agencies or IOM, prepare cases and schedule interviews 
within their regions.
    Some processing locations have DHS officers permanently assigned 
who may adjudicate refugee applications (e.g. Rome, Nairobi, Accra, 
Vienna, Moscow, Athens, Bangkok, New Delhi, Havana, and Mexico City, 
among other locations).
    In locations that do not have a regular DHS presence, the USG and 
the RSC work together to schedule visits from DHS officers on a circuit 
ride basis. The vast majority of refugee adjudications are conducted by 
DHS officers on circuit ride, and the U.S. refugee admissions programme 
is committed to frequent circuit rides to posts where there are 
sufficient numbers of UNHCR- and Embassy-referred cases or others who 
are eligible.
    For those cases approved by DHS, the RSCs make preparation for 
onward movement to the United States by arranging medical examinations 
and a resettlement agency sponsor. IOM makes travel arrangements once 
the final clearances have been obtained.
6.3 Decision-Making Process
    Section 207 of the INA grants the Secretary of Homeland Security 
the authority to admit, at his/her discretion, any refugee who is not 
firmly resettled in a third country, who is determined to be of special 
humanitarian concern, and who is admissible to the United States.
    The authority to determine eligibility for refugee status has been 
delegated to DHS/USCIS. USCIS officers conduct non-adversarial, face-
to-face interviews of each applicant to elicit information about the 
applicant's claim for refugee status and any grounds of ineligibility. 
U.S. Customs and Border Protection (CBP) screens arriving refugees for 
admission at the port of entry.
6.4 Recourse Processing
    There is no formal procedure for appealing the denial of refugee 
status, although an applicant may file a Request for Review (RFR) of 
his case to DHS on the basis of additional evidence or information not 
available at the time of the interview.
6.5 Processing Times
    The time required to process a refugee claim varies considerably 
based on such factors as the availability of a DHS officer to 
adjudicate the claim, RSC processing capabilities, type of security 
checks required, and whether an applicant is admissible to the United 
States. A very rough estimate of the time it takes from DHS approval of 
the refugee application until departure is generally 6 to 12 months. 
Emergency cases may be expedited and have occasionally been processed 
in a very short time, depending on the circumstances
                    7. emergency cases/urgent cases
    U.S. capacity to resettle emergency cases is limited by stringent 
security clearance procedures, the regulatory requirement for a face-
to-face interview with all applicants, and enhanced protocols for 
detecting and treating tuberculosis overseas. The U.S. does not have a 
quota for emergency or urgent cases, and does not have a specific 
processing time frame for such cases, but under limited circumstances 
can process urgent cases in approximately 16 weeks.
    In most cases, the U.S. will encourage UNHCR to transport a case to 
an Emergency Transit Facility (ETF) for U.S. processing if protection-
related concerns require the individual to depart the country of asylum 
in less than 16 weeks.
                  8. special categories/special needs
    The U.S. does not have sub-quotas dedicated to specific needs 
cases, and accepts UNHCR referrals of all types of special needs cases 
without imposing a numerical cap.
                        9. medical requirements
    The Centers for Disease Control and Prevention (CDC) provides the 
Department of State with medical screening guidelines for all examining 
physicians, which outline in detail the scope of the medical 
examination for U.S.-bound refugees. The purpose of the medical 
examination is to identify applicants with health-related conditions 
that render them inadmissible to the United States.
    Medical screening is mandatory for all refugees. Medical exams are 
performed by U.S. Embassy-contracted panel physicians or by IOM. The 
costs for medical exams are borne by the USG. Costs for medical 
treatment necessary to make an already approved refugee ready for 
travel are usually paid by the USG. Medical exams are valid for 3 
months, 6 months or 1 year, depending on the location and the TB 
classification, and must be valid at the time of departure for the 
United States. Screening is generally coordinated by the RSC.
    A refugee who is determined (in accordance with regulations 
prescribed by the Secretary of Health and Human Services) to have a 
communicable disease of public health significance; a physical or 
mental disorder and behavior associated with the disorder that may 
pose, or has posed, a threat to the property, safety, or welfare of the 
alien or others; or is determined to be a drug abuser or addict, is 
excludable. As of January 4, 2010, HIV infection is no longer an 
excludable condition. A waiver for the above excludabilities is 
available and must be approved by USCIS.
    The U.S. provides pre-departure presumptive treatments in certain 
locations. In FY 2014, this includes presumptive treatment for malaria 
and parasites in some locations. Although refugees are not required to 
receive vaccinations prior to departure, the U.S. administers vaccines 
in locations where an outbreak of disease, such as measles, occurs in a 
refugee camp or other location where U.S. refugee processing is taking 
place. In 2013, the U.S. began routinely administering pre-departure 
vaccinations in certain locations. As of June 1, this included Thailand 
and Nepal. The U.S. expanded pre-departure vaccinations to Malaysia, 
Kenya, and Ethiopia, and Uganda by the end of FY 2014.
                    10. orientation (pre-departure)
    The Department of State strives to ensure that refugees who are 
accepted for admission to the United States are prepared for the 
significant life changes they will experience by providing cultural 
orientation programs prior to departure for the United States. It is 
critical that refugees arrive with a realistic view of what their new 
lives will be like, what services are available to them, and what their 
responsibilities will be.
    Resettlement Support Centers (RSCs) conduct one-to-five-day pre-
departure cultural orientation classes for eligible refugees at sites 
throughout the world. In an effort to further bridge the information 
gap, for certain groups, brief video presentations featuring the 
experience of recently resettled refugees of the same ethnic group are 
made available to refugee applicants overseas.
    Prior to arrival in the United States, every refugee family 
receives Welcome to the United States, a resettlement guidebook 
developed with contributions from refugee resettlement workers, 
resettled refugees, and state government officials. Welcome to the 
United States is printed in 17 languages: Albanian, Amharic, Arabic, 
Bosnian/Croatian/Serbian, English, Farsi, French, Karen, Karenni, 
Kirundi, Kiswahili, Nepali, Russian, Somali, Spanish, Tigrinya, and 
Vietnamese. The guidebook gives refugees accurate information about the 
initial resettlement process. The Welcome to the United States refugee 
orientation video is available in 17 languages: Af-Maay, Arabic, 
Bosnian/Croatian/Serbian, English, Farsi, French, Hmong, Karen, 
Karenni, Kirundi, Kiswahili, Nepali, Russian, Somali, Spanish, 
Tigrinya, and Vietnamese. The Welcome to the United States guidebook 
was revised in 2013. The new version is more comprehensive and 
interactive, with student exercises included throughout the workbook.
                               11. travel
    Refugees approved by DHS generally enter the United States within 
six to twelve months of approval. Travel is coordinated by IOM, which 
generally provides interest-free loans for the cost of their 
transportation to the United States. (A refugee is expected to begin 
incremental repayment of this loan six months after arrival in the 
United States, and the total amount is generally expected to be repaid 
within 3\1/2\ years.) Refugees generally travel coach class and must 
pay for excess luggage. Refugees carry travel papers prepared by the 
RSC which they must present to DHS officials at the port of entry to 
the United States.
           12. status on arrival and the path to citizenship
    At the U.S. port of entry, refugees are admitted to the United 
States by DHS officials and authorized employment. After one year, a 
refugee must file for adjustment of status to lawful permanent 
resident. Five years after admission, a refugee is eligible to apply 
for U.S. citizenship. Refugees who wish to travel abroad before 
adjusting to Lawful Permanent Resident Status must first obtain advance 
permission to re-enter the United States from DHS in the form of a 
Refugee Travel Document. Voluntary return to the country of persecution 
or availing oneself of services of that country's Government (e.g. 
passports) may affect the individual's refugee status. The USG does not 
impede voluntary repatriation, but USG funding is not generally 
available for refugees wanting to repatriate. Private organizations and 
UNHCR may be able to assist refugees who choose to repatriate.
             13. domestic settlement and community services
13.1 Overview of Services (providers and length of eligibility)
    The U.S. resettlement program recognizes the desirability for 
public and private non-profit organizations to provide sponsorship, 
reception, and placement services appropriate to refugees' personal 
circumstances, and to assist refugees to achieve economic 
selfsufficiency as quickly as possible. Sponsoring agencies are 
required to ensure that refugees' basic needs are met: initial housing, 
essential furnishings and supplies, food or a food allowance, and 
necessary clothing for a minimum of 30 days after arrival in the United 
States. Further, sponsoring agencies also provide assistance to access 
benefits and services, assistance with enrollment in English language 
training, transportation to job interviews and job training, and 
orientation about services available in the community and life in the 
U.S. (employment opportunities, vocational training, education, 
language classes, personal budgeting, safety, legal requirements, and 
health care) for a period of no less than 30 days that may be extended 
up to 90 days after arrival.
    Initial reception and placement of refugees is carried out by 
sponsoring agencies through cooperative agreements with the Department 
of State. Longer term resettlement resources are provided primarily 
through assistance programs funded by the Office of Refugee 
Resettlement (ORR) in the Administration of Children and Families, 
Department of Health and Human Services. ORR supports domestic 
resettlement through funds to states, voluntary agencies and community-
based organizations to provide for cash and medical assistance, 
employment and social services. The primary ORR grantees may sub-grant 
local non-profit organizations, county, and local governments. Private 
organizations and individuals, such as relatives or friends of the 
refugee or concerned citizens, may also assist with the refugee's 
resettlement.
13.2 Reception
    An IOM representative meets the refugee at his/her port of entry 
and when necessary, ensures he/she makes his/her onward travel 
connections. Sponsoring agencies meet the refugees at their final U.S. 
destination and transport them to their initial housing, which includes 
furnishings and supplies, food, clothing. The sponsoring agencies 
provide basic services for a period of no less than 30 days that may be 
extended up to 90 days.
13.3 Orientation
    The U.S. resettlement program strives to ensure that refugees who 
are admitted to the United States are prepared for the significant 
changes they will experience during resettlement. Pre-departure 
cultural orientation programs are available for refugees at many sites 
around the world.
    After arrival in the United States, the sponsoring agency provides 
refugees with community orientation, which includes information about 
the role of the sponsoring agency and those assisting the refugee, 
public services and facilities, personal and public safety, public 
transportation, standards of personal hygiene, the importance of 
learning English, other services available, personal finance, and 
information about legal status, citizenship, travel loan repayment, 
selective service, and family reunification procedures.
    Refugees may also receive materials in their native language which 
provide information about life in the United States to ease the 
transition to a new society and culture. ORR provides technical 
assistance in domestic cultural orientation to promote and enhance 
community orientation and supports English language training by funding 
ESL programs and/or referral activities.
13.4 Housing
    Under the guidelines established for reception and placement 
services by the Department of State, the resettlement agencies ensure 
that decent, safe and sanitary accommodation, according to U.S. Federal 
housing quality standards, is made available to the refugee upon 
arrival.
    Refugees reuniting with family may spend some time at their 
relative's accommodation. ORR provides cash assistance to eligible 
refugees to cover basic needs such as food, clothing, and housing up to 
eight months. Within the current code of Federal Regulations, ORR 
extends social services funding to cover housing expenses.
13.5 Health
    Resettlement agencies refer refugees to local health services for a 
comprehensive health assessment upon arrival in order to identify and 
treat health problems which might impede employment and effective 
resettlement. This assessment is provided free of charge. Refugees are 
eligible to apply for Medicaid or Refugee Medical Assistance (RMA) 
provided by ORR to cover basic health care costs. ORR ensures medical 
screening for all refugees through RRMA or Medicaid. ORR covers health 
and mental health needs of eligible refugees up to eight months through 
the RMA program. RMA provides medical services to those refugees 
ineligible for Medicaid.
13.6 Language Training
    English language ability is critical to a refugee's successful 
transition in American society. English as a Second Language (ESL) 
training programs vary among communities. The local resettlement agency 
is the best source of information about the availability of such 
programs. ORR funds a technical assistance provider to promote and 
support English language training.
13.7 Education
    Public schools in the United States are operated by local 
governments so curriculum and facilities vary. Public school education 
is free for grades Kindergarten to 12 (approximately ages 5 to 18) and 
is mandatory for children ages 6 to 16. The resettlement agency will be 
able to provide more information about school registration and other 
educational resources in the community. ORR supports the integration of 
refugee children into the American school system through a refugee 
school impact grant to refugee-impacted areas.
13.8 Vocational Training
    Refugees should be aware that job mobility in the United States is 
great and that refugees frequently change jobs as technical skills and 
English ability improve. Refugees should also be aware that foreign job 
certification is often not valid in the United States and that further 
training, testing, and/or certification may be necessary for some jobs. 
Vocational and technical schools train people for special skilled 
occupations, such as auto mechanics, computer programming, and medical 
and dental assistants. These programs require varying levels of English 
language ability and often require payment. The local resettlement 
agency will be able to provide more information about the availability 
and cost of such programs.
13.9 Employment-related Training
    ORR employability training services are designed to enable refugees 
to achieve economic self-sufficiency as soon as possible. Employment-
related training can include: the development of a self-sufficiency 
plan, job orientation, job development, job referral, placement, 
follow-up, English language training, and employability assessment 
services to include aptitude and skills testing. In addition, services 
can include career laddering and recertification activities for refugee 
professionals seeking to fulfill their full career potential.
13.10 Employment
    Achieving economic self-sufficiency is the cornerstone of the U.S. 
resettlement program and getting a job is the first step toward that 
goal. Many jobs available to newly-arrived refugees are entry-level and 
refugees are encouraged to improve their language and job skills in 
order to move up the economic ladder. Refugees receive assistance from 
the resettlement agency or other employment service program in their 
community in finding a job, though it may not be in the same field in 
which the refugee was previously employed. Refugees must have 
documentation authorizing employment, such as the I-94 form, which they 
receive from DHS upon arrival, or an Employment Authorization Document 
(EAD), which they receive from DHS 30 days or more after arrival. The 
Matching Grant program funded by ORR is particularly focused on 
intensive case management employability services in support of early 
self-sufficiency. ORR also provides technical assistance to expand and 
promote employment opportunities.
13.11 Financial Assistance
    The U.S. resettlement program is a public-private partnership. The 
Department of State provides the sponsorship agency $1,925 per refugee 
to provide for their basic needs and core services. Of the $1,925 per 
capita funding, $1,125 must be spent directly on refugees. While 
affiliates must spend at least $925 on each refugee, they may choose to 
allocate up to $200 of the $1,125 on other more vulnerable refugees. 
Federal funding is only intended to provide a portion of the resources 
needed to serve the refugee. Each sponsoring agency and its affiliates 
raise private resources, both cash and in-kind, to further address the 
individual needs of each refugee.
    The Department of Health and Human Services is the primary funding 
source in providing financial assistance to States, counties, and local 
non-profits to assist refugees become economically self-sufficient as 
quickly as possible. States, counties, non-profits, and communities 
provide additional resources to support such programs. Refugees are 
eligible to apply for public benefits, cash or food assistance, to 
cover a portion of their expenses. The level of benefits varies State 
by State.
13.12 Supplemental Support for Refugee with Special Needs
    The Department of State refugee per capita funding provides $200 
that a local sponsoring agency can utilize for individual refugees with 
special needs. Additionally, each community in which refugees are 
resettled is unique, with different strengths and weaknesses. 
Recognizing this, each sponsoring agency and its affiliates work to 
determine the most appropriate placement for each refugee, so that that 
location best matches the individualized needs of that refugee. Once a 
placement is determined the local affiliate works with other community 
partners to prepare for the special needs of the refugee. The 
Department of Health and Human Services programs and discretionary 
funding allow for the creation of programs to address the diverse needs 
of refugees and the communities.
13.13 Mechanism for sharing information with service providers; 
        including details on expected populations, specific cases, and 
        integration issues
    The Department of State shares information about expected 
populations for resettlement with other Federal partners, the 
sponsoring agencies, and States on an annual and quarterly basis. They 
in turn provide this information to other service providers. Background 
information and cultural information is published on certain refugee 
populations planned for resettlement, which include integration issues. 
Specific case information is provided to service providers through the 
Department of State comprehensive database. This gives individual 
biographic data on each refugee to the sponsoring agency that will 
resettle the refugee and may be shared with other service providers who 
will serve that specific case. Pipeline information is available to 
sponsoring agencies, States, and Federal partners. Individual medical 
data is provided to the Department of Health and Human Services upon 
arrival of each refugee to ensure appropriate follow-up. Sponsoring 
agencies, through this database, then provide a status report on each 
individual refugee at the end of their reception and placement period.
                  14. family reunification of refugees
    Family unity is an important element of the U.S. refugee admissions 
programme. This is reflected in the processing priorities discussed in 
Section 4, as well as in other refugee and immigrant admissions 
programmes detailed below.
14.1 National Definition of Family
    For U.S. immigration purposes, the validity of a marriage is 
generally determined by the law in the place of celebration.
    There are certain exceptions to that rule. For example, refugees 
may be prevented from complying with formal marriage registration 
requirements based on circumstances resulting from their flight from 
persecution. If a marriage is invalid based on a failure to comply with 
formal registration requirements, a marriage may still be valid for 
U.S. immigration purposes if the parties were prevented from formal 
perfection of the marriage due to circumstances relating to their 
flight from persecution. Examples of circumstances beyond a couple's 
control and relating to the flight from persecution would include 
inability to access host country institutions due to refugee camp 
policies or conditions, discriminatory government policies or 
practices, and other consequences of the flight from persecution. A 
couple who has been prevented from formal perfection of the marriage 
must also show other indicia of a valid marriage. The relevant 
considerations may include: holding themselves out to be spouses, 
cohabitation over a period of time, children born to the union, and the 
performance of a marriage ceremony.
    Common law marriages may be accepted for U.S. immigration purposes 
if the law of the place of celebration allows a couple to marry by 
agreement, without formal ceremony, licensing, or registration 
requirements, and recognizes the relationship as a legally valid 
marriage. However, common law marriages that are not legal in the place 
of celebration and are simply de facto cohabitation would not be 
considered a marriage for immigration purposes under U.S. law.
    In July 2013, the Board of Immigration Appeals (BIA) issued a 
precedent decision in Matter of Zeleniak, 26 I&N Dec. 158 (BIA 2013), 
recognizing lawful same-sex marriages and spouses if the marriage is 
valid under the laws of the State where it was celebrated. A same-sex 
spouse may now be included on refugee application if the applicant and 
spouse are legally married.
    USCIS generally looks to the law of the place where the marriage 
took place when determining whether it is valid for immigration law 
purposes. USCIS does not recognize a marriage legally transacted in a 
foreign jurisdiction if the marriage is contrary to Federal public 
policy. This includes polygamous marriages and some minor marriages.
    According to the U.S. Immigration and Nationality Act (INA) Section 
101(a)(35): The term [terms] ``spouse,'' ``wife,'' or ``husband'' do 
not include a spouse, wife or husband by reason of any marriage 
ceremony where the contracting parties thereto are not physically 
present in the presence of each other, unless the marriage shall have 
been consummated.
    According to INA Section 101(b)(1)(A)-(E): (1) The term ``child'' 
means an unmarried person under twenty-one years of age who is:
    (A) a child born in wedlock;
    (B) a stepchild, whether or not born out of wedlock, provided the 
        child had not reached the age of eighteen years at the time the 
        marriage creating the status of stepchild occurred;
    (C) a child legitimated under the law of the child's residence or 
        domicile, or under the law of the father's residence or 
        domicile, whether in or outside the United States, if such 
        legitimation takes place before the child reaches the age of 
        eighteen years and the child is in the legal custody of the 
        legitimating parent or parents at the time of such 
        legitimation;
    (D) a child born out of wedlock, by, through whom, or on whose 
        behalf a status, privilege, or benefit is sought by virtue of 
        the relationship of the child to its natural mother or to its 
        natural father if the father has or had a bona fide parent-
        child relationship with the person;
    (E)(i) a child adopted while under the age of sixteen years if the 
        child has been in the legal custody of, and has resided with, 
        the adopting parent or parents for at least two years or if the 
        child has been battered or subject to extreme cruelty by the 
        adopting parent or by a family member of the adopting parent 
        residing in the same household: Provided, that no natural 
        parent of any such adopted child shall thereafter, by virtue of 
        such parentage, be accorded any right, privilege, or status 
        under this Act; or
      (ii) subject to the same proviso as in clause (i), a child who:
        (I) is a natural sibling of a child described in clause (i) or 
            subparagraph (F)(i);
        (II) was adopted by the adoptive parent or parents of the 
            sibling described in such clause or subparagraph; and
        (III) is otherwise described in clause (i), except that the 
            child was adopted while under the age of 18 years;
    Certain family members may join relatives in the United States by 
one of the following means:
  <bullet> A UNHCR referral for the purpose of family reunification 
        (Such referrals follow the procedures outlined in Section 6).
  <bullet> An Affidavit of Relationship (AOR).--An AOR is a form filed 
        with a resettlement agency by refugees, permanent residents, or 
        American citizens to establish a relationship in order to 
        qualify for consideration under the priority three, family 
        reunification category.
  <bullet> Visa 93.--A resettlement authorization for the spouse and 
        unmarried children under 21 of a refugee already resident in 
        the United States.
  <bullet> Visa 92.--A resettlement authorization for the spouse and 
        unmarried children under 21 of an asylee already resident in 
        the United States.
  <bullet> Regular immigration.--Refugees may also qualify for 
        admission under regular immigration categories if they have the 
        requisite relatives in the United States.
14.2 Family Reunification Eligibility
    Use of an AOR requires that the relative applying for U.S. 
resettlement establish refugee status in his own right and be otherwise 
admissible for entry into the United States, as determined by DHS. An 
acceptable AOR permits an applicant to be considered under Priority 3. 
A Visa 93 or Visa 92 petitioner must establish proof of relationship 
(spouse or unmarried child under 21). While immediate family members do 
not need to qualify as refugees in their own right in order to be 
eligible for Visas 92 or 93 and may still be situated in their 
countries of origin, they must demonstrate that they meet the required 
standards regarding admissibility to the U.S.
14.3 Allocations for Family Reunification
    All family reunification cases, whether direct applicants, UNHCR 
referrals or Visas 93 beneficiaries, count against the annual regional 
refugee admissions ceiling. Visas 92 beneficiaries do not count against 
the annual admissions ceiling.
14.4 Routing of Applications
    UNHCR referrals for the purpose of family reunification follow the 
procedures outlined in Section 6.
  <bullet> AOR.--A relative in the United States files an AOR with a 
        local branch of one of eleven resettlement agencies with a 
        cooperative agreement with the Department of State. If 
        determined to be eligible, routing then follows the procedures 
        outlined in Section 6.
  <bullet> Visa 93.--A refugee in the United States must file Form I-
        730 (Refugee/Asylee Relative Petition) with DHS on behalf of 
        his/her spouse and minor, unmarried children, along with 
        supporting documentation to verify the relationship. The I-730 
        must be filed within two years of the refugee's arrival in the 
        U.S.
  <bullet> Visa 92.--An asylee in the United States must also file Form 
        I-730 (Refugee/Asylee Relative Petition) with DHS on behalf of 
        his/her spouse and minor, unmarried children, along with 
        supporting documentation to verify the relationship.
14.5 Case Documentation
    When the refugee applicant seeks resettlement in the United States 
through UNHCR based on family ties, such ties may be supported by a 
marriage and/or birth certificates, certificates of adoption or 
approved Form I-130s (Petition for Alien Relative). If these documents 
are unavailable, a church record, school record or census record 
showing date and place of birth may be acceptable. If the above 
documentation is unavailable, the applicant may present a notarized 
voluntary agency Affidavit of Relationship (AOR), sworn statements of 
persons who are not related to the principal applicant attesting to the 
relationship claimed, or, if necessary, such affidavits from persons 
related to the principal applicant. UNHCR need not request that an AOR 
be filled out when referring a case under Priority One.
14.6 Processing Times
    The processing timeline for family reunification cases is longer 
than that for UNHCR-referred cases, as the AOR must be vetted by USCIS 
prior to commencing RSC prescreening, and DNA evidence of certain 
parent-child relationships, at the applicant's expense, is required. 
Following a four-year suspension due to relationship/identity fraud, 
the U.S. re-started the P-3 program on October 15, 2012.
                        15. references/resources
    The following materials are available from any U.S. Embassy that 
processes refugees or from the Bureau of Population, Refugees, and 
Migration at the U.S. Department of State:
    Center for Applied Linguistics (CAL), Welcome to the United States: 
        A Guidebook for Refugees. 2012. http://
        www.culturalorientation.net
    Committee on the Judiciary of the House of Representatives. 
        Immigration and Nationality Act, May 1995. http://www.uscis.gov
    U.S. Department of State, Department of Homeland Security, 
        Department of Health and Human Services. Report to the 
        Congress: Proposed Refugee Admissions for Fiscal Year 2015, 
        September 2014. http://www.state.gov/documents/organization/
        232029.pdf

    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Mr. Katko.
    Mr. Katko. Mr. Chairman, I don't have any reports to put 
into the record, but I do have a report I want to talk about 
for a moment.
    Chairman McCaul. You may.
    Mr. Katko. That is the--I was chair of the joint terrorism 
task force--the report, Combating Terrorism and Foreign Fighter 
Travel. I appreciate your comments. I am proud of the work that 
our task force did. Many of my colleagues sitting here today 
were part of that task force. It was done in a bipartisan 
manner.
    When we did this over a 6-month period of time, we spent an 
extensive amount of time with folks from Homeland Security, as 
well as FBI, and spent a lot of time with the National 
Counterterrorism Center, as well, and we learned an awful lot.
    I could be here all day asking you specifics about the 
report, but I just--a couple things I do want to touch on.
    In the wake of 9/11 and the 9/11 Commission, there was 
legislation passed in 2006 to develop a National strategy to 
combat foreign fighter travel. The landscape has changed 
tremendously since then, as we all know, especially with 
respect to ISIS.
    One of the report's recommendations is to basically have an 
updated report of that, and I wanted to hear what your thoughts 
are on that, all of you.
    Secretary Johnson. Congressman, in general, I do believe 
that we need a comprehensive strategy to foreign terrorist 
fighter travel.
    I also agree that since 2006 the threat has evolved 
enormously, particularly from European countries. We are 
concerned about those who have been to Syria and who come to 
this country from a country for which we do not require a visa, 
which is why, as you know, I announced a number of security 
enhancements with respect to travel from European countries to 
deal with this exact threat.
    But it is a significant problem, and I agree that we should 
have--we do have this in very large measure, but we should have 
a comprehensive overall strategy for dealing with it. We are 
doing a lot on my end. The FBI is doing a lot on their end to 
interdict those who are leaving this country who are going to 
Syria. But this something that is going to be with us for a 
while. It also involves working with our friends and allies 
internationally, working with the Government of Turkey, for 
example, which is something I am personally focused on at the 
moment.
    The last thing I will say, I read most of your report. I 
didn't get through all of it. I thought it was an excellent 
report. I complimented one of your staff on the elevator ride 
up here. I said, ``You wrote a great report''----
    Mr. Katko. That made his day, by the way, just so you know. 
That made his day, that complimenting the staffer. He 
appreciates that, so thank you.
    Secretary Johnson. Well, he pointed out to me, ``It wasn't 
me. It was the Members of Congress.''
    Mr. Katko. I appreciate that.
    Secretary Johnson. I thought you would.
    Mr. Rasmussen. Can I just add on to that, sir?
    The one thing we can be sure of is that today's conflict 
zone is obviously Iraq and Syria, where we are so heavily 
focused on foreign terrorist fighters, but we can be certain 
that there is likely around the corner in future years another 
conflict zone where foreign terrorist fighters will be a 
problem that we will confront as a matter of National security.
    So I think some of the very things your report 
highlighted--the structures and procedures and capabilities we 
are putting in place to deal with this problem--don't 
necessarily give us immediate relief. They don't help us next 
month tell you that the flow of foreign fighters has been 
squashed or shut down, but I would argue, importantly, that we 
are building some capability that will bear out over time.
    Similarly, like Secretary Johnson said, so much of the work 
on this problem is international work right now. I would say 
that there is a good-news story embedded in this problem in 
that our foreign partners are far more willing to share 
information on this problem than would have been the case in 
2006 or 2007, when we were dealing with the foreign terrorist 
fighter problem at that time.
    So, again, the size of the problem, undoubtedly larger and 
more complex, but the array of resources we are able to call on 
around the globe, countries with whom you would never think we 
would be working, we are exchanging successfully information on 
foreign terrorist fighters.
    Mr. Katko. Right. It seems like the phenomenon with respect 
to ISIS, at least, and the radicalization of home-grown 
terrorists here and getting them to go overseas to fight for 
them is an added twist. So I think that is something that 
probably warrants an update in the whole terror travel 
analysis.
    Mr. Comey, I know you didn't have a chance to answer, but I 
do have a question for you that is different in nature, given 
the short period of time I have. I am concerned about the Joint 
Terrorism Task Forces, JTTFs, and the stresses that are being 
put on them.
    You traditionally have investigated international and 
domestic terrorism as part of the JTTF. So, to address a 
question that was brought earlier, the JTTF doesn't 
discriminate under which cases they look at. Whatever comes 
across their radar, whether it is a domestic case or an 
international case, gets a high priority. Is that correct?
    Mr. Comey. That is correct.
    Mr. Katko. My concern is, grafted on top of that now is 
this whole new phenomenon about ISIS and the stress that that 
is putting on, both from foreign fighters coming back, having 
to expend all the capital and resources to track them, which is 
very difficult, as well as trying to find a needle in the 
haystack for those who are getting radicalized over the 
internet.
    So I know you talked about it, but I want to make sure we 
get a good understanding. Are the JTTFs being stressed beyond 
the breaking point? Or are they okay? Or do they need more 
help?
    Mr. Comey. They are being stressed tremendously. As I said 
earlier, they were very, very stressed in May and June and 
early July, in particular. But, given your career experience, 
you know the kind of folks they are. They will just get the 
work done.
    What I want to make sure I do is, if we have a new normal, 
that we get them the plus-up and resources they may need. I am 
not in a position yet where I am going to come back and ask for 
that, but it is something we watch very carefully.
    Mr. Katko. Okay. I understand that working together with 
the State and local authorities is helping you to leverage 
that. I encourage what we can to keep that going, because that 
is a really important aspect of the puzzle. So thank you very 
much.
    I yield back my time.
    Chairman McCaul. The Chair recognizes Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman.
    To FBI Director Comey, I want to thank you personally for 
the outreach that your L.A. office has done in my district. It 
was really important for me to ensure that we have a face 
behind that, you know, phone number that we are supposed to be 
reporting issues of concern to. They have offered to do a 
follow-up in a more, you know, law-enforcement-to-law-
enforcement, because we did have members of the community at 
that hearing. So thank you for that work.
    In your testimony, we were talking about terrorist 
propaganda and the outreach that these terrorist groups are 
doing through social media. I am very concerned about their 
infiltration with our local gangs. We have placed a lot of 
attention and I congratulate all of you on the work that you 
are doing internationally.
    My concern is the Mexican Mafia. My concern is the white 
supremacist groups that have targeted African-American 
communities. I want to ensure and be on record that we are 
doing everything that we can to also follow up on those issues.
    Mr. Comey. Yes, Congresswoman. Thank you for that. Those 
are an important part of the FBI's work with our local partners 
all day, every day, the gangs you mentioned, extremists that 
you mentioned. The Bureau was given the resources after 
September 11 to make sure we could be great at both our 
international terrorism responsibilities and these criminal 
responsibilities.
    Mrs. Torres. Earlier in your testimony, you said that due 
to sequestration you have had to move people out of criminal 
investigations to do surveillance work for these potential 
terrorist folks that go dark. That is why I bring that out to 
you.
    Mr. Comey. I echo what my colleague Secretary Johnson said 
about sequestration. One of the reasons we have had to move 
those resources is we are trying to hire out of the hole that 
was left for us 2 years ago. So we hired 2,000 people this last 
year; we are going to hire close to 3,000 this year. So we are 
trying to dig out of that hole and get us the people who can 
fill those slots. If we get hit again, I don't know what we 
will do.
    Mrs. Torres. When we first met last year, I had asked you 
specifically about ensuring that you hire people, you know, 
that look like America and that we are targeting areas where we 
need certain languages and certain ethnic backgrounds to be 
represented at the FBI table.
    How has your progress been on that?
    Mr. Comey. It is probably too early to tell, but we are 
devoting a tremendous amount of effort to that, to trying to 
encourage people from all different backgrounds and walks of 
life to try and get into the FBI. It is not about lowering the 
standards. We don't need to lower the standards. We just need 
people to give us a chance.
    The obstacle we face, one of my daughters said to me, 
``Dad, the problem is you are the man.'' I said, ``Thank you.'' 
She said, ``I don't mean that as a good thing, Dad. You are 
`the man.' Nobody wants to work for `the man.' '' You have to 
change the way they think about it. So we are working very hard 
about that, for folks to understand that the Bureau----
    Mrs. Torres. Right.
    Mr. Comey [continuing]. Is great place for people, whether 
Latino, African-American, Asian, men, or women, to work. It is 
a work in progress. But I have 8 years left, and so I will----
    Mrs. Torres. Thank you.
    Mr. Rasmussen, you talked about a creation of community 
engagement groups. How do you intend to do that? Who are the 
community partners that you will be inviting to participate?
    Mr. Rasmussen. In my written remarks, I highlighted the 
work we are doing at NCTC alongside Secretary Johnson's team 
and Director Comey's team. I will tell you, though, in this 
effort to deal with countering violent extremism here inside 
the United States, it ends up being a separate and distinct 
conversation in almost every community. Because in each 
community in which we are working together, all of us, the 
community leadership looks different, the problem looks 
different, the set of actors who may have influence looks 
different. That is what makes it hard.
    I think we are doing very good work in this area, but it 
has been hard to scale up because there is no National-level 
solution, no single answer, where you say, if you just touch 
this in Los Angeles, it works in Dallas or it works in Miami or 
it works----
    Mrs. Torres. That is why it is so important to engage local 
law enforcement and to ensure that diversity is at the top of 
our priority.
    Mr. Rasmussen. I agree completely.
    Again, I wouldn't even suggest that we are bringing a 
solution to those local communities. In many cases, we are 
bringing information, which will hopefully empower those 
communities to actually make the choices and the changes and 
take the steps necessary to deal with extremism in their midst. 
That is not a Federal solution.
    Mrs. Torres. Thank you.
    I yield back my time.
    Chairman McCaul. The Chair recognizes Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman.
    Thanks to our distinguished panel for being here today. 
Also, please tell the men and women that work for you all thank 
you on behalf of us, as well.
    I spent 9 years as an undercover officer in the CIA. I was 
in the CIA when 9/11 happened. To think that, if you would have 
asked me then that there wouldn't be a major attack on our 
homeland for over 14 years, I would have said you all were 
crazy. But we haven't had one, because the men and women in you 
all's organizations are all working as if it is September 12 
every single day. The operational discipline and tenacity that 
takes, I recognize that and understand that, and my hats go off 
to them. It is great representing the 23rd Congressional 
District of Texas, but it is also great representing those men 
and women that are doing that.
    I represent over 820 miles of the border, so, Secretary 
Johnson, I am here to report to you that you have some 
hardworking men and women in Border Patrol and Customs along 
that border. I had the awesome opportunity to award three of 
them with the Congressional Medal of Valor. They went above and 
beyond during a flood. It read like straight out of a movie. So 
I see what these men and women are doing every day.
    One issue that they do have is--and don't need to address 
it here, but I would like to work with your staffs, and it 
probably impacts the FBI, as well, Director Comey, and this is 
the right-sizing of the Federal fleet. I think GSA's 
requirements don't take into account the unique challenges that 
law enforcement has to deal with, nor folks on the border. So I 
look forward to working with whoever in you all's offices on 
maybe this issue and looking at solving that problem with the 
GSA.
    Secretary Johnson, I am also interested in learning from 
your staff on how you all calculate got-aways and that process. 
That is something I would welcome an analysis of that from the 
correct folks on your team, if that is okay.
    My first question to you, Secretary Johnson, is: The cyber 
deal with China that was recently announced, have we seen any 
impact that is having on attacks on our critical infrastructure 
from the Chinese?
    Secretary Johnson. I would say it is, at this point, too 
early to make an informed assessment.
    One thing that I will be looking to see is whether in our 
follow-up engagement, which I hope to have in December, we will 
see real progress, building on what we have agreed to on paper. 
So that, to me, will be a first indicator of whether or not the 
Chinese are taking seriously what they agreed to do when they 
were here in September.
    Mr. Hurd. Excellent.
    Like you in your opening remarks, I hope the Senate sends 
us a bill so that we can, you know, reconcile those differences 
and get something to the President to sign, because 
cybersecurity is important.
    Director Comey, I appreciate your opening remarks and your 
stressing that the Bureau is not seeking any legislative issues 
regarding the going-dark phenomenon or encryption. Because 
there is still a perception out there amongst the private 
sector and privacy groups that the FBI is still looking for a 
back door or a front door to encryption. We all know that that 
is technically not able to do that. If you allow the good guys 
to have access to the back door, then you are allowing the bad 
guys to have access to the back door.
    My question, though, is: When you have groups like ISIS 
using social media tools to increase their effort, doesn't that 
also give us an opportunity to increase our targeting of these 
groups?
    Mr. Comey. Thank you, Congressman.
    First, with respect to your predicate, I honestly don't 
agree with your framing of it, in terms of the encryption 
issue. I don't think there is a single ``it.'' It is a very 
complicated technical landscape. I resist the term ``back 
door.'' I know it dominates the conversation today, but I don't 
know what the answer is. I see lots of companies who are able 
to provide secure services to their customers and they still 
comply with court orders.
    So people tell me it is impossible. I am a little 
skeptical.
    Mr. Hurd. So here is my question, though. A lot of folks--I 
have sat down and talked with these people and talked with 
people in your organization about, give me the use cases in 
which the case actually went cold. Because even if you have 
people using a device, you may not get the plain text 
information, but you do have the device. You do know that 
someone is using that. You do know the location of that device.
    So saying that you still can't target terrorists that way 
and throwing certain companies under the bus by saying they are 
not cooperating, I don't think that is an accurate portrayal of 
what is really going on.
    Mr. Comey. Yeah, and I hope you didn't hear me to throw 
anybody under the bus. We are collecting and we will get you 
hundreds and hundreds of cases. But, to me, that actually 
doesn't--I think everybody agrees the logic of encryption means 
that all of our work will be severely affected by it, but I 
don't think that is the end of the conversation.
    The question is: How much do we care about that, and what 
can we do about it? We will demonstrate the cases where it 
affects criminal work and intelligence work and National 
security work, but I don't think that ends the conversation.
    Mr. Hurd. I 100 percent agree.
    I disagree a little bit with some of your opening remarks 
that there is a conflict in our values. I don't think there is 
a conflict of our values. Our civil liberties are the things 
that make our country great. We can protect our civil liberties 
and our digital infrastructure and give our men and women that 
are working hard to keep us safe every single day the tools 
they need in order to continue to protect us in an increasing 
environment.
    I am over my time. I look forward to working with you on 
this issue and the private sector, because this is something 
that we can solve.
    I yield back, Chairman.
    Chairman McCaul. The Chair recognizes our first female 
combat pilot, Ms. Martha McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony and the hard work 
of you and all the men and women that are in your 
organizations.
    I was on the task force. I was proud to be on the task 
force. Certainly very eye-opening and troubling, but very 
important work for us to identify some of the challenges and 
loopholes we have, which have been, you know, further discussed 
in your testimony today. Look forward to working with you all 
to see how we can, you know, obviously, close those loopholes 
and increase our security.
    I want to specifically talk about the recruitment of women 
and girls. We have talked about, you know, we think there are 
over 250, maybe, Americans have been recruited, over 2,500 
Westerners. A lot of the men are being recruited to go over and 
join the caliphate to fight, but women and girls are been 
recruited to go over and basically be subjected to sexual 
slavery--a very different dynamic. We have heard reports that 
the women and the girls, quite frankly, can't leave in the same 
freedom as some of the men do.
    So do any of you have comments about the different dynamic 
there and then different efforts we would have in order to 
counter the violent extremism and the recruitment of women and 
girls?
    Mr. Rasmussen. It is a very good question. What we do know 
is that ISIL does prioritize trying to recruit and bring young 
women to the caliphate. They target some of their messaging 
directly to that community, and they adopt themes that they 
think will resonate with young women in Western Europe and even 
here in the United States.
    You will probably remember, not too long ago, The New York 
Times ran a very disturbing series on the front page that 
described in some very vivid detail some of the horrific 
experiences young women have been put through by moving to the 
caliphate.
    I was heartened to see that that kind of information was 
becoming public, because it can only help to have that 
information exposed. But is The New York Times going to be the 
vehicle that reaches young women and explains to them how at 
risk they are if they respond to this call or, in the way that 
Director Comey described in his opening remarks, the way they 
gravitate, the way they might choose to gravitate towards the 
positive ends of this message? I don't think The New York Times 
is going to be the vehicle that helps us explain that and 
create that sense of awareness that it is not the environment 
they are signing up for.
    Ms. McSally. Right.
    Secretary Johnson. Congresswoman, I think a fundamental 
part of our CVE efforts here in this country is a message that 
has to be addressed to young women about the type of 
exploitation they could be subjected to----
    Ms. McSally. Right.
    Secretary Johnson [continuing]. If they go to these places. 
But I also believe it includes a message to their parents, as 
well----
    Ms. McSally. I agree. Thank you.
    Secretary Johnson [continuing]. Their family units.
    Ms. McSally. Great. Thanks.
    Moving on to a different topic, we have had a lot of 
discussion today about vetting the refugees. We identified in 
the task force some challenges with the Visa Waiver program 
and, you know, just making sure, again, that we are keeping the 
country safe.
    One of the elements--we had a demonstration out of the 
university in my district, University of Arizona, related to 
deception-detection technology. What we have learned in some of 
the briefings I have gotten is, even with a face-to-face 
interview, you often could be wrong if someone is trying to 
deceive. There has been decades of work done in identifying 
through, you know, neurological means and other things whether 
somebody is deceiving, whether that is filling out on-line 
forms or in person.
    We did give a demo to some individuals in your 
organization, but I would really like to follow up with that, 
because I think these are some cheap technologies that we could 
deploy that helps us in the vetting fight for a variety of 
different dynamics here. I know some of your members were 
there, but it is sometimes difficult, you know, 
bureaucratically, to move technology quickly.
    So I would really like to follow up with all of you related 
to this deception-detection technology, because I think it 
really would be helpful, if you are open to it.
    Secretary Johnson. Yes.
    Ms. McSally. Great. Thank you.
    Then the last thing is, you know, I ran the 
counterterrorism operations at AFRICOM in my last military 
assignment. We talk about foreign fighters and foreign fighter 
training. Working with your organizations, you know, we were 
watching thousands and thousands of terrorists being trained in 
al-Shabaab training camps, and we had the authority, but we 
didn't really have the will to do anything about it.
    You know, we are all talking about ISIS right now, but we 
do have AQIM, AQAP, al-Shabaab, certainly with the challenges 
with pulling out some forces in Yemen, limiting our 
intelligence. Just wanted some discussion on that so that we 
are not all focused on ISIL and not, you know--I know your 
organizations are not, but I just want to hear your assessments 
of addressing the AQAP, AQIM, and al-Shabaab threats.
    Are there any similar issues that we don't have the will to 
be addressing those? Or what other challenges are you having 
with those threats?
    Mr. Rasmussen. Thank you for raising that issue, because, 
as you saw in my remarks, I resist a little bit the kind of 
gravitational pull that says that ISIL is the sole focus of our 
counterterrorism effort right now. It is certainly--as I said 
in my testimony, the group has surpassed al-Qaeda in terms of 
its prominence in leading a global jihadist movement, but, in 
terms of the threat we face, each of the groups you rattled 
off, Congresswoman, very, very dangerous, lethal, and deserving 
of all of the resources and analysis we can bring to bear on it 
as a counterterrorism community.
    Simply as a matter of workforce management, I have had to 
resist the pull also to, again, surge analysts in the direction 
of only working on ISIL-related threats because of the array of 
other places around the world where al-Qaeda, al-Qaeda 
affiliate groups, and other extremist groups are potentially 
threatening us. So thank you for raising that.
    Ms. McSally. Great. Thanks.
    My time has expired, but I look forward to following up 
with your organizations on those threats, as well.
    Thank you.
    Chairman McCaul. The Chair recognizes Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Thank all of the witnesses for all that you do to keep 
America safe.
    I would like to go back to the issue in Syria that has 
displaced millions of folks seeking refugee status around the 
world. Obviously, it is a humanitarian concern for all of us. I 
am certainly sympathetic to the atrocities there. Like many of 
the Members have mentioned, I appreciate our country's profound 
and long-time commitment to providing a place of security to 
those fleeing disastrous conflicts.
    That being said, I did want to drill down a little bit on 
the President's announcement a month ago of a 600-percent 
expansion in the number of Syrian refugees allowed into this 
country, going from about 1,600 a year to a figure of at least 
10,000, as the President mentioned. I think, Secretary, you 
clarified that number today.
    So, while humanitarian concerns are certainly warranted--we 
know that--I know that you would all agree with me that the 
President's actions certainly raise some real security risks 
here at home.
    Director Comey, you have recently testified before the 
Senate that, while we do have a robust screening process here, 
I think you did acknowledge that at the same time there are 
some information gaps in our databases that we use to screen 
these individuals. Is that correct?
    Mr. Comey. That is correct.
    Mr. Ratcliffe. Okay.
    But, again, I know you all agree that it is also vitally 
important that we understand who is coming into this country to 
the best of our ability, especially when we also know that ISIS 
has expressed an interest and an intent in using the refugee 
process to get in the United States.
    That is also a fact, isn't it, Director?
    Mr. Comey. Yes. I think Director Rasmussen testified to 
that just a few minutes ago.
    Mr. Ratcliffe. All right. So with that in mind, I think we 
are all agree that it is imperative these decisions be made on 
an humanitarian basis, but also with respect to National 
security in mind, and each of you and your respective teams are 
full of extremely talented, capable, dedicated folks that can 
inform these decisions, and so I want to find out the extent to 
which they were utilized.
    Was the figure announced by the President of 10,000, was 
that the product of a thorough analysis by your respective 
agencies? I will start with you, Secretary.
    Secretary Johnson. The announcement of 10,000 was the 
product of considerable interagency discussion. My Department 
and USCIS was certainly consulted in arriving at that number. 
It is, as I think you noted very definitely, striking a balance 
between what we know we can accomplish with the resources we 
have, and not shutting our eyes and our doors to what is really 
a horrible world situation and doing our part to try to 
alleviate it. But yes, we were consulted, sir.
    Mr. Ratcliffe. Great. Thank you.
    Director Comey.
    Mr. Comey. That is my understanding as well. There was an 
interagency process run through the National Security Council, 
and the FBI was a participant in those conversations.
    Mr. Ratcliffe. Okay. Director Rasmussen.
    Mr. Rasmussen. The same as well.
    Mr. Ratcliffe. Okay. Thank you.
    Director Rasmussen, I want to talk to you a little bit. 
Back in June, we held a hearing at this committee called 
``Terrorism Gone Viral,'' and it really examined the terrorist 
attack in Garland, Texas, which is just outside of my district, 
and related to ISIS's use of the social media, which is 
something that we have all talked about a lot today.
    In our June hearing, I really tried to get answers on the 
issue of why ISIS has been so skillful in this area relative to 
other foreign terrorist organizations. I asked about whether or 
not it was due to better funding, or whether it was certain 
individuals within the group. The responses I got were largely, 
well, the internet hadn't really developed when al-Qaeda was 
going; social media wasn't as pervasive until recently. But I 
think those responses ignored the fact that, you know, at 
present, other terrorist organizations certainly exist, but it 
appears that ISIS still remains uniquely skilled in this area.
    So you gave some testimony recently in an exchange with 
Senator Johnson at the Homeland Security Committee in the 
Senate, and I wanted to ask you a little bit about that. Maybe 
it relates to--I know there were reports in September that 
ISIS's social media activities seem to ramp down following the 
death of Junaid Hussain, but I guess I want to know your 
opinion. Is ISIS unique in recruiting foreign fighters and 
inspiring lone-wolf attackers? Is that a product of some unique 
capability that they have? If not, are there other factors, or 
what are the other factors that make ISIS so skillful in this 
area?
    Mr. Rasmussen. I hesitate to use the word ``unique,'' 
because, you know, the capabilities that they are using to 
mobilize potential fighters or terrorists, those aren't 
necessarily things that can't be transferred or adopted by 
other groups going forward. I think the innovation that ISIL, 
as an organization, undertook that differentiated it from al-
Qaeda in a significant way was that ISIL truly did aspire to be 
a mass movement.
    In creating the caliphate, the idea was to populate the 
caliphate with individuals all around the world. Al-Qaeda 
traditionally and typically operated as a clandestine terrorist 
movement, where vetting processes and letting individuals into 
the group was a very serious business. So you did not see al-
Qaeda--I would argue they probably didn't have the tools to do 
this, but they were not seeking to create a mass organization 
capable of controlling territory the way Iraq--in Iraq and 
Syria the way ISIL has.
    So I would hate to rule out, though--or I would hesitate to 
rule out that other terrorist organizations could not adopt the 
same kinds of skillful techniques that ISIL has.
    Mr. Ratcliffe. Thank you.
    I yield back.
    Chairman McCaul. I was just informed that--for the Members, 
that Director Comey has a hard stop at 12:30. So just take that 
into consideration.
    The Chair recognizes Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    Gentlemen, my colleagues have articulated the incredible 
responsibility you all have protecting our country from 
domestic homegrown radicalized individuals to people who are 
overseas who want to attack our country to fighting mass--
possible mass destruction in our country to lone wolves 
shooting up people who are worshipping in a church in the 
South. Tremendous. I want to just touch on something that no 
one has touched on yet, and that is the possibility of nuclear 
devices.
    Director Comey, your agents have done a remarkable job in 
thwarting smugglers from trying to equip ISIS with nuclear 
materials. Recently, one was reported, and I think there were 4 
others, or 5 others, during the last few years.
    Are we getting some assistance from some of the former 
Soviet countries? Russia also would be threatened by this. What 
other materials possibly should we be looking towards other 
than just nuclear devices? Certainly, I know there are other 
materials that have been harmful to our country, but what other 
materials that people like these--ISIS or al-Qaeda other groups 
are looking to use against our country?
    Mr. Comey. Thank you, Congressman. The answer is we get 
cooperation across the board on this, because whatever people's 
political difference is, everybody understands the threat posed 
by radiological nuclear chemical biothreats. So we have 
invested as a country, and the FBI in particular, in building 
relationships with our counterparts, you know, a whole host of 
Eastern European countries, the former Soviet States there, so 
that is a good news story.
    The challenge we all face is, ISIL's mission is simply to 
kill a lot of people. So they are not in love with any 
particular tool, as long as it will kill people. So we focus 
on, obviously, devices themselves, but also radiological 
materials, that might--a cesium that might be used to terrify 
people or to injure people, a long-term radiological illness. 
So there is a broad spectrum there.
    As I said earlier, we have folks in the FBI, and I know my 
partners here do, that wake up every day focused just on this, 
because we see the threat as low probability, huge impact.
    Mr. Donovan. Thank you, my fellow New Yorker. My other 
fellow New Yorker, Secretary Johnson. Yesterday Congress passed 
a bill of mine to authorize Securing the Cities, a pilot 
program that your agency started back in 2006, very successful 
in New York, New Jersey region, expanded to Houston, Los 
Angeles, Long Beach area, District of Columbia. The efforts 
that you are making there, because we are expanding, do you 
have the resources to continue the success of that program in 
the future, because it has been remarkably successfully in our 
area, where you and Director Comey and I come from, and the 
successes that we have heard from my colleagues are just 
remarkable.
    Secretary Johnson. My assessment of the Securing the Cities 
program is that it has been very successful, and it is very 
important and very valuable. So thank you for your support for 
it. As you noted, we have moved to other cities, and I think we 
need more of that. We try to do three or more cities at a time, 
but--it is a valuable program, and I know that there are more 
cities out there that can definitely benefit from this.
    Mr. Donovan. I am sorry, Mr. Rasmussen. If you are not from 
New York, I am not going to ask you a question.
    My time is up. Thank you.
    I yield the rest of my time, Mr. Chairman.
    Chairman McCaul. I thank you for that. The Chair recognizes 
Mr. Richmond.
    Mr. Richmond. First of all, let me thank the Chairman and 
the Ranking Member and thank the witnesses who do a very 
difficult job and very difficult circumstances with ever-
changing technology.
    I would hate to be in your job. But let me just ask, and I 
know there is a lot of talk about a number of issues, but I am 
going to get a little local in my area, because we do have the 
largest petrochemical footprint in the United States in my 
district, and we also have millions and millions of visitors 
that come, and then we also have the largest port complex in 
the United States in my district.
    So as you all share intelligence, and as you all go about 
protecting the homeland, how worried are you all about our port 
security, our chemical facility security, our refinery 
security, and our ability to protect them?
    Secretary Johnson. Well, let me begin with that. New 
Orleans is a confluence of things that we in Homeland Security 
are concerned about, as you have laid out in your question, 
Congressman. Given the--and so it is rightly on our radar.
    Given the nature of the threat we face, it is difficult to 
rank with any real degree of certainty where we should focus on 
and what we should not focus on. For example, I think all of us 
would agree that prior to this summer, we didn't have any 
particular reason to put Chattanooga, Tennessee high on 
anybody's list. So given the--given the range of threats we 
face, we have to be vigilant in a bunch of different places, 
but certainly port security, maritime security, and the other 
things that converge in New Orleans are areas where I know many 
aspects of our Department are focused in.
    Mr. Richmond. Mr. Comey.
    Mr. Comey. Congressman, I don't think I have anything to 
add to what Jeh said. Except, you know, because we have a lot 
of folks working in your district, it is a big focus of our 
work. We do face a large array of threats, but we try to focus 
resources on the big attractants for terrorist activity to try 
and make it harder for them, and a big piece of that is 
focusing on ports, on tourist locations, and on travel 
locations.
    Mr. Richmond. Let's spend just a quick second talking about 
the encryption and the back door. I guess my question, and I 
guess it is a technical question, that if our tech companies 
create the back door, aren't there apps or over-the-counter 
things that would also allow people to encrypt it, or are you 
all pretty confident that you can access data through any over-
the-counter encryption?
    Mr. Comey. Thank you for that question. As I said to 
Congressman Hurd earlier, I resist the term ``back door,'' 
because mostly I don't understand what it means. What we are 
looking for is a world in which, ideally, when judges issue 
court orders to search a device or to intercept communications, 
companies are able to comply with that. Today, lots of the most 
sophisticated internet service providers are able to comply. 
Their systems, no one is telling me, are fatally insecure. Like 
some of the biggest email providers in the world, based in the 
United States, comply with our court orders. So I actually 
don't think the problem is one of technology, I think it is one 
of business model. There are lots of companies who have said: 
We will never do this for the Government. So that is a problem 
we have to figure out how to solve.
    But here is the bad news: Commercially-available 
encryption, strong encryption, we cannot break it. So we find 
ourselves getting court orders from judges. We make a showing 
of probable cause, judge gives us permission for a limited 
period of time to intercept, we can't unencrypt that data, so 
we are out of luck. So we have to figure out other ways to try 
and make that gang case, that kidnapping case, or that 
terrorism case.
    Mr. Richmond. Thank you. I see my time has expired. I yield 
back.
    Chairman McCaul. Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman.
    This morning, The Daily Caller reported that the U.S. 
attorney for the Eastern District of Virginia has indicted two 
senior NASA managers, NASA managers, at the Langley Research 
Center for willfully violating National security regulations 
while allowing a visiting Chinese foreign national to gain 
complete and unrestricted access to the Center.
    If this wasn't troubling enough, the article reports that 
in the wake of this case involving alleged espionage by a 
Chinese national, and now foreigners have more, not less, 
access to NASA operations at present.
    Before the Bo Jiang case, all foreign nationals, including 
green card holders, could be monitored and restricted. But now 
green card holders are treated like U.S. citizens with 
unrestricted access to all parts of the space research 
facility. It quotes a senior NASA official as saying, ``If you 
have a green card, your allegiance may still be to China, but 
the green card gets you legal authority to work in the United 
States; therefore, we don't track them. They don't have any 
restrictions to transfer technology-controlled plans. They are 
given access to the same exact way as a U.S. citizen, because 
they have a green card.''
    First, I would like to commend Director Comey and the FBI 
for their role in pursuing this case over the last several 
years. But, second, I would like to ask the panel whether this 
is common practice that non-U.S. citizens holding green cards, 
but with sworn allegiance to other countries, have the same 
access and privileges as a U.S. citizen at NASA centers and 
other facilities that may be of interest to foreign intelligent 
services? If so, why?
    Secretary Johnson. I am sure that Nick and Jim have their 
own answers to this. I will just say--I haven't read the 
particular article, Congressman, that you are referring to. I 
have been in countless places in Government buildings, 
sensitive areas, where the sign says, U.S. citizens only, who 
obviously have their requisite security clearances. I can't 
tell you the number of places where I see that. It is fairly 
common. I don't know about the particular circumstance that you 
are referring to there, but I will be happy to refer to my 
friends here.
    Mr. Comey. Congressman, obviously, because the case is 
pending, I am not going to comment on the case. I thank you for 
the kind words about our folks who worked hard on it. I think 
the issue that you are talking about with NASA is about access 
by foreigners to Unclassified information. As Secretary Johnson 
said, there is a whole regime that is very tight around what 
access foreigners might get to Classified information. I think 
the issue there is when green card holders wander around a 
space that is not Classified, what of America's information can 
they see there. Honestly, I am not smart enough on the issue 
right now to talk to you about in this forum, but it is 
something we have to get smarter about.
    Mr. Barletta. Sure.
    Mr. Rasmussen. With respect to my organization, we operate 
in a highly Classified environment, and any foreign national or 
nonsecurity clearance holding individual would be required to 
be strictly escorted around our facility, again, as in any 
place in the intelligence community.
    Mr. Barletta. Do you think this committee should look at 
changing security laws and access by green card holders to 
bolster defense at these Federal facilities, or are you 
satisfied with what we have in place?
    Mr. Comey. I will answer with another that I don't know. 
Again, with respect to access to Unclassified information, I 
don't know enough about the issue sitting here to offer you a 
view on it.
    Secretary Johnson. I would have to give the same answer, 
sir.
    Mr. Rasmussen. Again, because I operate only in the 
Classified space, so it is difficult to answer in the 
Unclassified.
    Mr. Barletta. I would like to thank you all of you for your 
testimony today. It was very helpful.
    Thank you, Mr. Chairman.
    Chairman McCaul. Thank you.
    Mr. Loudermilk.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    I guess I am bringing up the rear here. First of all, thank 
you all for what you are doing to protect America. Very 
difficult time we live in. It seems like every committee--and I 
apologize I wasn't here for all the questioning. I listened to 
your statements, but another committee hearing dealing with 
vulnerabilities of our power grid. So it seems like most of the 
committees I am on is something dealing with security.
    Question, I want to go back to the refugee situation. I 
apologize if I am redundant on some of the questions. I don't 
think they have been asked. But the concern I have, yes, we are 
a very humanitarian Nation, I think we do have some 
responsibility there. But our priority is securing this Nation 
and the people of this Nation. I have read reports that of the 
Syrian refugees, 72 percent of them are young males while 28 
percent are women and children under the age of 11. The 
question I have for whoever has the information is, to your 
knowledge, is that true, and if it is not, what is the 
breakdown? If it is, why is there such a disparity?
    Secretary Johnson. Congressman, I don't recall what the 
percentage breakdown is. I have heard a number, but I don't 
recall what it is. I don't know the accuracy of that 72, 28 
percent number, but we can certainly get you what we know to be 
the case.
    Mr. Loudermilk. Mr. Rasmussen.
    Mr. Rasmussen. I am in the same position.
    Mr. Comey. The same.
    Mr. Loudermilk. It is very concerning to me with that 
response that we are considering bringing in refugees, and we 
don't know that--what the breakdown of the percentage of 
these----
    Secretary Johnson. Well, sitting here, I don't know. It is 
a piece of data that we have. I just don't know sitting here.
    Mr. Loudermilk. All right. I appreciate the candor there.
    How are we going to monitor these folks? I mean, I have 
also read reports that al-Qaeda, ISIS, have also said that 
their intention is to exploit the refugee crisis and to use 
that to infiltrate operatives into various countries. I mean, 
how are we going to monitor these folks? Do we have plans going 
forward?
    Secretary Johnson. Congressman, as we discussed previously, 
there is that concern. We know that organizations such as ISIL 
might like to try to exploit this program, and it is for that 
reason that while we are going to do what we have committed to 
do for humanitarian reasons, you know, this is a world-wide 
crisis, we are talking about 10,000 people, I am committed that 
we do it carefully, and we vet these people as carefully as we 
can.
    We live in a world where one failure is the equivalent of 
10,000 successes. So, I think we are all committed, with the 
improved process we have, to do the best we can deliberately as 
we can with regard to each individual applicant for refugee 
status here.
    Mr. Loudermilk. Do we have the resources to do this? Are we 
already stretched thin, and we are just going to be adding so 
much more to our vulnerabilities by going through this process?
    Secretary Johnson. We are very busy. Our overall commitment 
in fiscal year 2015 was 75,000 world-wide. Next year--this 
year, we have committed to taking in a little more, 85, 10,000 
of which will be Syrians. The director of USCIS has developed a 
plan along with the State Department to make sure we have 
adequate resources to vet these people.
    Mr. Loudermilk. Of the--last question, and I yield back. I 
know we all have other things we need to be doing, but this is 
very critical.
    Are we--do we have a system of prioritization? Like, we 
know that certain religious groups, Christians, for example, 
are the most at risk in some of these areas. Are we going to 
prioritize those that are greatest at risk to allow them in?
    I have read reports that some of the Christian Syrian 
refugees are having a difficult time coming to the United 
States and some other countries. Is that true?
    Secretary Johnson. I would have to get back to you and take 
that one for the record, sir.
    Mr. Loudermilk. Okay. Well, I appreciate that.
    Again, thank you for what you are doing. I am greatly 
concerned over where we are going with the refugee crisis.
    Mr. Chairman, I yield back.
    Chairman McCaul. If I could just add to that. It is 
unfortunate the Gulf states have not agreed to take one Syrian 
refugee. They are seeing the Arabs, and those are Sunni Arab 
populations. They certainly have the wherewithal.
    But in closing, let me just say thank you to all three of 
you, and to the men and women in your organizations who every 
day wake up to protect Americans from the threats that we face. 
I think you have done an extraordinary job stopping so many of 
these threats, many that we know about, and many that the 
American people don't know about.
    The challenges are enormous, and the threats are grave, but 
on behalf of the Congress, let me just say thank you, again, 
for what you do day in and day out.
    With that, this committee stands adjourned.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Questions From Honorable Scott Perry for Honorable Jeh C. Johnson
    Question 1a. Last week, during a commencement speech at Stanford 
University, U.S. National security advisor Susan Rice, stated that 
``climate change is a direct threat to the prosperity and safety of the 
American people.'' In a hearing my subcommittee held earlier this year, 
it was noted that while the Department has released 13 strategic 
documents related to climate change--Quadrennial Homeland Security 
Review, Climate Change Adaptation Report, Climate Change Adaptation 
Roadmap, DHS Climate Action Plan, to name a few, only two--possibly a 
third-- strategic documents related to countering violent extremism 
exist. In addition, while the Department requested $16 million on 
climate change activities for fiscal year 2016, there was no request to 
fund activities related to countering violent extremism. Does the 
Department consider violent extremism less of a direct threat to the 
prosperity and safety of the American people than climate change?
    More specifically, how has the Domestic Nuclear Detection Office 
(DNDO) reacted or adjusted their focus, if at all?
    Answer. DHS prepares for a multitude of threats and hazards (man-
made and natural) that include the impacts of climate change and the 
threat of violent extremism. Violent extremism is neither limited by 
international borders nor to any single ideology. Groups and 
individuals inspired by a range of religious, political, or other 
ideological beliefs have promoted and used violence in the United 
States or against U.S. interests to try to force political, economic, 
or social change.
    Our approach to countering violent extremism emphasizes the 
strength of local communities. Well-informed and well-equipped 
families, communities, and local institutions represent the best 
defense against violent extremists. While our primary purpose is to 
prevent a terrorist or violent extremist attack by an individual or 
group recruited by a violent extremist organization--or inspired by a 
violent extremist ideology--we also support stronger and safer 
communities as important ends themselves. This is a critical priority 
for all of DHS.
    DHS has recently undertaken a number of actions to improve and 
prioritize CVE efforts further. In September 2015 we established the 
Office for Community Partnerships (OCP) OCP's mission is to ``develop 
and implement a full-range of partnerships to support and enhance 
efforts by key stakeholders to prevent radicalization and recruitment 
to violence by terrorist organizations. The Office will leverage the 
resources and relationships of the Department of Homeland Security and 
apply the personal leadership of the Secretary to empower leaders in 
both the public and private sectors to spur societal change to counter 
violent extremism.'' OCP's major objectives are:
  <bullet> Philanthropic engagement.--OCP will engage the philanthropic 
        community to facilitate long-term partnerships with 
        communities;
  <bullet> Tech sector engagement.--OCP will engage the tech sector to 
        empower credible voices in vulnerable communities against 
        violent extremism;
  <bullet> Community engagement.--OCP will conduct a community 
        engagement roadshow that engages DHS Senior Leadership with 
        vulnerable communities;
  <bullet> Field support expansion and training.--OCP will strengthen 
        and expand DHS field staff with training and connecting them to 
        support local communities and front line law enforcement 
        engaged in CVE efforts;
  <bullet> Grant support.--OCP will work with FEMA to increase access 
        to grants that support CVE initiatives.
    Key stakeholders and partners working with OCP range from local law 
enforcement, to the private sector, to civil society. OCP works with 
local, State, Tribal, territorial, and Federal law enforcement by 
providing training, exercises, and technical assistance. Influential 
community leaders such as religious leaders, city councils, and local 
NGOs work directly with OCP field staff in identifying issues specific 
to that community, conducting CVE community exercises, and voicing 
concerns at community roundtables. Congress is supporting this effort, 
and in this year's spending deal, approved a $50 million grant program 
to be administered by DHS to address violent extremism, which includes 
up to $10 million allocated towards prevention efforts. The Office for 
Community Partnerships will use this $10 million to help non-Government 
efforts to counter violent extremism.
    Further, the administration recently announced the creation of the 
Countering Violent Extremism Task Force, which is an interagency effort 
tasked with organizing Federal CVE efforts. The CVE Task Force will be 
hosted and led by DHS for the first 2 years; afterwards, the Department 
of Justice will assume leadership for 2 years, after which it is 
expected that leadership will rotate. It will consist of staffing from 
agencies and departments such as the Federal Bureau of Investigation 
and the National Counterterrorism Center. The main objectives of the 
interagency task force are:
  <bullet> Research and Analysis.--The task force will coordinate 
        Federal support for on-going and future CVE research and 
        establish feedback mechanisms for CVE findings, thus 
        cultivating CVE programming that incorporates sound results.
  <bullet> Engagements and Technical Assistance.--The task force will 
        synchronize Federal Government outreach to and engagement with 
        CVE stakeholders and will coordinate technical assistance to 
        CVE practitioners.
  <bullet> Communications.--The task force will manage CVE 
        communications, including media inquiries, and leverage digital 
        technologies to engage, empower, and connect CVE stakeholders.
  <bullet> Interventions.--The task force will work with CVE 
        stakeholders to develop multidisciplinary intervention 
        programs.
    DNDO remains singularly focused on the threat of radiological and 
nuclear terrorism, regardless of the cause. Our current analytical 
methodologies account for adversaries by their level of capability, 
which includes a span of possibilities from state-sponsored groups to 
lone actors. DNDO remains committed to understanding how the threat of 
radiological and nuclear terrorism will evolve in the future and 
ensuring our defensive investments are targeted appropriately. DNDO 
also remains committed to ensuring that the Nation maintains 
operationally-ready technical nuclear forensics capabilities so that 
the United States can hold fully accountable any State, terrorist 
group, or other non-state actor that supports or enables terrorist 
efforts to obtain or use radiological or nuclear weapons or materials 
out of regulatory control.
    Question 1b. Has DNDO highlighted any gaps in the Global Nuclear 
Detection Architecture (GNDA) that could account for these recently-
documented smuggling attempts?
    Answer. DNDO views the recently documented disruptions of smuggling 
attempts to be positive examples of success for the layered defense 
upon which the Global Nuclear Detection Architecture (GNDA) is based. 
In particular, these examples highlight the international cooperation 
that DNDO and its interagency partners pursue on a daily basis. While 
gaps exist in the individual layers of the GNDA, DNDO works 
collectively to make the illicit acquisition, fabrication, and 
transport of a nuclear or radiological device or material an 
increasingly difficult endeavor for terrorists. In conjunction with our 
interagency colleagues, we continue to work with our international 
partners to bolster their defensive capabilities and improve the 
overall effectiveness of the GNDA.
    Question 2a. Given the requirement for expediting Syrian refugee 
resettlements, are DHS assets adequate to conduct thorough security 
screening of refugee applicants?
    Question 2b. Has USCIS engaged in additional cross-training 
opportunities with the IC?
    Answer. The security vetting for refugees is the most robust 
screening process for any category of individuals seeking admission 
into the United States. The process is multi-layered and intensive, 
involving multiple law enforcement, National security, and intelligence 
agencies across the Federal Government. Additional enhancements have 
been added with regard to Syrian refugees. DHS and the Department of 
State continually evaluate whether more enhancements are necessary and 
coordinate with the intelligence and law enforcement communities.
    All refugee applicants, including Syrians, may only be admitted to 
the United States after all security checks are completed. With every 
refugee application, the burden of proof is on the applicant to show 
that he or she qualifies for refugee status. The law requires refugee 
applicants to provide information that establishes their identity and 
allows U.S. Citizenship and Immigration Services (USCIS) to assess 
whether they present a security risk to the country. If USCIS does not 
have enough information to reach a sound decision, or if fact patterns 
evident in the case raise questions that are not satisfactorily 
addressed by the refugee applicant, the refugee case is placed on hold 
until those issues can be resolved, or it is denied. Below is a 
detailed account of the vetting steps conducted for refugee applicants, 
including security checks, and multiple interviews.
    For every refugee applicant, the Department of State conducts 
biographic checks of the refugee's primary name and any aliases against 
its Consular Lookout and Support System database (CLASS). CLASS 
includes watch list information from the Terrorist Screening Database 
(TSDB), the Drug Enforcement Administration, the Federal Bureau of 
Investigation's (FBI) Terrorist Screening Center, and Interpol, 
including criminal history, immigration history, and records of any 
prior visa applications submitted by the applicants. Significantly, for 
individuals meeting certain criteria, the Department of State also 
requests a Security Advisory Opinion name check against law enforcement 
and intelligence databases. In addition, the Department of State 
initiates an interagency check against intelligence community holdings, 
including the National Counterterrorism Center. These latter two 
enhanced biographic checks are conducted for all refugee applicants 
within a designated age range, regardless of nationality. These 
biographic checks do not occur only once, but are repeated throughout 
the vetting process to ensure that adjudicators consider the most up-
to-date information available to the U.S. Government.
    USCIS also collects biometric information, consisting of 
photographs and fingerprints, for refugee applicants of certain ages. 
USCIS coordinates the screening of refugee applicant fingerprints 
against the vast biometric holdings of the FBI's Next Generation 
Identification system, and DHS's Automated Biometric Identification 
System (IDENT). Through IDENT, applicant fingerprints are screened not 
only against watch list information, but also for previous immigration 
encounters in the United States and overseas--including, for example, 
cases in which the applicant previously applied for a visa at a U.S. 
embassy. Working with DHS, the Department of Defense (DOD) augments 
biometric screening on refugee applicants of all nationalities who fall 
within the prescribed age ranges by checking the fingerprints of 
refugee applicants against their own database.
    In addition to biographic and biometric system checks, refugee 
applicants undergo a series of interviews including an interview with 
Department of State contractors who interview the applicant to confirm 
information about the case, collect identification documents, and 
obtain biographic data.
    After this prescreening occurs, the case is referred to a highly-
trained USCIS officer responsible for conducting refugee status 
interviews overseas and making the eligibility determination. In 
addition to the basic training received by all USCIS officers, refugee 
officers undergo 5 weeks of specialized and extensive training that 
includes comprehensive instruction on all aspects of the job, including 
refugee law, grounds of inadmissibility, fraud detection and 
prevention, security protocols, interviewing techniques, credibility 
analysis, and country conditions research. USCIS officers conduct 
extensive interviews with each refugee applicant to develop all 
relevant issues related to eligibility for refugee resettlement and 
admissibility to the United States. These interviews provide the U.S. 
Government a very useful tool for gathering information about a refugee 
applicant that may not already exist in a database. Officers receive 
additional training on country conditions and issues specific to the 
populations they will be interviewing. Before they may interview 
refugee applicants from the Middle East, USCIS has instituted Middle 
East-specific training for officers adjudicating cases with Iraqi and 
Syrian applicants. This training includes additional information on 
country conditions, armed groups operating in Iraq and Syria and a 
Classified briefing.
    Additionally, USCIS Headquarters staff provides an additional level 
of scrutiny by reviewing all Syrian refugee applicant cases prior to 
the USCIS officer interview to identify potential National security 
concerns. For cases with potential National security concerns, USCIS 
Headquarters staff conducts both open-source and Classified research on 
the facts presented and synthesizes an evaluation for use by the 
interviewing officer. This information provides case-specific context 
relating to country conditions and regional activity and is used by the 
interviewing officer to develop lines of inquiry related to the 
applicant's eligibility and credibility.
    Before an approved refugee arrives in the United States, U.S. 
Customs and Border Protection (CBP) at DHS receives a manifest of all 
refugees who have prior approval to travel to the United States. As 
part of CBP's Pre-Departure targeting operations, CBP gathers 
information and assesses risk and conducts pre-departure screening for 
all international flights arriving to the United States by commercial 
air. CBP receives this manifest in advance of a refugee's scheduled 
travel. The agency performs initial vetting before arrival at a Port of 
Entry and then conducts additional background checks of these subjects 
upon arrival. CBP Officers inspect and interview all refugees applying 
for admission to verify identity and admissibility as refugees.
    A refugee applicant cannot be approved for travel and admission to 
the United States until all required security checks have been 
completed and cleared. Bottom line--under the current system, if there 
is doubt about whether an applicant poses a security risk, that 
individual will not be admitted to the United States as a refugee.
    Question 3. USCIS adjudicators should be trained in interview 
techniques, common tactics used by fraudulent/deceitful actors, 
information gathering/verification methods, regional/cultural 
knowledge, and local linguistic trends (names/aliases) for translators.
    Answer. Recognizing that a well-trained cadre of officers is 
critical to protecting the integrity of the refugee process, we have 
focused our efforts on providing the highest-quality training to our 
adjudicating officers. In addition to the basic training required of 
all USCIS officers, refugee officers receive 5 weeks of specialized 
training that includes comprehensive instruction on all aspects of the 
job, including refugee law, grounds of inadmissibility, fraud detection 
and prevention, security protocols, interviewing techniques, 
credibility analysis, and country conditions research. Before deploying 
overseas, officers also receive pre-departure training which focuses on 
the specific population that they will be interviewing. This includes 
information on the types of refugee claims that they are likely to 
encounter, detailed country of origin information, and updates on any 
fraud trends or security issues that have been identified. With the 
advent of large-scale processing of Iraqi applicants in 2007, USCIS 
officers who adjudicate Iraqi refugee applications began receiving 
additional 2-day training on country-specific issues, including 
briefings from outside experts from the intelligence, policy, and 
academic communities. This training has since expanded to a 1-week 
training in order to include Syria-specific topics as well.
    In order to fully explore refugee claims and to identify any 
possible grounds of ineligibility, specially-trained USCIS officers 
conduct an in-person, in-depth interview of every principal refugee 
applicant. The officer assesses the credibility of the applicant and 
evaluates whether the applicant's testimony is consistent with known 
country conditions. These adjudicators also interview each accompanying 
family member age 14 and older to determine their admissibility to the 
United States. In addition, refugee applicants are subject to robust 
security screening protocols to identify potential fraud, criminal, or 
National security issues. All refugee status determinations made by 
interviewing officers undergo supervisory review before a final 
decision is made. Refugee Affairs Division policy requires officers to 
submit certain categories of sensitive cases--including certain 
National security-related cases--to Refugee Affairs Division 
Headquarters to obtain concurrence prior to the issuance of a decision. 
This allows for Headquarters staff to conduct additional research, 
liaise with law enforcement or intelligence agencies, or consult with 
an outside expert before finalizing the decision.
Questions From Honorable Earl L. ``Buddy'' Carter for Honorable Jeh C. 
                                Johnson
    Question 1. To what extent is the DHS working to address the 
National shortage of trained and educated cybersecurity professionals 
who are needed not only by Government, but by industry?
    Answer. The Department leads the National cybersecurity public 
awareness, education, training, and workforce development efforts to 
create a more resilient and capable Nation, which includes not only the 
Government, but the private and non-profit sectors as well. Through 
this work, the Department continues to support building resilient, 
cyber capable communities, to ensure current and future cyber 
operational requirements will be met through a skilled cybersecurity 
workforce.
    The process of developing a strong, resilient cybersecurity 
workforce must begin before college.
    As such, the Department issued the competitive Cybersecurity 
Education and Training Assistance Program (CETAP) grant to provide 
cyber education for middle school and high school teachers and 
students.
    The CETAP grant supports development of cybersecurity-integrated 
middle school and high school curricula, which high schools across the 
country can adopt and offer to numerous students each year. The 
Department plans to leverage this curriculum and provide free, on-
demand training to public school teachers Nation-wide through the 
Federal Virtual Training Environment (FedVTE). Using a virtual 
capability to reach teachers in any location, at any time, will provide 
for a tremendous flexibility to reach a broad audience. The curricula 
developed through CETAP are already free and available for download to 
all U.S. teachers.
    The CETAP grant also provides cyber education summer camps, with 
the primary goal of educating high school teachers who return to their 
schools prepared to educate students on cyber-related content across 
multiple academic disciplines. Cyber education camps will be held in 
three communities in the summer of 2016, with more than 30 high schools 
participating. Upon completion of summer camp, the Department estimates 
each teacher will educate approximately 120 students over the course of 
an academic year.
    DHS/NPPD also supports cyber competitions for middle school and 
high school students through its sponsorship of the annual Air Force 
Association CyberPatriot competition, steering participating students 
toward cybersecurity careers and studies. Since 2009, the program has 
experienced per annum growth of more than 20 percent.
    At the college level, DHS partners with the National Security 
Agency (NSA) to co-lead the National Centers of Academic Excellence 
(CAE) program. The CAE program promotes higher education and research 
in Information Assurance and Cyber Defense, producing a growing 
pipeline of professionals with cybersecurity expertise in various 
disciplines. There are now over 191 academic institutions with CAE 
designation in 46 States, the District of Columbia, and Puerto Rico. 
CAE graduates fill cybersecurity roles across the country, including in 
the private sector.
    DHS also partners with the National Science Foundation (NSF) and 
the Office of Personnel Management to co-sponsor the CyberCorps: 
Scholarship for Service (SFS) program. The SFS program provides 
competitive awards to multiple colleges and universities with existing 
strong academic programs in cybersecurity to fund cybersecurity 
scholarships. Students receive SFS scholarships for up to 3 years to 
study cybersecurity, after which they must work for a Federal, State, 
local, or Tribal government organization in a position related to 
cybersecurity for a period of service equivalent to the length of their 
scholarship.
    To train State and local law enforcement professionals, the Secret 
Service operates the National Computer Forensics Institute (NCFI). The 
National Computer Forensics Institute (NCFI), located in Hoover, AL, is 
a Federally-funded training center dedicated to instructing State and 
local law enforcement officers, prosecutors, and judges in digital/
cyber crime investigations. The NCFI was opened in 2008 through 
collaboration between the U.S. Secret Service (Secret Service), the 
Department of Homeland Security (DHS), and the State of Alabama, with a 
mandate to provide State and local law enforcement, legal, and judicial 
professionals a free, comprehensive education on current cyber crime 
trends, investigative methods, and prosecutorial challenges. Its more 
than 4,000 students have included personnel from all 50 States, three 
U.S. territories, and over 1,500 agencies Nation-wide. The Secret 
Service plans to hold over 46 classes and train an estimated 1,200 
personnel.
    DHS Science and Technology Directorate (S&T) also supports cyber 
competitions for all ages through the U.S. Cyber Challenge, which 
presents on-line challenges focused on fundamental cybersecurity skills 
where the top scorers are invited to go to cybersecurity camps to 
participate in classroom learning. In addition, DHS S&T supported the 
development of the National Collegiate Cyber Defense Competition, where 
teams of college students are charged with maintaining and defending a 
business interest from concentrated, orchestrated attacks from a red 
team. DHS S&T is also engaged in building a community of cybersecurity 
professionals, private and public sector, to maintain and enhance their 
skills through competitions through the http://cybercompex.org portal, 
an on-line community focused on cybersecurity and cybersecurity 
competitions.
    S&T is also supporting the development of a curriculum development 
tool for educators to create cybersecurity learning objectives in fun, 
easy-to-learn branching story-telling and knowledge checks.
    In addition to supporting formal education initiatives, the 
Department also provides free on-line cybersecurity training through 
FedVTE. An on-line training platform, FedVTE provides Government 
cybersecurity and IT professionals with hands-on labs and training 
courses. Annually, FedVTE aids in addressing training gaps for more 
than approximately 60,000 cybersecurity professionals across the 
Government. The environment is accessible from any internet-enabled 
computer and is free to users and their organizations. This program 
saves the Federal Government approximately $72 million in training 
costs annually. Although originally intended for a Federal Government 
audience, DHS has recently granted access to State, local, Tribal, and 
territorial Government employees and to U.S. veterans.
    Finally, the DHS National Initiative for Cybersecurity Careers and 
Studies (NICCS) portal represents a key component that promotes the 
National Cybersecurity Workforce Framework, which includes tools and 
resources for organizations focused on cybersecurity workforce and 
information for individuals about cybersecurity careers. The NICCS 
portal makes resources available to the American public, including the 
private sector, assisting users of all ages in locating cybersecurity 
learning opportunities and careers. The NICCS portal also hosts the 
National Cybersecurity Training Catalog--a clearing house of 
cybersecurity or cybersecurity-related education and training courses 
offered across the United States; the Cybersecurity Workforce 
Development Toolkit--a guide to building an organization's 
cybersecurity workforce and provides easy access to the FedVTE training 
portal.
    Question 2. Has DHS looked at partnering with academia like 
Armstrong State University in Savannah, Georgia to further assist in 
seeding growth to meet future needs of the Nation?
    Answer. DHS partners with NSA to co-lead the CAE program, which 
enables collaboration with the nearly 200 colleges and universities 
with CAE designation. DHS/NPPD has directly partnered with CAEs in the 
past to further the cause of meeting the future needs of the Nation in 
cybersecurity. For example, in fiscal year 2012, DHS/NPPD funded 
projects at the University of Washington, Dakota State University, the 
University of Texas at San Antonio, and Mississippi State University to 
demonstrate the importance of cybersecurity in critical infrastructure 
protection.
    Each academic institution with one or more CAE designations 
contributes significantly to the growth of a strong and dependable 
pipeline of cybersecurity employees, by providing interns and graduates 
who will enter the workforce armed with the most current and in-demand 
cybersecurity knowledge that employers seek. Further, to receive 
designation, each CAE must demonstrate that their cybersecurity 
curriculum maps to core and optional knowledge units, thus 
demonstrating that their curriculum meets the Nation's cybersecurity 
needs.
    Although Armstrong State University is not currently a designated 
CAE, if Armstrong State University wishes to apply for CAE designation, 
its representatives should visit https://www.iad.gov/NIETP/
CAERequirements.cfm to learn more about the program requirements.
    Question 3. How does DHS engage with academic institutions, such as 
Armstrong State University, to encourage the adoption of best practices 
and find common solutions to our most pressing cybersecurity concerns?
    Answer. DHS engages with academic institutions across the country, 
including in multiple States, the District of Columbia and the 
Commonwealth of Puerto Rico, primarily through its co-leadership of the 
CAE program. Through the CAE program, DHS interacts with nearly 200 
community colleges and universities throughout the year at various 
events, such as cybersecurity education conferences, and at individual 
meetings with these schools. In addition, DHS contributes to the 
development and enhancement of core and optional knowledge units, which 
collectively standardize the curricula offered at these schools, thus 
ensuring that America's students receive the most rigorous and current 
cybersecurity educations possible. Further, DHS serves as a strategic 
advisor to the CAE program, including providing advice on the program's 
communication plans and growth strategy.
    While an academic institution, such as Armstrong State University, 
need not have CAE designation for DHS to engage with it, by receiving 
CAE designation, Armstrong State would demonstrate that its 
cybersecurity curriculum meets the Government's needs in cybersecurity 
education and is among the top schools in the Nation in terms of its 
cybersecurity course offerings. If Armstrong State University wishes to 
apply for CAE designation, its representatives can visit https://
www.iad.gov/NIETP/CAERequirements.cfm to learn more about the program 
requirements, and DHS personnel are available to speak to the 
University's representatives.
    Another way that DHS engages with the academic community to 
encourage adoption of best practices and educate students about ways to 
be safe on-line is through the National Cybersecurity Awareness 
Campaign, Stop.Think.Connect. Academic Alliance. The 
Stop.Think.Connect. Campaign is a National public awareness campaign 
aimed at increasing the understanding of cyber threats and empowering 
the American public to be safer and more secure on-line.
    Through the Academic Alliance, DHS and the Campaign share vital 
resources and information to partners, stakeholders, students, and 
community members across the country at a variety of academic 
institutions.
    Currently, there are over 50 Academic Alliance partners that have 
joined the Campaign partnership through DHS to date. These universities 
and colleges join 150 additional partners from non-profit organizations 
and Government agencies/departments committed to increasing on-line 
safety. This collaboration allows all partners to obtain cybersecurity 
tips, messaging, articles, and presentations, gain access to DHS 
Campaign materials, tools, and subject-matter experts, and join monthly 
partner discussions highlighting current cyber issues and trends.
    The Stop.Think.Connect. Campaign provides the Academic Alliance 
partners with beneficial insight into cyber threats that fellow 
academic institutions face as well. They also join monthly partner 
calls that highlight resources and information from non-profit partners 
and partners from Federal/local government agencies and departments. In 
addition, these partners plan outreach activities throughout the year 
across the country, including focused cybersecurity awareness 
activities during National Cyber Security Awareness Month, which takes 
place each October.
    In August 2000, the Secret Service and CERT, part of the Software 
Engineering Institute (SEI), a Federally-funded research and 
development center (FFRDC) located at Carnegie Mellon University, 
established the Secret Service CERT Liaison Program. The purpose of the 
liaison program is to provide technical support, training, 
opportunities for research and development. Through this partnership 
with CERT, the Secret Service extends its investigative capabilities 
through the efforts of more than 150 scientists and researchers in the 
fields of computer and network security, malware analysis, forensic 
development, training, and education.
    The Secret Service leverages CERT's innovative technology and 
expert staff to meet emerging investigative and protective challenges. 
To meet emerging challenges to investigative operations, the Secret 
Service sponsors the development of forensic tools available for use by 
law enforcement, military, and intelligence agencies. CERT provides 
support to complex electronic crime investigations in the areas of 
forensic analysis, network traffic analysis, cryptanalysis, malicious 
code analysis forensic tool development and training development.
    DHS also partners with the National Science Foundation (NSF) and 
the Office of Personnel Management to co-sponsor the CyberCorps: 
Scholarship for Service (SFS) program. The SFS program provides 
competitive awards to multiple colleges and universities with existing 
strong academic programs in cybersecurity to fund cybersecurity 
scholarships. Students receive SFS scholarships for up to 3 years to 
study cybersecurity, after which they must work for a Federal, State, 
local, or Tribal government organization in a position related to 
cybersecurity for a period of service equivalent to the length of their 
scholarship. This program is specifically called out and funding is 
required by the Department in appropriations language.
    Additionally, the U.S. Secret Service operates a cyber facility 
housed on the University of Tulsa, a CyberCorps SFS program school, 
wherein SFS students work with Special Agents of the Secret Service 
toward a three-pronged mission: (i) Training Federal, State, and local 
law enforcement agents in mobile device forensics; (ii) developing 
novel hardware and software solutions for extracting and analyzing 
digital evidence from mobile devices; and (iii) applying the hardware 
and software solutions to support criminal investigations conducted by 
the Secret Service and its partner agencies.
    Question 4. Does the agency have any plans to increase cooperation 
with the academic community moving forward?
    Answer. DHS is actively engaged with the academic community in 
terms of information sharing and collaboration on projects that support 
the DHS mission. For example, the DHS Office of Academic Engagement 
formed the Homeland Security Academic Advisory Committee (HSAAC), which 
advises DHS on matters related to the five DHS mission areas from an 
academic perspective. HSAAC includes a cybersecurity subcommittee.
    Although cooperation between DHS and the academic community is 
strong, DHS is always seeking opportunities to expand and enhance this 
cooperation. For example, DHS is very interested in expanding the 
number of CAE-designated institutions to include at least one 
designated CAE in all 50 States. Further, DHS is looking to expand the 
number of CAE focus areas, ensuring that more CAEs are able to become 
certified in cybersecurity areas that support DHS's mission critical 
needs. DHS is actively seeking the support and interest of academic 
institutions to reach to local high schools and middle schools to 
encourage adoption of cyber-integrated curricula. Finally, DHS will 
continue to build its awareness and general cyber outreach efforts with 
academia.
    Question 5. What is DHS doing to synchronize these efforts and 
adopt a combined approach to address an evolving cyber threat 
landscape?
    Answer. Cybersecurity is a shared mission and requires coordinated 
efforts among Government, the private sector, and academia to 
effectively manage both current and emerging risks. DHS executes 
coordination with academia through three principal mechanisms. First, 
DHS, within its National Protection and Programs Directorate (NPPD), 
maintains a Cybersecurity Education and Awareness program office that 
is responsible for synchronizing education and workforce development 
across the cybersecurity community. By centralizing education and 
workforce activities within a single program office, NPPD promotes 
broad and systemic adoption of common standards and curricula. The 
Centers for Academic Excellence (CAE) program exemplifies this 
approach, as NPPD is able to synchronize cybersecurity programs across 
over 200 higher education institutions through guidance, accreditation, 
and workforce opportunities for eligible students.
    Second, NPPD's National Cybersecurity and Communications 
Integration Center (NCCIC) serves as the U.S. Government's 24/7 hub for 
cybersecurity information sharing, incident response, and coordination. 
Thirteen Federal departments and agencies and 16 private-sector 
entities have regular, dedicated liaisons at the NCCIC, while over 100 
private-sector entities collaborate and share information with the 
NCCIC on a routine basis. The NCCIC shares information on cyber threats 
and incidents, and provides on-site assistance to victims of cyber 
attacks. In this year alone, the NCCIC has shared over 15,000 
bulletins, alerts, and warnings, responded on-site to 21 incidents and 
conducted nearly 130 technical security assessments. The NCCIC allows 
DHS to adopt a combined approach in bringing together government, the 
private sector, and international allies in addressing a shared cyber 
threat.
    Third, NPPD leverages the National Infrastructure Protection Plan 
(NIPP) to work with critical infrastructure partners across the 
country. Recognizing that critical infrastructure is increasingly 
dependent on cyber space for the provision of key services and 
functions, NPPD works to align physical and cybersecurity services to 
work with the private sector in developing and promulgating sector- and 
organization-specific guidance, in turn promoting the adoption of 
common best practices that are sufficiently flexible to address the 
unique business and risk environments of individual organizations.
    Question 6. How hard would it be to tie in cyber activities at the 
Federal Law Enforcement Training Center in Brunswick, GA with the 
capabilities pioneered by universities like Armstrong State in the 
cyber forensics realm?
    Answer. To ensure its training continues to meet the needs of 
today's law enforcement officers and agents, the Federal Law 
Enforcement Training Centers (FLETC) must incorporate expertise and 
technological advances born from academia, industry, military, and law 
enforcement in its cyber training programs. As innovation is not 
exclusive to one specific individual or entity, FLETC partners with a 
diverse cross-section of experts to ensure it maintains current 
knowledge and expertise in the critical area of cyber forensics.
    FLETC participates in discussions with a variety of Government and 
non-Government committees and groups that share thoughts and ideas 
related to cyber crime. Through these organizations, FLETC has 
opportunities to discuss tools, techniques, and training standards with 
other cyber experts, which often leads to FLETC incorporating new 
material into its cyber-related training. The following are 
professional organizations FLETC presently partners with in sharing and 
developing cyber training, which also partner with academia:
  <bullet> Computer Crime and Digital Evidence Committee for the 
        International Association of Chiefs of Police, National Center 
        for Forensics Science at the University of Central Florida
  <bullet> Department of Homeland Security, Science and Technology 
        Directorate, Cyber Forensics Working Group, Centers of 
        Excellence with multiple universities including the University 
        of South Carolina, the University of Minnesota, and the 
        University of Illinois
  <bullet> Federal Bureau of Investigation Cyber Shield Alliance and 
        Cyber Investigator Certification Program, Software Engineering 
        Institute of the Carnegie Mellon University
  <bullet> INTERPOL Global Cybercrime Expert Group.
    FLETC also partners with the following organizations, primarily 
consisting of law enforcement, which routinely share ideas with 
academia about cyber tools and techniques:
  <bullet> National Technical Investigators Association
  <bullet> Defense Cyber Investigations Training Academy
  <bullet> High Technology Crime Investigations Association
  <bullet> International Association of Computer Investigative 
        Specialists
  <bullet> Computer Crime and Intellectual Property Section of the 
        United States Department of Justice.
    Periodically, FLETC meets with academic institutions to discuss 
cyber curriculum and to share information. FLETC has conducted cyber 
training for law enforcement at the campuses of Armstrong Atlantic 
State University and the University of Central Florida. A faculty 
member from each university participated in the session on his or her 
respective campus. Additionally, FLETC is currently partnering with the 
College of Coastal Georgia (CCGA) by sharing curriculum development 
expertise as CCGA pursues designation as a Center of Academic 
Excellence in Information Assurance/Cyber Defense. This partnership 
allows both organizations to share best practices, exposes FLETC staff 
to related university-level processes, and facilitates increased access 
by CCGA to associated FLETC subject-matter experts. Since 2007 FLETC 
has hosted 7 college interns in its Cyber Division. These students 
conducted research projects and attended training in a variety of law 
enforcement topics. FLETC would welcome the opportunity to expand its 
collaboration with academia on cyber training in the interest of 
ensuring its training curriculum is up-to-date and meets the needs of 
today's law enforcement officers and agents.
 Questions From Honorable Barry Loudermilk for Honorable Jeh C. Johnson
    Question 1a. There have been varying data reports on the ratio of 
men to women and children coming into our borders. Most of the 
statistics I have come across indicate that the majority of Syrian 
refugees are predominately males while a small percentage remains women 
and children. Is this true?
    Question 1b. If so, what is the correct ratio of Syrian refugee men 
to women and children?
    Answer. The overwhelming majority of Syrian refugees we have 
accepted and will accept are families, children, and other especially 
vulnerable refugees, such as victims of torture and those with medical 
needs or disabilities. We have prioritized the most vulnerable of 
Syrian refugees for resettlement--which include those who are victims 
of the violence perpetrated by both the Assad regime and ISIL in Syria.
    Of the overall caseload of Syrian refugees referred to the U.S. 
Refugee Admissions Program (USRAP), that caseload is evenly split 
between male and female applicants (53 percent male and 47 percent 
female). Over 50 percent of applicants are 18 years of age or younger; 
approximately 2.5 percent of the applicants are over the age of 60; and 
fewer than 2 percent of the applicants are unattached single males with 
no cross-referenced cases and no relatives or friends in the United 
States. For information regarding refugees resettled in the United 
States, we would refer you to the Department of State.
    Question 2. As we welcome an additional 10,000 Syrian refugees in 
fiscal year 2016 alone, how are you and your partner agencies planning 
to monitor admitted refugees to ensure violent extremists have not 
infiltrated their ranks?
    Answer. Refugees undergo a rigorous screening process prior to 
their admission into the United States. The process is the most robust 
for any category of individuals seeking admission into the United 
States, and is multi-layered and intensive. It involves multiple law 
enforcement, National security, and intelligence agencies across the 
Federal Government. Only those satisfying these rigorous requirements 
are admitted into the United States as refugees.
    Refugee status is a permanent immigration status and a person 
admitted as a refugee is authorized to remain in the United States 
indefinitely barring any negative information such as criminal history 
or loss of immigration status. A person admitted as a refugee is 
required to apply for adjustment of status to lawful permanent 
residency 1 year after being admitted to the United States. Five years 
after arrival a refugee can apply for naturalization, provided they 
have adjusted status to permanent resident during this time, 
continuously resided in the U.S. for 5 years prior to applying for 
naturalization, submit to security checks, and meet the other 
eligibility requirements for naturalization.
    Like other residents of the United States, refugees enjoy freedom 
of movement within the country. Refugees, like other non-citizens, are 
required to report any change-of-address to USCIS within 10 days of 
moving within the United States or its territories. As noted, a refugee 
is also required to apply for adjustment of status to permanent 
residence status 1 year after admission as a refugee. At this point, 
security checks are re-run and the applicant is questioned again about 
potential grounds of inadmissibility, such as criminal activity or 
terrorism-related inadmissibility grounds. Finally, any refugee who 
comes to the attention of law enforcement or National security agencies 
may be subject to criminal charges or civil immigration proceedings, 
possibly leading to removal from the country.
    Question 3. Is the United States prioritizing Christian refugees, 
who are focal persecution targets in Syria?
    Answer. When referring cases to the U.S. Refugee Admissions 
Program, the U.N. High Commission for Refugees and Department of State 
emphasize the most vulnerable Syrians, including female-headed 
households, children, survivors of torture, and individuals with severe 
medical conditions. Members of religious minorities, including 
Christians, may be among those referred as vulnerable refugees.
 Questions From Honorable Norma J. Torres for Honorable Jeh C. Johnson
    Question 1. What specific steps have the Department of Homeland 
Security, FBI, and NCTC taken to ensure its respective workforces 
reflect the diversity of the communities they protect?
    Answer. DHS issued a Diversity and Inclusion Strategic Plan in 
fiscal year 2012 that specifically provides the framework for 
recruiting a diverse workforce, creating an inclusive workplace, and 
ensuring management accountability. The Office of the Chief Human 
Capital Officer coordinates Departmental efforts to recruit from a 
diverse, broad spectrum of potential applicants, including a variety of 
geographic regions, academic sources, and professional disciplines. 
Each DHS operational component completes an annual Component Recruiting 
and Outreach Plan that identifies short and long-term workforce needs, 
including workforce diversity. To the extent practical, we coordinate 
specific recruiting efforts collaboratively. We also maintain a 
consolidated recruitment presence on our website.
    Question 2. What are your respective diversity goals and what is 
the time frame for achieving those goals?
    Answer. DHS (and other Federal agencies) are not permitted to have 
diversity goals in terms of hiring, except with hiring veterans and 
individuals with disabilities. For all other groups, DHS analyzes the 
workforce diversity of each component and works on recruiting and 
outreach strategies for groups with low participation rates.
    Question 3. Have DHS, FBI, and NCTC engaged in outreach efforts to 
high school and post-secondary schools to inform students about careers 
in homeland security and intelligence?
    Answer. The Department of Homeland Security (DHS) maintains several 
dedicated outreach initiatives and partnerships with academic 
institutions to promote the Department's mission to various academic 
communities. Two DHS Headquarters programs focus on engagement with the 
academic community:
  <bullet> In 2011, DHS established the Office of Academic Engagement 
        (OAE) to build and strengthen the Department's relationship 
        with the academic community. Among its responsibilities, OAE 
        manages the Homeland Security Academic Advisory Council, a 
        Federal advisory committee of college and university 
        presidents, academic leaders, and interagency partners that 
        provides advice and recommendations to the Secretary on topics 
        related to homeland security and the academic community, 
        including cybersecurity and student and recent graduate 
        recruitment.
  <bullet> In 2013, the Department established the CyberSkills 
        Management Support Initiative (CMSI), addressing 
        recommendations from the Homeland Security Advisory Council's 
        Task Force on CyberSkills. CMSI's main purpose is to develop 
        and execute Department-wide human capital strategies, policies, 
        and programs that will create, enhance, and support a top-notch 
        DHS cyber workforce. CMSI works directly with secondary and 
        post-secondary institutions to provide students with 
        information regarding DHS's cybersecurity mission and workforce 
        opportunities.
  <bullet> In 2014, DHS OCHCO executed Memoranda of Understanding (MOU) 
        with five higher education associations representing more than 
        1,500 colleges and universities, including community colleges 
        and minority-serving institutions. Through the MOUs, DHS 
        engages the associations to provide information on employment 
        and internship opportunities for students and recent graduates. 
        DHS meets with the associations semiannually and provides 
        quarterly reports to the associations on employment and grant 
        opportunities. Also as a result of the MOUs, in 2015, DHS 
        representatives participated in National conferences of the 
        Hispanic Association of Colleges and Universities and the Asian 
        American and Pacific Islander Association of Colleges and 
        Universities to share information on employment opportunities 
        at DHS.
    As the number of students studying technical and cyber-related 
majors has increased, the Department recognizes that academic 
institutions and student groups provide access to a large talent pool 
for cybersecurity positions. These outreach events build partnerships 
with 2-year and 4-year academic institutions, as well as K-12 schools 
to connect classroom coursework to real-world cybersecurity careers. 
The Department uses several approaches to connect with academic 
institutions and students, including:
  <bullet> Launching the Secretary's Honors Program Cyber Student 
        Volunteer Initiative (CSVI) in 2013. CSVI allows students 
        pursuing cybersecurity-related degrees at 2- and 4-year 
        colleges and universities the opportunity to gain hands-on 
        experience at DHS through temporary volunteer opportunities. 
        CSVI initially started as a pilot program with 21 participants, 
        who worked with U.S. Immigration and Customs Enforcement in 18 
        cities Nation-wide. The 2014 CSVI cohort expanded to 7 
        participating Components with 70 student volunteers placed in 
        40 DHS office locations. In 2015 the cohort included 8 
        participating components that placed 51 volunteers in 31 DHS 
        offices in 20 States.
  <bullet> Conducting cybersecurity-focused panel discussions and tours 
        with academic institutions at various DHS component locations 
        attended by DHS executive leadership.
  <bullet> Hosting webinars with colleges and universities informing 
        students of DHS career opportunities and the Department's 
        commitment to engaging cyber talent to build a cybersecurity 
        workforce.
  <bullet> Developing the National Initiative for Cybersecurity Careers 
        and Studies (NICCS) portal, an on-line resource for Government, 
        industry, academia, and the general public to learn about 
        cybersecurity awareness, education, careers, and workforce 
        development opportunities.
  <bullet> Sponsoring the CyberCorps: Scholarship for Service (SFS) 
        program through the National Protection and Programs 
        Directorate (NPPD). SFS provides scholarships through the 
        National Science Foundation to 56 universities across the 
        country. Selected students receive SFS scholarships for up to 3 
        years to study cybersecurity, after which they owe the 
        Government a period of service equivalent to the length of 
        their scholarship.
  <bullet> Sponsoring the CyberPatriot competition, which impacts 
        numerous middle and high school students each year and steers 
        them toward cybersecurity careers and studies. Since 2009, this 
        NPPD program has experienced per annum growth of more than 20 
        percent. Teams from all 50 States and the District of Columbia 
        participate in CyberPatriot.
  <bullet> Sponsoring the National Collegiate Cyber Defense Competition 
        where more than 2,000 students representing over 180 colleges 
        and universities competed in a scenario-based defense 
        competition.
  <bullet> Supporting the U.S. Cyber Challenge, where approximately 
        2,000 students compete on-line for a scholarship and a chance 
        to attend 1 of 4 week-long cybersecurity training camps 
        throughout the Nation.
  <bullet> Regularly conducting outreach to schools to inform students 
        about careers in homeland security intelligence through the 
        Office of Intelligence and Analysis (I&A). In fiscal year 2015, 
        I&A participated in 13 outreach events at universities and 
        colleges Nation-wide. Two of these events were in concert with 
        intelligence community partners, including the Federal Bureau 
        of Investigation and National Counterterrorism Center. In 
        September 2015, I&A also supported a Congressional Black Caucus 
        event designed to increase diversity in Government that 
        included high school and post-secondary students.
    Question 4. What obstacles stand in the way of your respective 
agencies hiring a workforce that represents the diversity of the United 
States?
    Answer. The DHS civilian workforce is very diverse. In fiscal year 
2015, 43 percent of the workforce self-identified as other than white 
(non-Hispanic) compared to 35 percent for the Federal Government 
overall. Hispanics comprise nearly 21 percent of the DHS civilian 
workforce, compared to the 8 percent for the Federal workforce overall. 
DHS is committed to a diverse and inclusive workforce, and efforts to 
create a diverse workforce remain a special focus for the Department's 
recruitment efforts.
    DHS is the Nation's largest law enforcement agency; almost 40 
percent of positions across DHS are law enforcement-related. DHS is 
committed to greater outreach to women regarding career opportunities 
in law enforcement. This commitment is demonstrated by strong 
partnerships with professional organizations for women law enforcement, 
ensuring broad DHS engagement in high-profile recruiting events 
focusing on women and women in law enforcement in particular, and 
various component-lead best practices including targeted marketing 
campaigns. Specific examples include:
  <bullet> strong coordination with Women in Federal Law Enforcement 
        (WIFLE) organization and at WIFLE annual training conferences
  <bullet> attendance at Women's Leadership Symposium and Women 
        Veterans Employer Symposium
  <bullet> OCHCO partnering with CBP regarding Border Patrol Agent and 
        CBP Officer recruitment and hiring, with a focus on 
        transitioning service members, veterans, and women and
  <bullet> marketing in Professional Woman's Magazine Spring 2015 Issue 
        and WomenforHire.com.
    In addition, in fiscal year 2015, the President's Council on 
Veterans Employment (Council) asked the DHS CHCO to lead an interagency 
workgroup on Women Veterans. The workgroup's final report and 
recommendations were adopted by the Council and now apply to all 24 
agencies under the Executive Order. The White House reviewed the report 
and issued a blog on the Joining Forces website and requested OPM to 
publish the report on the ``Feds Hire Vets'' website. In fiscal year 
2016, OCHCO will assemble a DHS-wide workgroup to develop a broader 
strategy on recruitment of women for law enforcement, which will also 
include a specific focus on women veterans.
    Competition with other Federal agencies and the private sector for 
the same talent is the primary obstacle in creating and sustaining a 
workforce that fully reflects the diversity of the United States. For 
some high-demand positions such as cybersecurity and science, 
technology, engineering, and math (STEM), DHS competes for top talent 
with not only other Federal agencies, but the private sector as well. 
DHS is working to enhance the pool of available diverse talent in these 
types of fields through its utilization of the Pathways Programs; the 
Secretary's Honors Program; Cyber Student Volunteer Initiative; and 
MOUs with Higher Education Associations. DHS shares information about 
employment opportunities with Higher Education Associations such as 
Hispanic Association of Colleges and Universities (HACU); National 
Association for Equal Opportunity in Higher Education (NAFEO); American 
Indian Higher Education Consortium (AIHEC); Asian Pacific Islander 
American Association of Colleges and Universities (APIACU); and the 
American Association of Community Colleges (AACC). DHS is also 
partnering with the White House Office of Science and Technology 
Policy, OPM, and 13 other Federal agencies to increase diversity in 
STEM across the Federal Government. DHS also utilizes mechanisms such 
as direct hire authority for cybersecurity positions, an authority 
which OPM recently extended at the Department's request. DHS is 
actively working on the long-term implementation of cybersecurity-
specific hiring and pay flexibilities which Congress granted to the 
Secretary in the Border Patrol Agent Pay Reform Act.
  Questions From Honorable Barry Loudermilk for Nicholas J. Rasmussen
    Question 1a. There have been varying data reports on the ratio of 
men to women and children coming into our borders. Most of the 
statistics I have come across indicate that the majority of Syrian 
refugees are predominately males while a small percentage remains women 
and children. Is this true?
    Answer. Response was not received at the time of publication.
    Question 1b. If so, what is the correct ratio of Syrian refugee men 
to women and children?
    Answer. Response was not received at the time of publication.
    Question 2. As we welcome an additional 10,000 Syrian refugees in 
fiscal year 2016 alone, how are you and your partner agencies planning 
to monitor admitted refugees to ensure violent extremists have not 
infiltrated their ranks?
    Answer. Response was not received at the time of publication.
    Question 3. Is the United States prioritizing Christian refugees, 
who are focal persecution targets in Syria?
    Answer. Response was not received at the time of publication.
   Questions From Honorable Norma J. Torres for Nicholas J. Rasmussen
    Question 1. What specific steps have the Department of Homeland 
Security, FBI, and NCTC taken to ensure its respective workforces 
reflect the diversity of the communities they protect?
    Answer. Response was not received at the time of publication.
    Question 2. What are your respective diversity goals and what is 
the time frame for achieving those goals?
    Answer. Response was not received at the time of publication.
    Question 3. Have DHS, FBI, and NCTC engaged in outreach efforts to 
high school and post-secondary schools to inform students about careers 
in homeland security and intelligence?
    Answer. Response was not received at the time of publication.
    Question 4. What obstacles stand in the way of your respective 
agencies hiring a workforce that represents the diversity of the United 
States?
    Answer. Response was not received at the time of publication.
        Questions From Honorable Scott Perry for James B. Comey
    Question 1. Earlier this month, the Associated Press reported that 
in the past 5 years, the FBI has thwarted four smuggling attempts of 
nuclear and radioactive material in Eastern Europe--with the latest 
occurrence in February of this year. With the knowledge of this 
thriving ``nuclear black market,'' what is the administration's plan to 
counter this threat?
    Answer. Response was not received at the time of publication.
    Question 2. What are the FBI's plans for the influx of expected 
Syrian refugees?
    Does the FBI anticipate that the influx of Syrian refugees will 
present a burden on existing manpower and resources?
    Answer. Response was not received at the time of publication.
  Questions From Honorable Earl L. ``Buddy'' Carter for James B. Comey
    Question 1. What is the FBI doing to target terrorist groups that 
use the internet to prey on young Americans?
    Answer. Response was not received at the time of publication.
    Question 2. Are we using social media to engage communities to 
recognize when a young individual might be a target to a terrorist 
group?
    Answer. Response was not received at the time of publication.
    Question 3a. What is being done specifically to work on the 
community level to address the issue of targeting young adults?
    Are we talking with clergy?
    Are we doing town hall meetings?
    Is law enforcement making themselves available on a daily basis?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Barry Loudermilk for James B. Comey
    Question 1a. There have been varying data reports on the ratio of 
men to women and children coming into our borders. Most of the 
statistics I have come across indicate that the majority of Syrian 
refugees are predominately males while a small percentage remains women 
and children. Is this true?
    Question 1b. If so, what is the correct ratio of Syrian refugee men 
to women and children?
    Answer. Response was not received at the time of publication.
    Question 2. As we welcome an additional 10,000 Syrian refugees in 
fiscal year 2016 alone, how are you and your partner agencies planning 
to monitor admitted refugees to ensure violent extremists have not 
infiltrated their ranks?
    Answer. Response was not received at the time of publication.
    Question 3. Is the United States prioritizing Christian refugees, 
who are focal persecution targets in Syria?
    Answer. Response was not received at the time of publication.
      Questions From Honorable Norma J. Torres for James B. Comey
    Question 1. What specific steps have the Department of Homeland 
Security, FBI, and NCTC taken to ensure its respective workforces 
reflect the diversity of the communities they protect?
    Answer. Response was not received at the time of publication.
    Question 2. What are your respective diversity goals and what is 
the time frame for achieving those goals?
    Answer. Response was not received at the time of publication.
    Question 3. Have DHS, FBI, and NCTC engaged in outreach efforts to 
high school and post-secondary schools to inform students about careers 
in homeland security and intelligence?
    Answer. Response was not received at the time of publication.
    Question 4. What obstacles stand in the way of your respective 
agencies hiring a workforce that represents the diversity of the United 
States?
    Answer. Response was not received at the time of publication.

                                 <all>
</pre></body></html>
